<html>
<title> - [H.A.S.C. No. 111-74]THINKERS AND PRACTITIONERS: DO SENIOR PROFESSIONAL MILITARY EDUCATION SCHOOLS PRODUCE STRATEGISTS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-74]

 THINKERS AND PRACTITIONERS: DO SENIOR PROFESSIONAL MILITARY EDUCATION 
                      SCHOOLS PRODUCE STRATEGISTS?

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              JUNE 4, 2009

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  U.S. GOVERNMENT PRINTING OFFICE
51-766                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        MIKE ROGERS, Alabama
SUSAN A. DAVIS, California           TRENT FRANKS, Arizona
JIM COOPER, Tennessee                CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GLENN NYE, Virginia                  DUNCAN HUNTER, California
CHELLIE PINGREE, Maine
                Lorry Fenner, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, June 4, 2009, Thinkers and Practitioners: Do Senior 
  Professional Military Education Schools Produce Strategists?...     1

Appendix:

Thursday, June 4, 2009...........................................    33
                              ----------                              

                         THURSDAY, JUNE 4, 2009
 THINKERS AND PRACTITIONERS: DO SENIOR PROFESSIONAL MILITARY EDUCATION 
                      SCHOOLS PRODUCE STRATEGISTS?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     3
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2

                               WITNESSES

Belcher, Col. Michael F., USMC, Director, Marine Corps War 
  College........................................................    15
Forsyth, Maj. Gen. Maurice H. ``Maury,'' USAF, Commander, Spaatz 
  Center for Officer Education, and Commandant, Air War College..    13
Hall, Rear Adm. Garry E., USN, Commandant, The Industrial College 
  of the Armed Forces............................................     5
Steel, Maj. Gen. Robert P., USAF, Commandant, The National War 
  College........................................................     7
Williams, Maj. Gen. Robert M., USA, Commandant, U.S. Army War 
  College........................................................    10
Wisecup, Rear Adm. James P., USN, President, U.S. Naval War 
  College........................................................     8

                                APPENDIX

Prepared Statements:

    Belcher, Col. Michael F......................................   149
    Forsyth, Maj. Gen. Maurice H. ``Maury''......................   140
    Hall, Rear Adm. Garry E......................................    41
    Snyder, Hon. Vic.............................................    37
    Steel, Maj. Gen. Robert P....................................    69
    Williams, Maj. Gen. Robert M.................................   120
    Wisecup, Rear Adm. James P...................................    89

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................   165
 
THINKERS AND PRACTITIONERS: DO SENIOR PROFESSIONAL MILITARY EDUCATION 
                      SCHOOLS PRODUCE STRATEGISTS?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                            Washington, DC, Thursday, June 4, 2009.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. Good morning. We are going to go ahead and 
begin. Mr. Wittman will be joining us shortly.
    This is the Subcommittee on Oversight and Investigations' 
second hearing on professional military education (PME); 
specifically today, officer-in-residence PME.
    On May 20th, outside witnesses discussed the 1986 
Goldwater-Nichols Act that reformed our military by 
institutionalizing what we call ``jointness.'' We also 
discussed the efforts of the 1989 Skelton Panel to review PME 
to ensure that jointness became part of the military's culture 
through its officer education system.
    Today we are looking at the six senior schools in the PME 
enterprise: the war colleges and the Industrial College of the 
Armed Forces (ICAF). These schools are meant to focus on 
developing strategists and teaching strategy--national, 
military, and resource.
    In later hearings we will hear from the commandants and the 
deans of the intermediate and ``career'' schools. And we will 
also invite the combatant commanders to appear, those who 
employ the graduates of these institutions; they should also be 
involved in these discussions.
    Today our panel is the senior leadership of the senior PME 
schools, including their commandants, commanders, directors, or 
in some cases presidents, and they are joined by their academic 
deans.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 37.]
    Dr. Snyder. We will now hear from Mr. Wittman.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Thank you, Chairman Snyder. I appreciate the 
opportunity.
    And good morning to our witnesses. We deeply appreciate 
your being here today and your service to our Nation.
    Our opening hearing on officer professional in-residence 
education featured outside experts who offered a range of 
thoughtful suggestions. While it is always useful to hear 
suggestions from intelligent observers unbound by current 
operations, we must also learn from those faced with the day-
to-day reality of managing our professional military education 
system.
    We have such people here today, the commandants of the 
military service and joint senior war colleges. These 
institutions are the top of the PME system. Each of our 
witnesses has had a unique career path. Even so, the road to 
your positions lies predominantly with operational assignments 
rather than academic posts.
    That successful officers come from the operational part of 
their respective services is no surprise, but I wonder how each 
of you adjusts to the particular challenges of running an 
academic institution where faculty cherish the right to 
exercise academic freedom and students are encouraged to think 
creatively. In short, do the witnesses believe their careers 
prepared them to be nurturing educators?
    I am also interested in your suggestions on recruiting and 
retaining the best faculty. Do you have the tools you need to 
recruit and retain the high-quality faculty teaching the fine 
students the military services send as students? Can you offer 
an academic environment attractive to the high-caliber faculty 
we seek at your institutions?
    Finally, I have to ask if the military services are sending 
the best students to our military senior service colleges. The 
military services each have their own unique service culture, 
and part of that culture is the view of the value of 
professional military education. Is that culture reflected in 
the quality of students?
    The Department's consortium of senior military professional 
educational institutions is a distinguished collection of 
academic excellence in all aspects of national security, 
diplomacy, and strategy. We provide experienced, talented 
military officers a year to read and think at taxpayers' 
expense at these fine schools. Is the investment worth it to 
them and to the Nation? I believe it is, but would like to get 
your thoughts on the record.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Wittman.
    We are pleased to be joined again by our full committee 
chairman, Ike Skelton, formerly the chairman of the Skelton 
panel from the late eighties.
    And he has already broken our microphone. This happens all 
the time. Mr. Skelton, I am going to hold forth for about an 
hour. We could use this old book to prop it up with--Ike 
Skelton's book.
    Go ahead, Mr. Chairman.

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
             CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Thank you, Mr. Chairman, Mr. Wittman. Thank 
you very much for the opportunity to sit in on this hearing. I 
want to compliment Dr. Snyder and the Ranking Member on holding 
hearings on this subject, which, as you may know, is near and 
dear to me through the years.
    A bit of history. Back in 1982 Richard White, a member of 
the Armed Services Committee, held a series of hearings in his 
subcommittee--which was the predecessor of this subcommittee--
on what David Jones, Air Force Chief of Staff and later 
Chairman of the Joint Chiefs of Staff, said publicly: that the 
Joint Chiefs of Staff gives pabulum advice, and was very 
critical of it.
    Needless to say he became a pariah among the military folks 
in the Pentagon; but, sadly, he was very, very right. After 
Richard White did the hearings, he retired. And Arch Barrett, 
who is one of those rare staff members that should be 
emblazoned in stone because he was so good at what he did here, 
convinced me to get involved with this same issue and 
introduced legislation to abolish the Joint Chiefs of Staff, 
which none of them handled very well.
    After passing legislation three times in the House over 
four years, the chairmanship in the Senate changed from John 
Tower to Barry Goldwater and Barry Goldwater to Sam Nunn--who 
had their own legislation--and we ended up in conference 
passing later the Goldwater-Nichols Act which was not well-
received among most of the officers of all services, with few 
exceptions like Bernard Trane and a few others.
    Following that, at the behest of Arch Barrett, I chaired a 
panel on professional military education that built on 
Goldwater-Nichols and working on joint education, and we ended 
up with a series of year-long hearings where we came out with a 
Phase I, Phase II--you know, all of that--and tried to 
reestablish rigor.
    We found that the various war colleges varied in complexity 
and difficulty. The Marines were way behind and to Al Gray's 
credit he turned it around 180 degrees. And the Air Force had a 
long way to go and that came around. The Army was good, B or B-
plus, doing pretty well. The best was the Navy, by far, and you 
didn't have to go there to get promoted but it was, for some 
reason, the premier in 1988.
    Well, fast forward to today. Have the war colleges, 
including National and ICAF, have they fulfilled their main 
purpose in life? And what is the main purpose? Well, 
Congressman Snyder mentioned it. It is to create strategists, 
strategic thinkers. Everybody that graduates from your school 
is not going to be a strategic thinker, but they will 
understand it, hopefully. But I also think that there should be 
a great deal of rigor. They should study every bit as hard as I 
did in law school. And of course being a product of a law 
school that did the case method, I think that might not be a 
bad idea for battles, campaigns, conflicts to be studied on a 
case-by-case basis, and hopefully you do at least some of that.
    But I question whether you are turning out, A, the 
strategists, and, B, whether they are being recognized and 
taken care of and put in the right slots or not. I have a deep 
concern about that. I have expressed that at the highest level 
within the military. And I hope that those magic people who are 
great strategists can be guided by you to the right positions 
on staffs and in commands where they can use that strategic 
thinking rather than being shunted aside in chagrin and caused 
to be discouraged. I have seen instances of this, and needless 
to say it bothers me a great deal.
    We are and have been blessed throughout the years with 
outstanding thinkers, but we have more, and they are not being 
utilized as they should be. I think that is up to you to 
identify those rare breeds and to make sure that their follow-
on assignments allow them to be encouraged and to make 
contributions to best of their abilities.
    This is a serious time. These are very serious times, and a 
year off with your family at school is not going to do it. Of 
course, it is wonderful to have a family at school and to 
participate in the activities, but you are trying to turn out 
and you should turn out--and then later make sure that they get 
the right slots within the military, whether they be joint or 
within the service that that they serve. I cannot stress that 
any stronger than I am now.
    So thank you for your hard work, for your intellectual 
abilities, and for your leadership. And, again, let me 
compliment you, Dr. Snyder, Mr. Wittman, for this series of 
hearings. It is timely and in dire need for our country. Thank 
you.
    Dr. Snyder. Thank you, Mr. Chairman, for your very 
thoughtful comments and all your work through literally the 
decades now on these very important subjects to our Nation.
    Our witnesses today are Rear Admiral Garry Hall, United 
States Navy, Commandant, the Industrial College of the Armed 
Forces; Major General Robert Steel, United States Air Force, 
Commandant, the National War College; Rear Admiral James 
Wisecup, United States Navy, President of the Naval War 
College; Major General Robert M. Williams, United States Army, 
Commandant, the Army War College; Major General Maury Forsyth, 
United States Air Force, Commander of the Spaatz Center and 
Commandant of the Air War College; Colonel Michael Belcher, 
United States Marine Corps, Director of the Marine Corps War 
College.
    We will put the timer on you, gentlemen. Your written 
statements will be made part of the record. When you see the 
red light go on, we are not going to shoot you. You should feel 
free to continue your statement if you need to. The challenge 
that we have with six of you is we decided we wanted to have 
all of you together here. We thought that would be good for all 
of us. If you all go 10 minutes instead of 5 minutes, it will 
be an hour before we get to any questions. So we hope that you 
will stay within the five minutes.
    Admiral, we will begin with you and we will go right down 
the line. Thank you all for being here, and as I said, your 
statements will be part of the record that the staff already 
have, as do the members.

  STATEMENT OF REAR ADM. GARRY E. HALL, USN, COMMANDANT, THE 
             INDUSTRIAL COLLEGE OF THE ARMED FORCES

    Admiral Hall. Good morning, Chairman Skelton, Mr. Chairman, 
Dr. Snyder, Mr. Wittman, and Dr. Fenner. Thank you very much 
for the opportunity to be here today, and based on your opening 
statements, I know that you really get it in what we are trying 
to accomplish at our schools.
    I have been the commandant at the Industrial College of the 
Armed Forces for 18 months now, and I have observed 2 classes, 
so that is 640 students or fellows, and worked with just under 
100 faculty members. And I am extremely proud of the 
institution. My written statement, as you said, is part of the 
record so I have three takeaways from that statement that I 
would like to make.
    And the first one is, the point is that ICAF is unique. We 
are the only senior service school that teaches economics, and 
this translates into an appreciation of resource constraints. 
Our students learn to develop a national strategy while 
considering the reality of resources. And this was recently 
highlighted at our joint land-air-sea simulation held annually 
at the Air War College, where the ICAF students were recognized 
for their bringing all elements of power to bear: diplomatic, 
informational, military, and economic. So they really bring the 
soft powers and understand the resources.
    Point two I want to make is, Chairman Skelton, you spoke to 
Navy flags well before I was appointed to ICAF, and I remember 
clearly your statement as saying you want your students to work 
as hard as you did in law school, and that resonated with me, 
as well as your story about the shoe shine. What is the 
difference between a $3 shine and a $5 shine? It's attitude. So 
I express both of those comments to each class as they enter 
ICAF.
    So the second point is ICAF is a challenging and rigorous 
academic program. It is not your old generals' ICAF. Many 
senior officers say when folks are sent to ICAF, it is only a 
lot of reading, if you do it; it is a great time to work on 
your handicap. Students show up and find out it is a lot of 
reading and you are going to do it, and there is no time to 
work on your handicap. So this is not the old-school ICAF. Our 
students are graded rigorously based on class contribution; not 
participation, but their contribution to class. They are also 
graded on in-depth research papers for every one of their 
courses they take, and faculty members evaluate all students 
through every exercise. This gives us the ability to hand out 
an honor graduate award and also to recognize about 12 percent 
of our graduates as distinguished graduates based on their 
grade point average (GPA) and leadership contributions.
    Anecdotally, the Department of Homeland Security's 
education officer came in, looked at our curriculum, saw how it 
was being presented, and she said it was equal to her Ph.D. 
program that she is completing right now. Also, a Stanford 
University professor, after examining our curriculum, said we 
are perhaps the finest senior executive development course in 
the Nation, minus the finance. We teach economics but we don't 
teach finance.
    Also, during our industry studies in the field trips where 
I have participated, I have watched senior executives, after 
being interviewed or having discussions with our ICAF students, 
say, boy, these guys know more about us than we know about us, 
and our folks ask tough questions in a very polite manner. So 
there is rigor at ICAF.
    Point number three is, we are still true to our charter. As 
Bernard Baruch said, he wanted a small school in touch with 
industry. We are still true to being in touch with industry but 
we are not averse to change or growth. We are constantly 
evolving. ICAF provides a relevant education for today's 
strategic environment.
    And, Chairman Skelton, you always ask or often ask: Can a 
graduate have a conversation with General Marshall? Well, I 
feel after observing 640 students, as you said, not all of them 
are going to be that unique strategic leader, but I think over 
90 percent of my graduates not only can have a conversation 
with General Marshall but could understand that conversation. 
They could politely challenge him, and they could continue to 
help him to develop his strategic thought. And then in the end, 
they could capture that thought, put it in clear concise 
writing, and be able to communicate it to others, something I 
think is very important to our commanders.
    Again, an example of could they have that conversation? For 
the past 15 years we have had the national security strategy 
exercise where our students look forward 10 years and create a 
national strategy. They then, at the conclusion of 2 weeks of 
this exercise, brief out to 60 distinguished visitors (DV) at 
the three- and four-star rank in uniform, in industry, and in 
government. And again and again, the DV participants say, can 
we please come back, these folks are really great. So I do 
think we are producing strategic leaders.
    So in summary, I am proud to be the commandant. I am 
energized by the students. I am inspired by the faculty, and I 
am a strong believer that one person can make a difference. So 
next week, one week from today, we will graduate 320 
individuals, who will immediately go out with the 
sophistication needed to operate at the strategic level and 
soon be the strategic leader themselves.
    An example would be in uniform, General Ann Dunwoody, who 
is now the first female four-star in the United States Army; in 
government, Dr. Kaminski, who has been a thought leader for 
government for decades; in business/industry, Chet Huber is now 
the CEO of OnStar; and one of our international Fellows, 
Ambassador Yousef Al Otaiba, is now United Arab Emirates 
Ambassador to the United States.
    Mr. Snyder, you asked about our preparation for our 
commandants. And I would say President Obama used the quote 
that ``The life of law is not logic but experience.'' And I 
translate that it is the experience that is important to being 
a commandant or president of one of these colleges. So it is my 
experience operationally that I think makes a difference, gives 
a new set of eyes, and it is very easy to operate in an 
environment of academic freedom, because that comes down to 
moral courage and moral leadership in doing what is right. And 
so I feel that I am prepared to be the commandant and I am 
proud to be the commandant, and I will be happy to answer any 
of your questions.
    And also, Chairman Skelton, I do get involved when I see 
those unique people with the right energy and intellect to 
follow on, to make sure they are placed in the right 
environment, or talk to their service. And also, my biggest 
concern is more with the government employees who often go back 
to their original jobs. So I talk to all leaders that come 
through about placement in the next job.
    I will be happy to take any further questions. Thank you 
very much.
    Dr. Snyder. Thank you.
    [The prepared statement of Admiral Hall can be found in the 
Appendix on page 41.]
    Dr. Snyder. General Steel.

 STATEMENT OF MAJ. GEN. ROBERT P. STEEL, USAF, COMMANDANT, THE 
                      NATIONAL WAR COLLEGE

    General Steel. Chairman Skelton, Chairman Snyder, 
Congressman Wittman, and members of the subcommittee, I want to 
thank you for the opportunity to address the education of the 
men and women protecting and representing our country.
    In my written testimony I addressed my vision for the 
National War College, the quality of its faculty, the 
composition of its student body, and the rigor of its 
curriculum.
    I would like to note a few key points from it. It is an 
honor and a privilege to serve as commandant of the National 
War College. The National War College prepares future 
generations of America's top military and civilian leaders 
through a course of study that enhances student knowledge of 
the national security issues, sharpens their analytical 
abilities, and focuses specifically on the successful 
formulation and execution of grand strategy. We also stress the 
habits, breadth, and depth of mind needed by senior 
policymakers and military commanders. Above all, we encourage 
students to hone their critical thinking skills.
    In my opening remarks I would like to emphasize three 
points. First, it is important to recognize and preserve the 
unique mission of each war college. Second, National War 
College's focus on grand strategy is critical to producing 
leaders who can deal with the national security challenges of 
today and tomorrow. Third, the leadership and organization of 
our senior service colleges are not broken as some would 
suggest.
    Ensuring Joint PME II (JPME II) at all the war colleges is 
important, but it should not detract from the specialized 
excellence that each provides. When Chairman Skelton stressed 
the criticality of jointness in JPME years ago, he was careful 
to ensure that people did not interpret that as one national 
uniformed service. He recognized that jointness functioned best 
when it synthesized the best each service brought to the table.
    While we look for ways to improve JPME, I ask that you 
preserve the specific mission that each war college was 
chartered to accomplish. For the National War College, it is 
the national security strategy mission that must be preserved. 
Each of the three critical components of the college--faculty, 
student body, and curriculum--has unique joint, combined, 
interagency composition. There is no particular service or 
agency lens through which problems are viewed. Equally 
important, our Washington, D.C., location means we can attract 
top non-Department of Defense (DOD) U.S. Government students 
and faculty. It also means that our students have tremendous 
access to the highest echelons of our three branches of 
government, our most renowned think tanks, and the entire 
Washington diplomatic corps. With the exception of our sister 
college, ICAF, I am aware of no other institution, government 
or private, that has these critical assets.
    Finally, I challenge those that suggest the leadership and 
organization in our senior service colleges are broken. Leading 
the college requires the same senior leadership skills required 
for any large and complex institution: a dedication to mission, 
an ability to integrate the very best that JPME and the 
civilian academic world can offer our students, and a vision to 
anticipate the challenges of tomorrow.
    A commandant must remember that these are hybrid 
organizations, a mix of military, civilian government, and 
academic environments whose strength flows from their 
diversity. I would be concerned by any line of thinking that 
fails to take into account our unique strengths. As an 
institution, it combines the best of the civilian academic 
world with senior government and military expertise. We bring 
together the next generation of our country's military and 
civilian leaders, along with their international peers, for a 
program of study that has the unique capacity of allowing them 
to interact intensively with one another over a 10-month period 
and come to grips with the key issues that they will confront 
as they rise to positions of greater responsibility.
    This unique experience is the central added value that PME 
institutions like the National War College bring to the 
education of our future leaders. It is not replicated in 
private sector universities. The critical essential element in 
achieving our unique mission is professional diversity. 
Diversity in our leadership, in our faculty, in our student 
body, and in our curriculum.
    While our academic professionals help guide curriculum 
development, understand theory, maintain academic rigor, our 
professional practitioners bring a sense of operational reality 
that can be applied to the theories we teach. Leading these 
institutions requires a careful blending, a balance of these 
two forms of education where we will find the success that 
Chairman Skelton, you and your subcommittee, Chairman Snyder, 
and we who lead the schools all seek.
    Mr. Chairman, thank you again for this opportunity to 
testify on a vital national security issue, the education of 
our future national security leaders.
    [The prepared statement of General Steel can be found in 
the Appendix on page 69.]
    Dr. Snyder. Admiral Wisecup.

 STATEMENT OF REAR ADM. JAMES P. WISECUP, USN, PRESIDENT, U.S. 
                       NAVAL WAR COLLEGE

    Admiral Wisecup. Good morning, Mr. Chairman, Chairman 
Snyder, Mr. Wittman, and gentlemen and ladies of the Oversight 
and Investigations Committee. I thank you for the opportunity 
to speak with you today about professional military education 
in our Navy, especially our senior level course, and the work 
of the team at the Naval War College in providing career-long 
educational opportunities related to the mission of the Navy in 
serving the people of this Nation.
    The United States Naval War College will celebrate its 
125th anniversary in October. From its humble beginnings in the 
structure in which had been the Newport poorhouse, the college 
has built an international reputation for professional military 
education with alumni in nearly every corner of the globe. Our 
founder, Rear Admiral Stephen B. Luce, set a true course for 
educational success by choosing an approach based on focus and 
holistic study of war, its prevention, and the statesmanship 
involved with both. He envisioned active learning by students 
and faculty on seminal strategic issues in a collegial 
environment. One hundred and twenty-five years later, those 
traditions remain at the center of the college's approach to 
education.
    We carefully apply a very wide aperture of perspectives, 
disciplines, and cultures to the study of war and its 
prevention. We continue to seek to prepare our senior level 
students for the challenges and responsibilities of higher 
command and staff in an uncertain, ambiguous, and often 
surprising world. We aim to help prepare them for strategic 
level leadership, not simply their next duty station. We do 
that principally by inculcating in them disciplined habits of 
thought through a strategic-level lens and by helping them hone 
their ability to critically think and write about the 
associated complex issues.
    We are confident our approach, which highlights an 
executive perspective in a seminar-centered environment 
requiring an appreciation of alternative viewpoints and the 
synthesis of complex ideas using multidisciplinary tools, is 
precisely on target. We expect application of principles to 
case studies of real events and issues and require our students 
to provide written analysis of complex, open-ended issues. 
Grading clearly sustains the academic rigor. Through such 
endeavors we believe we can well judge if our students are 
achieving the required educational outcomes.
    The College of Naval Warfare is a 10-month senior level PME 
program with JPME Phase II designed to produce broadly educated 
leaders who possess a strategic perspective underpinned by key 
analytical frameworks. Graduates will be able to apply 
disciplined strategic-minded critical thinking to challenges in 
the multiservice, multiagency, and multinational environments.
    About 20 percent of our student body is made up of 
international officers hand-picked by their services. Students 
study three 13-week courses in our core academic program. The 
strategy and policy course focuses on educating students to 
think strategically; to develop a disciplined critical approach 
to strategic analysis; to understand the fundamentals of 
military strategy, national policy, and the interrelationships 
between them; to appreciate the political uses of military 
power; and to become familiar with the roles of both military 
and political leaders in policy formulation, military planning, 
and the conduct of war and peace.
    The national security decision-making course aims to 
prepare our officer and government students to successfully 
lead change in large complex organizations poised to meet 
national security challenges in an uncertain international 
security environment.
    The joint military operations course refines military 
officers' critical and creative thinking skills under the 
umbrella of military problem-solving, especially the ability to 
evaluate a range of potential solutions to ill-structured 
problems and to function in volatile, uncertain, complex, and 
ambiguous environments.
    These courses, along with three elective courses 
complemented by two conferences and a speaker's program, form 
this framework for examination of national security and 
strategic studies.
    Over the last two decades, our educational approach and 
methodology has stayed on course. However, much else has 
changed.
    First, we have implemented the recommendation by the Panel 
on Military Education of the 100th Congress. Today we have 
distinct curricula for our senior- and intermediate-level 
courses. They are discrete courses with differing focuses and 
outcomes. Since we have a single faculty to teach both levels, 
I am confident the distinction will remain and that these 
courses will complement each other very well over the longer 
term. As our recent JPME certification showed, though this 
places a greater workload on our distinguished faculty, they 
have told me personally that they are very proud of the end 
result. Our culture is one of constant reassessment.
    Second, our educational outreach has expanded along with 
our mission as a result of decisions made by my direct senior, 
the Chief of Naval Operations. And I can tell you Admiral 
Roughead is four-square behind us. The College is now 
responsible for all professional military education in the 
Navy. As a result, the number of students we touch has grown 
from 1,500 in 1989 to over 27,000 today, and the in-residence 
program from 300 to almost 600.
    In my short time as president, seven months on Saturday, I 
have found the War College to be a professional graduate 
institution of the highest quality, with faculty and staff 
members who are satisfied they are doing meaningful work that 
makes a difference.
    The students are highly motivated professionals, many right 
off the frontlines overseas, and we invite them in as we learn 
together about this serious business of war.
    Thank you, Mr. Chairman. I am happy to take any questions.
    Dr. Snyder. Thank you, Admiral.
    [The prepared statement of Admiral Wisecup can be found in 
the Appendix on page 89.]
    Dr. Snyder. General Williams.

  STATEMENT OF MAJ. GEN. ROBERT M. WILLIAMS, USA, COMMANDANT, 
                     U.S. ARMY WAR COLLEGE

    General Williams. Chairman Skelton, Chairman Snyder, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today. My name is Major 
General Bob Williams and I am the commandant of the United 
States Army War College at Carlisle Barracks.
    I am a soldier who has had the good fortune of being 
associated with education and training of cadets and soldiers 
for more than 34 years. I have served as an instructor and 
assistant professor at West Point and as commander of two of 
the Army's premier Combat Training Centers as well as the Armor 
School and Center. Additionally I have had the great privilege 
of serving in the operational Army both in peacetime and in 
war. I feel well prepared for duties associated as commandant, 
and it is an honor to be here today to discuss the professional 
development of our Nation's strategic leaders at the war 
colleges.
    As has already been said, the mission of the war college is 
to shape and develop the senior leaders our Nation will 
require. The Army War College's unique contribution is to 
prepare our students to deal effectively with complex 
unstructured problems in strategic security environments and 
render sound military advice when the application of land power 
is part of a policy option. We do this recognizing fully that 
military activities are often only a part of the solution to 
complex problems. As we review the ever-changing security 
landscape, particularly since 9/11, I believe that we will 
best--and we do--best serve the country through these men and 
women that we educate by achieving appropriate balance with 
faculty, the student body, and the curriculum.
    I would like to speak briefly to these three areas that I 
believe are the key to assuring the rigor and responsiveness of 
professional military education at the senior service level.
    To begin with, faculty. It is the center of gravity for the 
Army War College, and I am pleased to report that our faculty 
meets the standards set by law and the Chairman of the Joint 
Chiefs of Staff officer professional military education policy. 
Our faculty achieves, I believe, a powerful synergy between the 
melding of two cultures.
    First, our military officers have 22 to 30 years of 
professional expertise and a lifelong experience of training 
and mentoring.
    Second, our academic professors with their academic 
credentials, their research expertise, and their ability to 
publish. I firmly believe students' success is directly related 
to the assignment of quality experienced officers representing 
the joint U.S. Forces in recruitment of high-quality academic 
professionals.
    We recognize the value of assuring stability in key faculty 
positions and have instituted the Professor of the United 
States Army College Program to create, for lack of a better 
word, hybrid professionals; that is to say, military officers 
selected to pursue appropriate doctoral degrees and return to 
the Army War College faculty.
    Even as we seek continuity, we are willing to give up 
faculty to support ongoing operations for periods of six months 
to a year. Those faculty members return with valuable 
experience that enhances our curriculum and helps us stay 
current with the challenge our operational force is facing in 
the field.
    Balance is equally important within the student body if we 
are to meet the expectations for future strategic leaders. The 
war college experience works best, as we have all found, with a 
cross-section of those military officers who will lead our 
Nation's future operations. We know that a joint student body 
representing all the services is important; and, equally 
important is a mix of the branches that make up the core of the 
Army's ability to execute its missions across the spectrum of 
conflict. We also blend civilians from National Security Agency 
(NSA), Central Intelligence Agency (CIA) and other branches of 
government and international officers into this student mix.
    A 21st century reality is that we are never going to fight 
alone, and so we have embarked on a program, at the direction 
of the Chief of Staff of the Army, to increase the number of 
international Fellows in the student body. We will increase 
that number by 25 percent this next year. He has asked me to 
look at increasing it 100 percent over the course of 4 years. 
This is not only important for U.S. officers to understand how 
to fight together; it is important to prepare them for 
effective coalition operations. And therefore we need the 
diverse perspectives that come from international Fellows. We 
sponsor the same intellectual dialogue and challenges in the 
seminar that they will see in the future battlespace with each 
other.
    Students ought to be exposed and challenged about nations' 
points of views. Our national investment in these international 
students pays large dividends as former students, as we all 
know, are often promoted to the highest ranks of their 
militaries and civilian governments.
    For similar reasons we believe we should be stronger, with 
a greater interagency representation in the student body. It is 
our business to prepare students to understand how military 
power works in concert with other national elements of power. 
Our seminars duplicate interagency dialogue and explore the 
distinct cultures, skills, and attributes of other agencies. 
Our students learn perspectives of diplomacy, economics, and 
information elements of power.
    I understand that other U.S. Government agencies do not 
have the depth of personnel currently to allow them to divert 
many for graduate-level education. That makes it tougher to 
recruit interagency students and that makes it all the more 
important to incorporate interagency representatives into 
professional military education. It is a smart investment in 
our Nation's ability to apply what is commonly referred to as 
``whole-of-government strategies.''
    My final comments are about achieving balance in the Army 
War College curriculum. In the face of accumulated demands to 
add to the curriculum, we sometimes risk diluting our focus on 
education and slipping into training missions. I will admit 
that to you here. Therefore, our curriculum reviews are marked 
by a continuous debate over breadth versus depth, and hard 
decisions about the time devoted to each subject, contact time 
with faculty, time to read and reflect have to be made.
    I feel the mechanisms are in place for me as the commandant 
to push back on those things, but it does require hard costs. 
Since the last study conducted by this committee, the Army War 
College has transitioned its program of instruction to 
incorporate its study of strategy as the central aspect of the 
curriculum. Army War College students study classic theorists, 
but they also study new strategies as well. The Army War 
College must be adaptive to the needs of the current and future 
fight, and we solicit feedback from the combatant commanders 
and service chiefs as we assess and shape the curriculum on an 
annual basis.
    We seek to achieve balance between case studies and 
military history, emerging doctrine such as the irregular 
warfare doctrine in the counterinsurgency (COIN) manual as an 
example, while providing a broad and strategic level look at 
the leadership, ethics, and cultural intersection with national 
strategy.
    In closing, I can tell you that today's Army War College is 
much different than the one of the late 1980s. It is a dynamic 
institution that plays a significant role in preparing selected 
leaders with the responsibilities of strategic leadership.
    Reforms of the last 20 years, and particularly the advent 
of JPME II, set high standards and expectations for assessment 
and adaptation. Because the Nation needs agile and resourceful 
as well as creative strategic leaders, our senior service 
colleges must themselves be agile, resourceful, and creative. 
We all know that education is an adaptive process, one which 
will require continuous assessment and adjustment to ensure we 
are still getting it right. I am confident that we are on that 
path.
    Chairman Snyder, I know that I have requested my written 
statement be provided. Thank you for the opportunity to discuss 
this fundamental issue with this subcommittee and I look 
forward to your questions.
    [The prepared statement of General Williams can be found in 
the Appendix on page 120.]
    Dr. Snyder. General Forsyth.

  STATEMENT OF MAJ. GEN. MAURICE H. ``MAURY'' FORSYTH, USAF, 
COMMANDER, SPAATZ CENTER FOR OFFICER EDUCATION, AND COMMANDANT, 
                        AIR WAR COLLEGE

    General Forsyth. Chairman Skelton, Chairman Snyder, Ranking 
Member Wittman, members of the subcommittee, thank you for the 
opportunity to appear and testify about the Air War College.
    This morning I would like to try to capture the essence of 
our vision for the Air War College in a senior professional 
military education version of the three Rs: relevance, 
relationship, and renewal.
    First, relevance. I admit right up front I have spent my 
career as a pilot, joint staff officer, and commander, not an 
academic. As such, however, I believe I can identify closely 
with both the needs of the students and the needs of the 
general officers and senior civilians who employ our graduates.
    Like my other colleagues here today, I have witnessed 
firsthand some of the tasks, dilemmas, and strategic choices 
that our graduates will face. If our program is to remain 
relevant, the Air War College education must clearly prepare 
our graduates to meet the needs of joint, interagency, and 
multinational operations, and not only in today's fight but 
also tomorrow's, as unpredictable as that may be. Our 
curriculum must properly balance the presentation of theory 
with practical knowledge gained through the study of history, 
personal experience, and the experience of others to produce 
strategic thinkers and leaders.
    Likewise, relevance demands a balanced faculty consisting 
of both distinguished academics and experienced warfighters to 
inspire and educate our students, many of whom are coming to 
school right off of today's battlefields.
    Finally, relevance requires that as a complement to our 
accredited joint curriculum, each school devotes some part of 
the educational experience to service competency; in our case, 
at the Air War College, the competency of the air component.
    While highly qualified faculty and challenging curriculum 
shapes the relevance of our program, the students hold the key 
to building all-important relationships. The Air War College 
experience thrives on building relationships in and out of the 
classroom between faculty and students and, most importantly, 
on building relationships among the students who come from 
different backgrounds, different services, different agencies, 
and different nations.
    In addition to academic growth, the relationships forged 
during the shared common experience of war college can and do 
have lasting impacts as graduates deal with complex issues 
throughout the remainder of their careers. Oftentimes, that 
impact is manifested in a phone call seeking a different 
perspective on a challenging issue. Other times it is the 
chance encounter with a trusted fellow graduate in the hallway 
prior to a critical meeting, or, even more significantly, at a 
deployed location.
    Perhaps the most important of these relationships are those 
forged with the international officers from 45 different 
countries who make up almost 20 percent of the integrated 
student body.
    While some aspects of the Air War College for U.S. students 
may be duplicated in other graduate school settings, this one 
cannot: the chance to meet, interact, and build a lasting 
relationship with officers selected by their countries to spend 
time in this formative year of senior professional military 
education in the United States. Many of these international 
Fellows go on to hold the most senior positions in their 
nation's military and government.
    Cultivating these relationships has never been more 
important in today's interconnected and interdependent security 
environment. The importance of relationships is difficult to 
quantify but hard to deny.
    Similarly difficult to quantify but just as important is 
the opportunity for renewal. The Air War College experience 
must build energy, strength, and enthusiasm for the difficult 
tasks that lie ahead for graduates and their families. Renewal 
comes from a student discovering that other students have 
overcome similar difficult leadership dilemmas in their 
careers. Renewal comes from intense discussion and debate on 
the role of leadership, command, integrity, and ethics. Renewal 
comes from the students gaining confidence in their ability to 
craft strategy in the joint, multinational, and interagency 
environment at the strategic level. Renewal comes from 
executing a demanding academic schedule built on a scaffold of 
stability and predictability that allows students time to 
reflect, synthesize, and discuss the material they study, as 
well as time to reconnect with their vital support network. 
And, finally, renewal comes from developing a clear 
understanding of the importance of the contributions of 
graduates and senior leaders to the success of their units and 
their Nation.
    I thank you again for the opportunity to testify and the 
chance to outline the important contributions of relevance, 
relationships, and renewal, the Air War College's success and 
the success of our graduates. I look forward to your questions. 
Thank you.
    Dr. Snyder. Thank you.
    [The prepared statement of General Forsyth can be found in 
the Appendix on page 140.]
    Dr. Snyder. Colonel Belcher.

 STATEMENT OF COL. MICHAEL F. BELCHER, USMC, DIRECTOR, MARINE 
                       CORPS WAR COLLEGE

    Colonel Belcher. Good morning, Chairman Snyder, Ranking 
Member Wittman, and distinguished members of the subcommittee. 
I appreciate this opportunity to address the subcommittee today 
and discuss the educational achievements of your Marine Corps 
War College.
    Inspired and supported by the House Armed Services 
Committee and its Chairman, the 29th Commandant of the Marine 
Corps, General Alfred M. Gray ignited a renaissance in Marine 
Corps professional military education in the 1980s that still 
burns today.
    In August of 1990 he directed the convening of an elite 
group of six lieutenant colonels to conduct an intensive one-
year study of the art of war and the profession of arms. 
Entitled ``The Art of War Studies Program,'' it was a precursor 
of today's Marine Corps War College.
    Since then the college has grown in size and scope, yet 
remains true to its original charter. Now as then, the college 
remains committed to preparing the Nation's next generation of 
strategic leaders to confront the challenges of an increasingly 
complex, volatile, and globalized world. To do so, it employs a 
rigorous multidimensional curriculum, presented by first-rate 
faculty to a small elite group of high-caliber, highly 
competitive senior military officers and government officials. 
Focused on the strategic level of war, the curriculum examines 
both traditional and irregular modes of warfare, the 
instruments of national power, as well as the application of 
soft and hard power. It employs historical analysis to derive 
enduring lessons from history and apply them to the critical 
issues existing in today's operational environment as well as 
those emerging on the strategic horizon.
    The curriculum also reflects the culture of the service in 
which it is borne, specifically a lean, agile, adaptable 
expeditionary mindset that spans air, land, sea, space, and 
cyberspace spectra.
    It also reflects the words of General James T. Conway, the 
Commandant of the Marine Corps, or, more accurately, his 
commitment that ``We believe the human dimension of war is the 
most critical element, and that boldness, creativity, 
intelligence, and warrior spirit are prime attributes.''
    To foster the development of critical and creative thought, 
the college employs active, adult-learning methodology to 
include highly personalized in-classroom instruction; local, 
domestic, and international field studies; practical 
application exercises; self-selected scholarly research; and 
professional time for reading and reflection. To remain current 
and cogent, the curriculum undergoes a vigorous, continuous, 
and multi-level review and validation process.
    The curriculum is taught by seasoned faculty comprised of 
military, government, and civilian professors; some operators, 
some academics, but all professionals in their fields of 
endeavor. The instruction is enhanced by an expansive adjunct 
faculty of functional experts, regional experts, and 
interagency experts as well as visiting guest speakers.
    Due to the college's proximity to the National Capital 
Region and our small size, the students are afforded unmatched 
access to senior military, interagency, industry, and academic 
leaders whom they meet with on a one-to-one personal basis, 
which promotes open, intimate, and informal discourse. Our 
guest speakers rival those of the most prestigious civilian 
universities. Who others hope to have at a commencement, we 
have in the classroom on a routine basis.
    Lastly, the educational experience is enhanced by the 
quality and diversity of the college's student population 
itself. While small, the student body consists of top 
performers, hand-selected by their respective service or agency 
for their exceptional operational and academic performance as 
well as their future potential for service. The student body 
includes representatives from all four services, both active 
and Reserve components; the United States Coast Guard; several 
government agencies; and multiple ethnic groups; as well as a 
myriad of occupational specialties. Thanks to this mixture, the 
students learn joint and interagency operations not just 
through instruction but also through personal observation and 
daily interaction.
    Our vision for the war college is to retain the academic 
advantages inherent in being a small, elite college--
specifically, the academic access, agility, and excellence we 
currently enjoy--while progressively growing into a more robust 
educational institution. To achieve this vision we have 
commenced a program to expand the size and diversity of our 
student population; to expand the size, capability, and 
diversity of our faculty; and, most importantly, to expand our 
academic outreach efforts. While the college's educational 
experience cannot be replicated by any civilian university, we 
believe that it can be enhanced through increased interaction 
with leading-edge civilian institutions as well as 
collaboration with the other military educational institutions 
here today.
    Mr. Chairman, our graduates will face a world dramatically 
different from that of their predecessors. Consequently, the 
Marine Corps War College is dedicated to intellectually arming 
them for the challenges ahead, to mentally reset the force for 
the fights yet to come. I am convinced that we are achieving 
this objective, and with the continued advocacy and support of 
this subcommittee we will do so far into the future.
    Thank you for this opportunity to address the panel and I 
look forward to your questions. Thank you.
    Dr. Snyder. Thank you, Colonel Belcher.
    [The prepared statement of Colonel Belcher can be found in 
the Appendix on page 149.]
    Dr. Snyder. I know Admiral Hall probably recognized that he 
is sitting at the beginning of six people, that every question 
will come to him first. But we are not going to do that. We 
will move it around so you can all have the experience of 
saying ``I am so glad I wasn't the first one asked.''
    Admiral Wisecup, we are going to start with you this time, 
and we will loop around. I want to ask the following question. 
This morning President Obama, about seven o'clock eastern time, 
gave--I did not see the whole speech, I saw excerpts of it--he 
gave what seemed to be a very well-received speech, certainly a 
much anticipated speech, calling for a new beginning in terms 
of the relationship between our Nation and the world of Islam. 
How will that speech impact what occurs on your campuses and 
classes this week?
    Admiral Wisecup.
    Admiral Wisecup. Sir, thanks for that question. I watched 
part of that this morning, and I will tell you, knowing the 
faculty like I do, this will all fold into our constant 
reassessment. We have faculty members who are very well 
connected. They are always out and about.
    A faculty member, for example, who teaches in strategy and 
policy is also our area specialist in the Indian Ocean, 
Pakistan, India. He will, one, know about this speech; two, he 
will have the text; three, probably knows people connected with 
it. And then when the faculty does their curriculum review, 
which, in fact, they are in the process of now for the next 
academic year, those kinds of ideas will factor into how they 
retorque the curriculum.
    So imagine, if you can, the network of people from our very 
distinguished faculty who are doing this same thing and then 
they all bring these in to talk. They do what they call 
bootstrap sessions as they review the curriculum for the next 
trimester's teaching, week by week, class by class. And so 
these faculty members will sit in a room, for example, and have 
oftentimes a heated debate over what is going to go into this 
curriculum. That is when this kind of information, this kind of 
context, can be provided and factored right into the 
development of the curriculum, right up to just a few weeks 
before they actually go in front of the students on the podium, 
which really keeps things current.
    Dr. Snyder. General Steel.
    General Steel. Sir, I would echo what Admiral Wisecup said. 
What I would add to it is, even while his speech was ongoing, 
the blogging network was already alive with our network of 
graduates throughout the region there, already communicating 
with faculty here at the war college with what they were 
perceiving the receipt of this speech was. I anticipate that 
network to be alive and well here throughout this week, the 
discussions to be had. We will roll all transcripts, other 
discussions that the think tanks come out with, into our 
faculty--our curriculum review here during the summer. And when 
we get to this particular phase in our curriculum with next 
year's class, I am sure there will be even new information to 
roll into our classrooms here as much progress is made in the 
months ahead from his speech here.
    Dr. Snyder. Admiral.
    Admiral Wisecup. Yes, sir, I think this is a perfect time 
of the year for this to take place.
    Dr. Snyder. Let me interrupt you. Several of you have a 
graduation coming up, don't you, so you are not in a full 
classroom mode now.
    Admiral Hall. Right. But I know it will still have an 
impact, and it comes, as I said, at the right time of the year. 
We have 20 international fellows right now at ICAF, and I just 
counted them, I think about 50 percent of them are from the 
Middle East or Muslim countries, and also an Israeli student.
    Now, at the beginning of the year, they might be hesitant. 
But now, as we said, academic freedom and the policy of non-
attribution, as we go through the year, not only is their mind 
expanded, but they become comfortable in the environment and 
they realize, the international fellows, they do have the 
freedom to speak openly about their opinions, and U.S. students 
have learned to accept these. It is a very fascinating process 
to see this awakening happen.
    So they have fertile minds to process this. Today is a 
picnic for the international fellows, which I will attend, and 
I will ask them what they thought of the comments.
    But each seminar has one international fellow. They will be 
questioned, what do you think about this, and there will be 
academic discussions in both directions without any fear of 
attribution. I think it is a perfect time, and their minds are 
open.
    I have observed from two classes, it is about this time of 
year we want to get rid of our students because we have opened 
their minds so much they are a real pain in the fact they 
challenge every assumption and openly discuss issues. So I 
think it is a perfect time and it will be well received.
    Dr. Snyder. Colonel Belcher.
    Colonel Belcher. The impact back at the college campus 
would be, one, the professors beaming with pride that what they 
taught throughout the year is now coming to fruition, that the 
history and the background that they gave regarding Islamic 
culture, regarding previous campaigns, the regional studies 
that we did, as well as the international travel to Asia-
Pacific region, specifically India, have proven true. So they 
are silently blushing.
    The students are silently in awe that wow, they got it 
right and prepared us for what is coming up and prepared us to 
address these issues.
    From that, there will be continued discourse and debate 
regarding what that means in the future, how that is applied, 
what the policy implications are, and, more importantly, what 
are the military ramifications that they need to be ready to 
implement when they go to their next job at a service or 
combatant command headquarters.
    For the curriculum, we will continue to enhance that and 
look at that as we do our curriculum reviews, as discussed 
previously, and also it leads into the perfect segue that next 
year as we introduce our first international fellow, we have 
three coming on board, one from France, one from Canada, and 
most importantly a, a brigadier general from Pakistan, it will 
allow us to continue that discourse and debate the following 
academic year.
    Dr. Snyder. Thank you.
    General Forsyth.
    General Forsyth. Mr. Chairman, sadly, on two accounts, I 
didn't hear the speech, number one, but number two, at the Air 
War College they did graduate last Thursday, and so we have no 
students there.
    But that said, I think this is part and parcel to, quite 
frankly, one of the best class case studies, if you will, this 
whole entire year, the whole changing of the government, and 
thereby the changing of the strategy, the national security 
strategy that will roll down to the national military strategy 
and how that all takes place has been an incredible academic 
classroom in and of itself, and this is but one other piece of 
that that, as everyone has said, will be rolled into next year, 
and, quite frankly, not just this speech, but the way we have 
gotten to where we are from the Bush Administration to the way 
we are in the Obama Administration throughout the entire year 
has been just an incredible academic groundwork, if you will.
    Dr. Snyder. General Williams.
    General Williams. Sir, I did have the opportunity to watch 
it this morning. I think the President, I believe the 
President, had a number of major themes, obviously. But two of 
them I took note of was one of diplomacy and a willingness to 
listen, and also assist was one thing. But clearly also he 
reconfirmed that he will, this Administration will, protect the 
American public.
    I believe for us it will perhaps push our desire, as we 
have had for some time now, in the education of our strategic 
leaders, to focus on an emphasis of all elements of national 
power, including diplomacy, economics, information, as well as 
the part that we are experts in, the military component.
    But it clearly signals for us, I think, an emerging 
national security strategy that, of course, our academics, as 
we end our course on Saturday, we will take aboard and adjust 
our curriculum as appropriate.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentleman, I think as a follow-up from that, I want to ask, 
in context of what we see today, which is a very, very dynamic 
period of time in our history, both nationally and 
internationally, with things changing constantly, how do you 
see your challenge of making sure that your schools can change 
in relationship to those external changes, but also remain true 
to making sure those fundamental subject matters are being 
taught and instilled in the graduates from your institutions? 
And also, how do you take the lessons learned under current 
operations and incorporate them within that whole context of 
making sure your graduates come out with that rounded strategic 
knowledge to be the leaders our Nation needs to go into the 
future?
    I will start with General Steel.
    General Steel. Sir, you are right to highlight the 
challenge of the school in protecting some of the core elements 
in our educational requirements. For example, at the National 
War College, we try to stay at the strategic level.
    I have got only 10 months to work with. We have got a lot 
of ground to cover. Our students, when they first show up, have 
all been operating at the operational level. Their minds are 
rather fixed and it takes several months to kind of unlock that 
and make progress. We constantly get challenged with themes 
that commanders in the field would like to see in graduates so 
that they are ready to go as soon as they get into their new 
job. Most of these requests are at the tactical and operational 
level.
    So I work with my faculty regularly to resolve how to best 
approach the requests of the combatant commanders, senior 
leadership, other agencies, that this particular new dynamic 
environment be incorporated into your curriculum somehow. We 
usually find a way where either it is already being discussed, 
it is just not a sole centerpiece in the curriculum, but if we 
can find how to best thread that new dynamic environment into 
our curriculum, we will do so, and we will find the best course 
to put that in.
    Also, electives turn out to be a pretty good option for our 
student body as well to get a more focused study on a 
particular concept. So we do use the elective opportunity as 
one to take on some of these new fields that are being asked 
for the colleges to invest in.
    Mr. Wittman. Thanks. Admiral Wisecup.
    Admiral Wisecup. Sir, I think the best way to answer your 
question is to go back to the question that Chairman Snyder 
posed about the Obama speech, for example, and the mechanism 
that I outlined for you how we can roll things into our 
curriculum.
    This is again a function of the faculty. I will give you an 
example. At this point, we are going into the nuclear posture 
review, so now time is right for people who can talk to these 
issues about nuclear deterrence in a new world. The interesting 
thing is we have people who have been constantly working those 
issues, kind of like the Christian monks in Ireland who 
preserved the sacred texts during the Middle Ages. And in fact, 
we have this expertise that has not been permitted to atrophy, 
and now that it is needed, we have been able to provide that 
expertise to a variety of agencies and government folks who 
have been asking for it and searching it out.
    The other thing is looking at how the faculty gets out; one 
of our faculty members visited North Korea about a month and a 
half ago with a private visit of a major foundation, and he 
works research. Our faculty is constantly publishing. They are 
contributing constantly. These are the same faculty that are 
going to roll into the bootstrap sessions and talk about the 
curriculum.
    The other thing was for example when I was strike group 
commander, at the Ronald Reagan Strike Group, before I even 
knew I was going to go be president of the war college, I 
actually knew the expertise of these experts and actually asked 
them to come out, like General Steel was explaining, to come 
out to my strike group and talk to us about the region of the 
Indian Ocean. So they got the benefit of coming out and talking 
with on-scene commanders about the current situation, then flew 
off to visit their contacts in different places in the region, 
and we got the benefit of their knowledge. These are the same 
people who are going to roll this information into the 
bootstraps and into the curriculum development.
    Mr. Wittman. Thank you. Colonel Belcher.
    Colonel Belcher. Thank you very much for that question, 
sir. Our curriculum is founded in the enduring tenets of war, 
which have not changed in many, many years. However, with that 
said, we do look to capitalize on new and novel approaches 
coming out of the current operations that we can apply within 
our curriculum. Specifically, we look back into history, 
identify those principles applicable, and then apply them in 
modern scenarios in the current setting that our students are 
operating in or will operate in as graduates.
    To drive those, we go to multiple sources. First and 
foremost is the Chairman of the Joint Chiefs of Staff guidance 
through the learning objectives that he establishes and the 
yearly Special Areas of Emphasis. In large part, these will be 
the most critical elements of the upcoming year that we begin 
to integrate into our curriculum to ensure that we are dealing 
with the topical issues, but not whipsawing the curriculum all 
around and chasing the topic of the day.
    The other ways we do this are through hiring of faculty 
that are coming directly from operational backgrounds, myself 
just having come out of a regimental command tour, bringing the 
experience from that and previous combat tours, right to the 
schoolhouse.
    Secondly, it is through continual scanning of the strategic 
horizon by the professors, through reading, research, 
interacting with the think tanks and study groups, such as the 
Strategy Division Group, the joint warfighting centers, to see 
what is on the strategic horizon that we need to prepare our 
students for, and then incorporating that in a coherent method 
that is synchronized with the rest of our curriculum.
    Other ways include routine interviews with combatant 
component commanders and service leaders. Yesterday I had the 
opportunity to sit down and talk with Lieutenant General Allen, 
Deputy Commander at Central Command (CENTCOM), regarding his 
most critical issues, as well as the critical capabilities he 
is looking for from graduates from my war college.
    The other ways, continuing to interview our graduates and 
their supervisors to see that the curriculum met the needs when 
they came into the force.
    Finally, we also allow academic white space. We have a 
series of classes called ``issues in modern warfare'' that we 
purposely do not fill at the beginning of the year, knowing 
that critical issues will pop up during the year we would like 
to craft classes for. Having a small faculty, I have the 
organizational agility to put classes together, find leading-
edge experts come in and fill those. Such topics in the past 
have been the repeal of don't ask, don't tell, what would be 
the implications for the military; the effects of a pandemic, 
which happened to be very timely because several weeks later 
swine flu began to reach the headlines; a variety of topics 
that we can then add in to make sure the student as he walks 
out the door is as up-to-date as he can be before he begins his 
next job.
    Thank you, sir.
    Mr. Wittman. Thank you, sir.
    General Williams.
    General Williams. Sir, I appreciate the question. I think 
that I don't have a problem with staying current with the 
current student body at the tactical and operational level. 
With 70 to 80 percent of them coming in with recent Operation 
Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF) 
experience, if anything, that is a challenge for us to push 
them to the strategic level.
    In terms of staying current at the strategic level, we have 
always been, like some of my colleagues here, a think tank, for 
lack of a better description, for the Department of the Army, 
the combatant commands (COCOMs) and various other agencies in 
the United States. There is enormous intellectual talent in the 
faculty, and they often are called for their expertise. In 
fact, this last year I have had members of the faculty serve on 
Brigadier General H.R. McMaster's team building a new strategy 
for Afghanistan, as well as answering a call from International 
Security Assistance Force (ISAF) for a strategist where I sent 
my director of National Security and Strategy for six months to 
assist in the building of the strategy for Afghanistan. By the 
way, as his six months was over, we sent the number two man 
from that department, and he is down range right now.
    So at any given time we look for opportunities to take our 
faculty and offer our faculty up to work on some of the hardest 
problems that the Nation is facing at the strategic level. When 
they come back, of course, they seed the faculty, they inform 
the curriculum. So that is enormously empowering.
    The other part of your question, though, is how do we 
protect the core from a whole host of requirements, oftentimes 
that look like training as opposed to education. Sometimes 
those things come through the Chairman of the Joint Chiefs of 
Staff (CJCS) at the Military Education Committee, and we are 
all in attendance at those, as well as our deans throughout the 
year, and we have an opportunity to push back on those items so 
that we aren't required to put them into the curriculum. 
Sometimes we win, sometimes we lose, but I feel confident that 
the mechanisms are in place for us to do what we need to do or 
I need to do as a commandant.
    I do not get that many requirements from the Army that I 
would call training requirements apart from those kinds of 
things that we would want to do anyway; recently suicide 
training. We take the time. It is important. It is absolutely 
required and we are proud to do that.
    I hope I have answered your question. I think we have the 
mechanisms in place to stay current, which is to say we stay at 
the strategic level. We are in the business of allowing these 
students to master the strategic art, and we have to stay 
focused at that.
    Thank you very much, sir.
    Mr. Wittman. Thank you. General Forsyth.
    General Forsyth. Sir, thanks for the question. Everybody 
has touched on or at least danced around a little bit where I 
would like to go with this, and that is the balancing act or 
the tension that is always there between the current event or 
the current topic of the day and the foundations of leadership, 
ethics, strategy, those things that need to be the bedrock of 
what we do. And I think that pretty much in many instances 
comes to the people at this table, to make sure that we have an 
advocate for both.
    The faculty, at least at the Air War College is about a 
third civilian, a third military, Air Force military, and about 
a third joint military and interagency and, quite frankly, 
coalition as well. That mixture allows us to span the spectrum 
between the basic foundations and current events. Add into that 
the students, that as we just heard, many of them just came 
from the war and you try to extract them from either the 
tactical level or operational level and bring them up to 
strategic level, it makes for, quite frankly, a great dynamic 
within the classroom. So with respect to making sure that the 
foundations are there and the balance is correct, I think that 
rises, quite frankly, mostly, in many cases, to my level.
    Mr. Wittman. Thank you.
    Admiral Hall.
    Admiral Hall. Yes. I heard the question as how the 
President's speech affects your curriculum and how do we 
maintain our core courses. This is a dynamic period and it was 
a very compelling speech, but at ICAF, we want to develop 
strategic leaders, folks that can formulate strategy, and 
analyze strategy, but not chase strategy. So this will become a 
case study to be in our national security studies and our 
strategic leadership courses as we work students through the 
Socratic method in challenging the assumptions. So we are 
constantly reviewing our curriculum. In fact, we are going 
through the formal process right now, and we see what is 
relevant.
    I see it becoming part of a teaching package, to use as an 
example, in case study, but not changing the curriculum. You 
don't want us to chase policy speeches, but learn how to 
challenge and interpret policy and develop policy.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Snyder. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you to all of 
you for all of your comments and your openness. I certainly 
appreciate it.
    I have a few questions as you have been talking. One is the 
issue you mentioned, the six months kind of turnaround in terms 
of deployments and bringing people back into school. Has that 
been a problem, a major problem for any of you in terms of 
deployments, and does that mean that we might have fewer 
officers who are trained in advanced professional education?
    General Williams. Whenever I get a request from the theater 
for assistance that might involve the pulling of one of my 
faculty for that purpose, I immediately go to the dean, who is 
sitting directly behind me, and I ask him, can we support the 
United States Army or this theater commander, wherever the 
requirement comes from, and not degrade our primary mission, 
which is the education of the students, which we are charged 
with? If he comes back to me and says yes, we can do that, then 
I believe it is part of my mission to support the operational 
and institutional Army. So I think it is important that we do 
that.
    By the way, to your real question, do I have trouble with 
that, I usually have faculty members lining up in the hallways 
volunteering to do this, because they fully understand that as 
great educators, they are adding additional tools to their kit, 
for the audience and the constituencies they have to talk to. 
So, no, I don't have a personal problem from them, and so far 
we have not had to say no. We have gotten close a couple of 
times.
    But I hope I have answered your question, ma'am. I have not 
had a problem with this.
    Mrs. Davis. Anybody else want to weigh in differently on 
that?
    Admiral Hall. I think the question goes to deployments and 
expectations, and the deployments affect all aspects of 
military life, including family life.
    Back when Senator McCain and his classmates went to 
National Defense University, they said, You are coming back 
from being prisoners of war (POWs). This is going to be an 
opportunity for you to relax, to get back in touch with your 
family, to regroup and work on your health.
    Our programs no longer allow that. As I referred to in my 
opening statement, it is a very rigorous academic program. So 
we bring folks in right from the field, whether it be Army, 
Navy, Air Force, Marine, and also many of our deployed 
civilians, they are told it is a time to catch their breath, 
when really it is a very rigorous academic year, and they don't 
often get to catch their breath.
    So, also many, if they are coming from out of theater, they 
may leave their families in their previous duty stations so now 
you have a situation of geobatching, as we call it, 
geographically isolated from your family. So there are 
implications to that.
    So what do we do? We are always talking about post-
traumatic stress and looking for that in our students. We have 
medical and psychological help. We have health and fitness. So 
we do work on that basis of healing any wounds, seen or unseen, 
and we have both types of wounds come to ICAF.
    So, it is challenging, and you work with them, and you work 
with the families. But it is a rigorous course of study, and 
overall in the military everywhere, they are going to find 
challenges with all the deployments. That is a different 
perspective.
    General Steel. Ma'am, if I could add, it is not just 
deployments, but our schools and our faculty are sought after 
globally because of their expertise. So whether they are being 
asked to go and deploy to support the Army or combatant 
commander or just to come and help them with some research 
aspect, quite often the schools, and here at National as well, 
the first thing we look is to see whether we can support it 
with our ongoing activities at the college. If we can do that 
and it enhances this faculty's expertise, we will do everything 
we can to support it, because that faculty member will return 
with value-added.
    Mrs. Davis. I can understand that.
    If I can go really quickly, Mr. Chairman, back to General 
Williams, I think you mentioned you would like to increase the 
international officers by about 25 percent, 100 percent over 4 
years. What percentage are they now?
    General Williams. We have 40 in the class of 340. I have 
never figured out that percentile. We will go to 50 next year, 
and the Chief of Staff of the Army has asked me how we would go 
to 80. What that would do for us in the classroom, currently 
every one of our seminars has approximately two foreign 
international students in it. We would go to four.
    Again, the desire is to open the aperture as part of our 
cultural training at the senior level, and there is no better 
vehicle I think to do that than to bring these very successful 
officers from around the world, all nominated by COCOMs that 
come through in some cases, in all cases, the Army staff, and 
then they are sent to us based on the G-3's decision of who 
will make it.
    Mrs. Davis. I am just wondering, are there barriers to 
bringing more international officers in? Is it a matter of 
having the seats essentially, or are there other constraints 
that get in the way?
    General Williams. You are absolutely hitting on an issue 
for us. But it is a matter of facilities and faculty. I am okay 
for this next year to go to 50, but the dean and the academic 
board have reported to me beyond that we have to look at some 
other ways before we increase any further. But there are no 
barriers beyond that that I think I need legislative help on 
for sure.
    Mrs. Davis. Thank you very much.
    Thank you, Mr. Chairman.
    Dr. Snyder. I am going to pick on you, Admiral Wisecup. How 
often do you all get together, either formally or informally, 
as a group?
    Admiral Wisecup. I am new to this process. I missed the 
meeting we recently had.
    General Williams. Sir, I have been doing this for about 14 
months now. I believe I would be correct in saying I have seen 
these guys about three or four times this last year in various 
forums. About eight months ago, my board of visitors sponsored 
a symposium in Washington, and all of them were invited to 
discuss PME. Together we collectively decided to get together 
prior to the Military Education Coordination Council (MECC), 
the joint staff meeting, and General Caldwell hosted a meeting 
at Fort Leavenworth, where we sat down and discussed issues and 
ideas before we would go to that meeting in Washington, D.C. I 
believe, if I am not correct, I am talking for their 
university, I believe they are going to host a meeting of just 
those you see at this table this coming fall.
    I hope I have answered your question.
    Dr. Snyder. I wanted to ask, some of us have talked about 
this before, but we have heard since we started doing this look 
and the staff has heard it also that there is variability 
amongst the services in where the students are within their 
career. Some branches of the service, the students clearly see 
being in one of these colleges as a career enhancing move. 
Others are not so sure.
    I will pick on the Marine Corps. The Marine Corps seems to 
get the best kudos for both looking at the students before they 
get there, the faculty before they get there, but also figuring 
out where they are going to go afterwards in terms of, yes, 
this is going to help your career both as a faculty member and 
as a student. I may be wrong with that. These are just 
anecdotal things.
    Would each of you respond. Do you think there is 
variability among the services in terms of how they go about 
selecting the students, selecting faculty for a contribution to 
your organizations, and then how they look at where these 
careers are going to go after the students have graduated and 
the faculty, I am talking about military faculty now, have 
completed their careers.
    Admiral Hall, we will start with you.
    Admiral Hall. Yes. I discussed this topic often because I 
say there are service cultures. So speaking from the Naval 
service, there are times in your career where you need 
expertise at sea tactically, whether it be in the cockpit, on 
amphibious ships, or in submarines. So therefore you don't need 
somebody to be thinking strategically at that point. You need 
them to excel in leadership positions at sea, and that is part 
of our service culture in the Navy. That is how you get 
evaluated and promoted, again through challenging leadership 
assignments at sea, where other services might not have that 
same requirement, their culture is different. As you alluded 
to, the Marine Corps, it is more difficult to get in-residence 
senior level school than it is to make colonel. It is a smaller 
subset.
    So I don't think you can ever get uniformity across all of 
the services as to the right timing and the right measurement 
of career enhancement.
    I know that in all services, it is going to be career 
enhancing to go to an in-residence senior level school, but you 
are not going to change the service cultures to get a uniform 
answer that you can stamp across-the-board.
    I just looked at my distinguished graduates, and it is 
uniformly spread amongst the services on my distinguished 
graduates, whether it be Army, Air Force, Navy, Marine Corps. 
So once they get here, they do excel uniformly. But I think as 
far as promotion goes, it is service culture.
    General Steel. Sir, I would say at the National War 
College, we rarely see a military student show up that doesn't 
meet our criterion. They all succeed. Most of them are either 
on a promotion list or get promoted while they are at the 
National War College. So I don't see the experience of coming 
to the National War College as anything but a positive benefit 
to the military member when they are competed and selected and 
attend the National War College.
    Again, the quality of student that the services are 
providing is high. As I shared with you yesterday, this being 
my second class experience, the only thing I have seen 
struggled in fulfilling the student list has been sometimes on 
our Army side, due to the operational tempo (op tempo). Usually 
they are a little bit late getting their slate in. But they 
always fill it and the quality is extremely high. Just as 
Admiral Hall shared with you----
    Dr. Snyder. Excuse me, you are talking about students. How 
about faculty?
    General Steel. For faculty, we are very selective. The 
services nominate to the National War College who they would 
like to contribute for faculty. That faculty is interviewed, 
screened and evaluated, a recommendation is made to me through 
a faculty hiring committee as to whether they meet the 
standards or not.
    Dr. Snyder. I understand that. My question, though, was 
where it fits within the service. Admiral Hall referred to 
service culture. Do people come to you and say I have a dead-
end career, I am going to faculty here for a year or two. Is 
there a variability amongst the services when the military 
services assign faculty to you, and I know you go through the 
selection process, they are topnotch people, but do they 
perceive that their career is enhanced by being a faculty 
member for a couple of years?
    General Steel. Most of them have had a teaching background 
or experience, and they know what they are getting into, and 
they seek out the National War College as a way to again 
broaden their teaching credentials. So I think they come from 
all the services to the college fully aware of what their 
experience is going to be at the National War College. I don't 
think they look down on it as something negative. They know 
they are getting into a teaching realm and most of them will 
already have at the Ph.D. level, so they are rather senior in 
their service careers already. I think they look at it as a 
positive set of years to spend in the remaining time that they 
are going to serve with their service there.
    Dr. Snyder. Admiral.
    Admiral Wisecup. I think it is a positive. The people who 
come to the Naval War College's military faculty may not have 
sought it out. But at some point in your career you get to the 
point where there is not a lot of individual input into where 
you are going with your life.
    But for example, one of our military faculty was just 
selected to be carrier air group commander. So I view that as a 
very positive sign that everyone is not going to go on to be 
Chief of Naval Operations, but I will tell you, the people I 
talk to, all view it as a positive and feel like they are 
really doing meaningful work. Here is the way we can help the 
person who is just coming right off the flight line.
    For example, in our Strategy and Policy Department, we can 
put a very experienced civilian professor in with the newer 
strategy and policy professor, okay. But the point being, the 
people I have talked to, remember, I have only been there seven 
months, but I have talked to a lot of the military faculty, and 
almost all of them view it as a positive.
    General Williams. I think we have to look at, and I will 
speak for the Army War College, we have to look at our colonels 
in a sort of unique way, to answer your question, sir. The 
colonels who come and teach at the United States Army War 
College are between their 25th and 30th year of service. They 
don't come back to get promoted to general officer. I think 
that is very important to say here.
    I would welcome lieutenant colonels, senior lieutenant 
colonels, senior lieutenant colonels and/or junior colonels who 
are competitive for brigadier general. But perhaps one of the 
second or third order effects of Goldwater-Nichols is that when 
a student finishes at the war college, it is very hard for him 
or her to have the time, the discretionary time, to serve a 
tour of duty as an educator in the war college and still remain 
competitive, in part because they need to go and get 
``jointed'' quite often. We have actually had students that we 
would like to keep on faculty, but if we kept them, they would 
not be competitive for general officer.
    Now, having said that, I believe that the colonels who do 
serve, I don't think we have had to drag anyone back to do 
this. I think that they are at a point in their career that 
they want to give back and they want to be outstanding 
educators and the reputation of the institution is such they 
are very pleased to come back. They have great maturity, they 
have experience, and they fit this job particularly well at 
this particular time in their career.
    So, I think that the quality of my faculty, particularly 
the military faculty, is absolutely outstanding. They are 
terrific educators. I hope I have answered your question.
    Dr. Snyder. General Forsyth.
    General Forsyth. Sir, I would agree completely with General 
Williams that the quality of the faculty is fabulous. I would 
say that the expectations of the faculty, the military faculty, 
are different and they run the full spectrum. There are those 
that, as you have heard, come there knowing that is probably 
their last assignment, sometimes because they want it to be, 
sometimes because of their timing in their career.
    I have one data point. We lost one faculty this year in 
all, and she got a great joint assignment here in the D.C. 
area, basically what she wanted. So it was looked upon 
favorably there. We have five volunteers to get their Ph.D.s to 
come back and teach at the Air War College.
    So it spans the entire gambit. In this last brigadier 
general nomination board, one of the people had been a faculty 
member. So I think it is not what maybe in the past was looked 
at as a dead end assignment. I think it is looked at as a 
valuable assignment to the service. They can contribute still, 
no matter where they are in that spectrum, whether this might 
be their last assignment or whether they want to continue on.
    Dr. Snyder. Colonel Belcher.
    Colonel Belcher. Sir, the president of the Marine Corps 
University has made it his policy that he is willing to 
sacrifice continuity for capability. So it has been the policy 
of the university's throughout all the services to select the 
best and the brightest to come and instruct or direct at the 
various colleges.
    So there is some risk in that, in that you will have an 
officer for a year, maybe two years, before he is selected for 
command or for promotion, but that is a risk we are willing to 
assume to get the competence that he brings from his past 
operational experience.
    For myself as the director, I competed to get selected for 
this billet. The other Marine that will be coming on board this 
year similarly, coming out of the National War College, was 
hand-selected for this billet and has a bright potential for 
future service and promotion.
    In fact, among my sister colleges at the Expeditionary 
Warfare School, the last two directors there were selected for 
brigadier general during their tours there, showing the value 
that the Marine Corps puts in education as an investment for 
the future.
    Among the other services that we have on staff, the U.S. 
Air Force has sent us topnotch officers. My current Air Force 
officer was just selected to command at Wright-Patterson Air 
Force Base. My prior U.S. Air Force officer is now sitting 
behind me, who decided to become the dean of academics because 
of his academic proficiency and his support for the school.
    The Army similarly has given me operational experts, 
practitioners. My current Army officer was selected after a 
tour in Afghanistan where he worked at the current operations 
shop and is an active pilot.
    I have been very impressed with the staff we have had from 
all of the services, and couldn't have asked for a higher 
quality faculty to go forward with.
    Thank you, sir.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I want to, again, take it to another step in the Chairman's 
question. I want to ask about, how do we go back attracting the 
best or I guess top tier of civilian faculty? What are the 
things that we need to be looking at to address that? Is it 
things like tenure, copyright, pay, them being able to keep 
their government retirement, research, administrative 
assistance? What do we need to be doing to attract and retain 
the best and brightest on the civilian side of the faculty?
    General Williams, I will start with you.
    General Williams. I may call on my dean here to speak up.
    Let me start by saying we work very hard to bring in 
talented civilian faculty as well. Many are, by the way, former 
military officers who have received their terminal degree and 
so they serve us very well.
    We also, and I mentioned this, have a program at the United 
States Army War College where we bring in those colonels in the 
25 to 30 year mark who have a particular penchant for academics 
and being outstanding educators, and we send them off to work 
on their doctorate. I currently have 10 officers that have 
received their Ph.D. on my faculty, I have 5 that are working 
on it, and I have 5 civilian professors who are a product of 
that particular program.
    We, of course, advertise throughout the United States for 
openings that come up, and we do very well with the standard 
professors of history, former planners, those kinds, 
leadership, but we are not competitive in a number of certain 
areas. As an example, economists, behavioral scientists, 
military sociologists. We do not pay competitively.
    I would ask Dean Johnsen if he would like to add perhaps to 
that and offer up any insights into what we could do 
differently.
    Bill.
    Mr. Johnsen. Sir, thank you. One the things we find, sir, 
is given the nature of our curriculum and the professional 
nature of it, we sometimes have difficulty convincing standard 
liberal academics from a more liberal arts background that this 
is the place for them to come and teach.
    I believe, like many of the other schools, if we can get 
someone to an interview at our institution and demonstrate to 
them that we are open, we have academic freedom, the quality of 
our students in particular, the faculty, the ability to 
influence policy on occasion, then we have a strong possibility 
of bringing those people to our faculty and then retaining 
them. It is doing the proper advertising and networking within 
the various disciplines that will allow us to do that.
    Mr. Wittman. General Steel.
    General Steel. Sir, on that list you read off of, I would 
just echo that there should be some work done on the copyright 
issue and the annuitants discussion that is out there. I know 
that affects some of the faculty that we hire. So, yes, we do 
need to do some homework there.
    We are fortunate again in the Washington area to have a 
little bit of a draw on some of that high talent that is out 
there just because this is Washington, people like to live and 
work around this city, and teaching over at National Defense 
University is a pretty good job, if that is what you like to 
do. So that is a draw.
    We don't have any problems getting people to apply for an 
opening at faculty at National Defense University. We usually 
end up whittling that down, and we have a good solid dozen 
every time to draw from. So I believe we are getting top-tier 
talent with our civilian hires.
    As I shared with you yesterday, one of the things that I 
would like to see considered for the National War College was 
that kind of an endowed chair position to try to draw on the 
high policy National Security Agency talent, that when folks 
leave those positions, they have an opportunity to come over 
and teach at the National War College and we can tap into their 
recent experiences, and that would add again to the college as 
far as becoming a preeminent national security strategy 
institution. So a look into that kind of endowed chair 
possibility would be helpful.
    Mr. Wittman. Admiral Hall.
    Admiral Hall. We have many similarities with the National 
War College. Our location gives us a great pool of faculty to 
pull from. But one thing that General Steel didn't mention is 
accreditation. Both our schools are accredited. We want to 
maintain our accreditation, because why would a faculty member 
in D.C. want to work at a school that doesn't give an 
accredited master's degree, because they can go to George 
Mason, Georgetown, George Washington.
    The other thing is there is always concern, are we paying 
them equivalent if they could go down to George Washington and 
things of that nature. So we are working on the pay.
    Tenure, I don't think I would want to go down the tenure 
route because we don't want our institutes to become stale and 
not have that ability to keep currency.
    At ICAF, my faculty members are about 92 members, that 
gives us a 3.5 to 1 ratio. Thirty of those are military, 45 are 
Title X, but I have 17 to 19 that are civilian, that are 
interagency faculty chairs, including an industry chair. Right 
now it is from IBM, and it was a very competitive process on 
her relief, and American Express is sending the next industry 
chair. So we have 20 chairs that come from interagency, 
everything from Federal Emergency Management Agency (FEMA), to 
National Geospatial-Intelligence Agency (NGA), National 
Security Agency (NSA), State Department, et cetera.
    So we have a very dynamic civilian faculty. But our Title 
X, it is going to be accreditation, A, and, B, all the other 
points that Bob pointed out. Thank you.
    Mr. Wittman. Colonel Belcher.
    Colonel Belcher. Congressman, thank you very much. That has 
been a topic of debate within our faculty and is very timely.
    Let me begin by telling you what it is not. It is not high 
salaries. Competitive salaries are important, but I have not 
had a professor that the salary has been the deciding point 
when it is in the competitive range with other salaries in the 
area. What it is, is first the ability and the opportunity to 
teach and get in the classroom. The professors want to be in 
there with the students on a routine basis. To assist that, we 
try to remove as much administrative overhead from the faculty 
as possible, to move away from documenting each course to death 
and allowing more freedom of how they develop their syllabi, 
how they run their classes, and avoid micromanaging their work 
in the classroom, freeing them up to spend time mentoring and 
working with the students.
    Secondly, it is the opportunity to research in their 
fields. They love their fields of endeavor and want to go 
deeper and broader into them. The more we can give them 
opportunities, through time to do that, whether that be 
sabbaticals, short-term research opportunities, involvement in 
symposia, panels, lectures, and expanding faculty development, 
it is to our benefit.
    Also having topnotch research facilities, as we do at the 
war colleges, is very beneficial. Expanding the outreach 
between research centers would be beneficial so they get timely 
information in their fields.
    The research assistant program, we are looking at that 
currently again to free them up and go deeper and broader into 
their fields of study for research.
    Two items that I would like to address that I think 
distract from our recruiting effort, the first is, to some 
degree, folks that are looking at the war college are self-
selecting. They have perceptions about what the war colleges 
are and lack of academic freedom or lack of the topic matter 
that they will be able to cover. They are still looking at our 
fathers' war colleges, not the war colleges of today.
    We need to broaden our strategic communications to more 
civilian institutions, academic institutions, and think tanks 
so they know what we are about, and we have a broader pool to 
recruit from.
    Similarly, it is up to us to then broaden that pool. When 
job announcements go out, that they go to a broader perspective 
and broader reach and professors that we might not consider 
otherwise that will come in and challenge the curriculum, 
challenge other professors with new and bold thoughts and 
thereby make us all better, not continue to hire from the same 
pool of professors that we may have in the past. That way I 
think we also broaden the educational opportunity for our 
students.
    Thank you, sir.
    General Forsyth. Sir, it has not always been easy to hire 
folks to come to Maxwell, Alabama. But I will be honest with 
you, I have only been there a year, but I have not seen the 
pushback with respect to that. In fact, I have seen exactly the 
opposite.
    I don't know if it has to do with the economy or what have 
you. But we are just in the process of hiring a political 
economist that is coming to us from London, has his Harvard 
Ph.D., and we get those kind of people routinely and our 
faculty is littered with that kind of talent.
    So I couldn't be more pleased with the folks that we have 
and with the people that we get. Part of what we can offer at 
Maxwell that is not necessarily available everywhere else, 
except for maybe Washington, is we have all the schools there, 
and we have the Air Force Research Institute there where people 
can go and do research and publish and do those kinds of things 
that many of them want to do.
    So, I haven't seen it as an issue where I am at, and I am 
very pleased with what we have.
    Mr. Wittman. Admiral Wisecup.
    Admiral Wisecup. Thank you, sir.
    I benefit from changes that Admiral Stansfield Turner put 
in place in the early 1970s. We have a very vibrant civilian 
faculty, as well as our military folks. For example, on our 
teaching side, we have 78 civilian faculty and 64 military, as 
an example, and then we have 276 total, some of which are doing 
research war gaming analysis, and they might teach an elective. 
But my point is, of the 22 Strategy and Policy faculty, all are 
Ph.D., from some of our most prestigious universities.
    I have the option of tenure put in place by Admiral Turner. 
We are certified by the New England Association of Schools and 
Colleges. Other schools have taken our strategy curriculum. 
Yale has a grand strategy course they are starting, Duke, 
Princeton, all based on the Newport Strategy and Policy model. 
I am trying to hire an academic dean right now. We are down to 
about the last six candidates, any of whom could really do 
this, a strong Ph.D. academic leader who can help us with 
faculty. A vibrant series of chairs that we have in place. We 
are establishing regional chairs.
    The faculty tell me it is also the unique student body. 
They know that they are not going to have to deal with a lot of 
nonsense from our students. These are mid-career, motivated 
students who are going places and coming right off the front 
lines.
    There is also a faculty development aspect to this which 
one of my colleagues alluded to. We are on a trimester system, 
so one of those trimesters, our faculty has the opportunity to 
go and do their own research and do curriculum development and 
things like that. We have a budget of almost--I think we have 
spent over $600,000 on faculty development over the last couple 
of years.
    I am aware of the copyright issue. I think it is a question 
of good policy. We have to watch that carefully. But I think we 
are okay on that. And the fact that just recently we went to 
.edu, for example, on the Web, tries to dispel some of what is 
going on and show people, turn a light on some of the academic 
work we are doing. There are a series of conferences.
    Those are the attractors for good civilian qualified 
faculty.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Wittman and I are trying real hard to miss 
this vote, I think, so we are going to need to leave. We have 
an abundance of questions left. We have kept you here for 
almost two hours. We almost certainly will have some questions 
for the record. The questions go slower because we have the six 
of you.
    We appreciate you all being here today. We appreciate your 
testimony. I am sure we will have some follow-up questions, 
both formally and informally in the future.
    We are adjourned.
    [Whereupon, at 11:56 a.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                              June 4, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              June 4, 2009

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              June 4, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. The terms ``training'' and ``education'' seem to be 
used interchangeably quite a bit. Can you tell me how you define the 
difference and what part of your curriculum is training and which part 
is education?
    General Steel. CJCSI 1800.01C, Officer Professional Military 
Education Policy (OPMEP), dated 31 Jul 05, answers this plainly.

        ``The role of PME is to provide the education needed to 
        complement training, experience and self-improvement to produce 
        the most professionally competent individual possible. In its 
        broadest conception, education conveys general bodies of 
        knowledge and develops habits of mind applicable to a broad 
        spectrum of endeavors. At its highest levels and in its purest 
        form, education fosters breadth of view, diverse perspectives 
        and critical analysis, abstract reasoning, comfort with 
        ambiguity and uncertainty and innovative thinking, particularly 
        with respect to complex, non-linear problems. This contrasts 
        with training, which focuses on the instruction of personnel to 
        enhance their capacity to perform specific functions and tasks 
        . . . . Opportunities for substantial professional education 
        are relatively rare--particularly for the extended in-residence 
        education that produces the learning synergies that only come 
        from daily, face-to-face interaction with fellow students and 
        faculty. Consequently, the PME institutions should strive to 
        provide as pure and high quality education as feasible.''

    National War College (NWC) concurs with this policy wholeheartedly 
and adheres to it as much as possible. While some training takes place 
at NWC as a by-product of our educational efforts, our curriculum is 
focused completely on educating our students in the analysis and 
development of national security strategies.
    Admiral Hall. While some may use the terms ``training' and 
`education' interchangeably, as the Commandant of the Industrial 
College of the Armed Forces, I do not. In my view, training focuses on 
the development and performance of specific tasks and skills, while the 
proper focus of education is the human intellect, involving generalized 
and abstract information that may not necessarily be tied to specific 
tasks.
    The goal of training is to prepare a leader or an organization to 
execute defined tasks and includes repetition to improve the physical 
performance of an individual or an organization to accomplish a 
specific mission. Education seeks to stimulate human intellect and 
inquiry to address the conceptual and abstract, and seek the ``why'' 
and ``what if '' of complex phenomena and issues. In other words, 
education teaches how to think and what the questions are, while 
training teaches what to think and what the answer ought to be.
    At the Industrial College of the Armed Forces we educate. We 
prepare leaders in terms of how to think about major, complex national 
security challenges and issues and how to deal with strategic 
challenges, problems, and issues that may [or may not] have outright 
solutions.
    Dr. Snyder. The 1989 Skelton Panel Report said all the Commandants 
and Presidents should teach so that they would understand what it takes 
to be a faculty member. Can you describe a typical faculty member's 
day? Do you yourself teach or mentor individual students? a. Unlike 
civilian university professors who emphasize research, your faculty 
members generally do not have teaching assistants, research assistants, 
or set office hours. When do they have time for service, research, and 
writing? How much research and writing do you expect them to do outside 
the sabbatical windows? How is this assessed on their appraisals, 
military and civilian?
    General Steel. Yes, I understand what it takes to be a faculty 
member. If I was teaching a core course, my day would start before 
lecture or class by going up to my seminar room and preparing the room 
for my seminar. I also would be checking in on my committee to see how 
my students are doing, and then work my way to lecture. During the 
lecture's question and answer period, I would record my observations of 
those students who belong to me and their performance in the question 
and answer period. Following lecture, I would lead my seminar in 
discussion and debate about the topic. This would take me through 
lunch. In the afternoon, I would either finish preparing for my 
elective and conduct my elective, or I would be recording observations 
about seminar performance, preparing for the next day's activities, 
and/or counseling/mentoring students. In addition, I very well might be 
working on projects relative to my additional duties, which could 
include coaching a sport, serving as faculty advisor to an 
international fellow or American student, serving as faculty advisor to 
a student committee, or serving as an NWC faculty representative to a 
National Defense University (NDU) committee working on a university 
project, such as the NDU Academic Plan. I could also be conducting 
research or outreach.
    I do not teach. I do attend every lecture and I sit in seminars to 
observe both faculty and student performance. I do this routinely when 
not participating in NDU-directed activities. For example, I 
participate in all the international fellows' academic trips as a 
mentor for them. Yes, I do mentor individual students.
    The primary mission of the National War College is to teach our 
students. That has been and still is my number one priority. When our 
faculty members are teaching, a normal teaching load would be two core 
courses and two electives, one each in the fall and the spring. That 
would mean approximately 88 contact hours with students in each 
semester, not counting a significant amount of classroom preparation, 
normal duties such as advising and counseling students, serving as a 
faculty mentor on a student committee (i.e. Morale and Welfare 
Committee), or accomplishing another duty required to keep the College 
running. All those expectations take significant amounts of faculty 
time and effort. Even so, our faculty are still able to achieve 
impressive levels of professional development, scholarship and 
outreach. As an example, a partial list of the accomplishments of one 
of our faculty members during this past year includes:

    <bullet>  Advising the NDU President on issues concerning NDU 
relations with other national defense colleges in his area of 
expertise.

    <bullet>  Participated in visit to NDU of an international CAPSTONE 
course.

    <bullet>  Participated in preparations and conduct of a 
sophisticated war game at the Air University as an area expert.

    <bullet>  Lectured to other NDU organization on multiple occasions.

    <bullet>  Participated in a think tank project to survey future 
maritime security issues in his area of expertise.

    <bullet>  Participated in National Intelligence Council project on 
future security scenarios in his area of expertise.

    <bullet>  Participated in planning an OSD war game with nations in 
his area of expertise.

    <bullet>  Chapters published in a book on an international navy 
(Naval War College).

    <bullet>  Articles published in an online journal that specializes 
in his area of expertise.

    <bullet>  Lectured/led seminars at the United States Military 
Academy, the Naval War College, and Georgetown University.

    <bullet>  Reviewed manuscripts/books for University of Indiana 
Press, Australia National University, and the Journal of Military 
History.

    <bullet>  Testified before a Congressional commission.

    <bullet>  Participated in Army War College conference on the 
capabilities of a regional military; CAPS-RAND Conference on the same 
subject.

    <bullet>  Chaired panel at a conference at the Naval War College.

    <bullet>  Numerous media interviews.

    This faculty member was able to achieve this high level of 
professional service, research and writing while carrying a full 
teaching load, advising three students and fulfilling other duties to 
the College.
    Research and writing are encouraged after faculty members perform 
what I refer to as my first two priorities. First and foremost, we are 
a teaching institution; this is our core mission and my number one 
priority. My second priority and central focus is directed toward 
mentoring and educating students and providing them honest evaluations 
of their performance and making that extra effort to help them succeed. 
Behind this emphasis, I provide faculty time for professional 
development, whether that is faculty engaging in research and 
scholarship to advance the educational mission of the College or time 
to produce written materials tied to their research and field of 
expertise. My overall expectations are that each faculty member remains 
current and relevant in each of their disciplines.
    Each faculty member is evaluated annually based on their 
contributions to the College, including their professional development. 
My department chairs under the leadership of the Dean of Faculty lead, 
guide and supervise the development of their department faculty. Based 
upon their observations and mentoring, they specifically address these 
areas in the faculty annual evaluation report. It can be captured in 
many ways, from the writing of a core course syllabus, to publication 
of articles and books, to issuing papers requested from outside the 
College.
    Admiral Hall. The `typical' day for a faculty member is varied and 
diverse. The many activities a faculty member may be involved with on 
any given day include the following:

    <bullet>  Preparing to teach a class session that day.

    <bullet>  Teaching a core course lesson, program lesson (e.g., 
Regional Security Study, Exercise Program, or Industry Study), or 
elective course.

    <bullet>  Attending lectures or lunchtime ``brown bag'' guest 
speaker presentations.

    <bullet>  Meeting/mentoring with students (after class, with 
students assigned to that faculty member as advisees for the academic 
year, and/or with students conducting research in an area related to 
the faculty member's expertise).

    <bullet>  Attending student functions (student presentations on 
countries or agencies, intramural sporting events, promotions, award 
ceremonies, socials, etc.).

    <bullet>  Attending teaching team, department, college committee or 
faculty meetings.

    <bullet>  Researching/preparing for subsequent class sessions (in 
core course areas, program areas, or elective courses).

    <bullet>  Participating in the Industry Studies program (seminar 
and field studies sessions take place during January-May of each year) 
which involves both preparatory work and the execution of the program 
throughout the year. Because of the extensive number of industry 
contacts and visits that must be arranged, updating the course content 
continues throughout the entire year.

    <bullet>  Performing outreach activities (consultations with DOD or 
other executive branch departments and agencies, guest lecturing, 
attendance and/or participation in think tank or department/agency 
symposia, panel discussions, or forums).

    <bullet>  Conducting long term faculty research.

    Additional information:

    <bullet>  Most faculty members have 2-3 core course lessons to 
teach each week. Many of the faculty teach at least one elective each 
semester.

    <bullet>  Student functions, guest lectures, teaching team, 
department, and college meetings do not occur each day, but some 
combination of most of these activities occur on a weekly basis.

    <bullet>  Outreach activities usually take place on days when 
faculty members are not teaching, but not always.

    <bullet>  Discretionary time typically is used for teaching 
preparation (reviewing readings assigned to students, supplemental 
faculty preparation readings, briefing slides, lecture notes, preparing 
handouts, identifying and coping any additional supporting materials).

    As indicated above, faculty must use whatever discretionary time is 
available to conduct research. The imperative for the ICAF curriculum 
to be up-to-date and relevant for the high level professionals who 
constitute our student population requires everyone in the faculty to 
maintain currency on vital operational and strategic policy concerns of 
the country's leadership in national security affairs. As such, faculty 
members constantly conduct research into contemporary developments and 
policy issues during their discretionary time.
    All faculty members are required to conduct research throughout the 
academic year in order to keep the curriculum up-to-date and relevant. 
Writing related to research is conducted by all faculty members in the 
preparation of faculty teaching packets. Departments prepare a unique 
faculty teaching packet for each lesson taught during the academic year 
to ensure students in every seminar are exposed to the same concepts 
and material (checked against OPMEP requirements), regardless of the 
faculty member teaching the lesson. These departmental teaching packets 
are written by the faculty in each department, and are updated 
annually--requiring faculty to conduct research to ensure relevance and 
timeliness related to contemporary national security issues.
    Many faculty members also seek to conduct more traditional academic 
research (books, journal articles, monographs, etc.) and ICAF has 
sustained a respectable publication record every year. In some cases, 
faculty with specific research projects or book/journal articles in 
development are given partial relief from teaching duties to give them 
additional time to work on completing their manuscript. ICAF also gives 
an annual research award to faculty member(s) with notable research 
accomplishments during an academic year.
    Department Chairs at ICAF monitor their faculty to ensure that they 
meet the college's expectations for research throughout the academic 
year. On all Title X performance reports and annual evaluations, 
research is specified as a requirement in support of curriculum 
development and preparation of teaching packets. Evaluations of our 
military faculty members are documented on their individual services' 
performance evaluation forms and are therefore oriented toward staff 
and command capabilities and do not specifically provide for evaluation 
of research activities. Narrative statements in the performance reports 
may mention significant research activities and publications as they 
relate to the mission accomplishment.
    As the Commandant, I frequently sit in on seminar class sessions 
and contribute to the seminar discussions with my career, joint, and 
interagency experience, and prompt students to consider a more 
strategic level of evaluation of issues under discussion. My practice 
of visiting the seminars, rather than teaching a particular course to 
just one seminar, allows me to monitor the currency and quality of the 
academic content, the quality of teaching, and ensure students are 
being taught subject content at the appropriate level related to 
strategic national security affairs.
    I conduct an open-door policy at all times with regard to students, 
faculty, and staff at ICAF. I regularly mentor individual students 
through follow-up discussions resulting from my visits to seminar 
rooms. I also seek out and engage students at ICAF and NDU academic and 
social events, and these opportunities often result in one-on-one 
discussions with students about their ICAF experience, career 
aspirations, or even family issues. In particular, I emphasize 
interaction and mentoring with the International Fellows. I believe it 
is critical that the International Fellows have access to senior 
leaders to discuss American culture, strategic thought, interests, and 
values, and that they undergo a positive learning and living experience 
during their year at ICAF.
    Dr. Snyder. Does having a master's degree program at these schools 
detract from the PME mission, not from the standpoint of it being easy 
to accredit existing programs, but that it may tip the focus toward the 
academic instead of professional education?
    General Steel. Civilian graduate education and professional 
military education serve different purposes and therefore are 
underpinned by different educational dynamics. The danger with having a 
master's program is the possibility of becoming seduced by the dynamics 
of civilian graduate education to the detriment of the PME mission. 
Examples would be: defining the purpose of the school as a graduate 
research institution rather than a teaching college; gauging faculty 
quality by their research and publication rather than their subject 
matter expertise and teaching prowess; and adopting civilian student 
assessment practices rather than developing a student assessment 
process tailored to the distinct characteristics of your student body 
and mission. NDU is particularly susceptible to this possibility due to 
the wide variety of missions its numerous components have and the 
natural bureaucratic tendencies to make everyone in the University look 
the same. Some NWC students benefit professionally from the opportunity 
to earn a master's degree as part of their PME experience at the NWC 
and as long as a master's program is important to the Chairman, the 
College will continue to have a master's program. However, having a 
master's program does not add anything to the ability to accomplish the 
PME mission. The National War College's experience has been that having 
a master's program has neither increased academic rigor, nor sharpened 
the relevance of the curriculum, nor improved the effectiveness of 
student and program assessment. The Process for Accreditation of Joint 
Education (PAJE) has and continues to ensure academic rigor, a sharp 
and relevant curriculum and effective student and program assessments. 
A separate NWC Board of Visitors that could provide effective oversight 
of these two different and potentially opposing educational dynamics 
might be very beneficial in ensuring the accomplishment of the 
College's PME mission.
    Admiral Hall. Having a master's degree program (and the 
accompanying accreditation process) does not detract from the PME 
mission. ICAF is first and foremost a JPME institution and everything 
done at the college flows from that mission. We find that academic 
standards reinforce the quality of the college's execution of the JPME 
mission. Academic standards also reinforce the credibility of the 
academic aspects of the curriculum with regard to quality, rigor, and 
professional conduct by faculty.
    Dr. Snyder. Do all of your students receive master's degrees--why 
or why not? What does top quality in uniformed faculty mean to you? 
Please be specific, is it more important to have an advanced degree in 
specific areas like international relations, political science, a 
regional study, or military or political history than it is to have a 
PhD in any subject even if that was in math or engineering?
    General Steel. Not all the students receive master's degrees. 
Students must complete all the academic requirements in order to 
qualify for the degree. This past year we had a very capable American 
student who missed an inordinate amount of class time due to an illness 
and he was incapable of completing the academic requirements. He was 
dropped from the course. Another example was a student who was pulled 
out of the course for a real world critical requirement and 
subsequently did not qualify for completion of the degree. We have a 
number of international fellows who do not meet the prerequisites for 
the master's or are incapable of passing the requirements to an 
acceptable level. These are all examples of students that do not 
receive a master's degree. We do, however, have a robust remediation 
program to provide every opportunity for a student to achieve success 
and complete the degree program.
    When considering a Service's nomination for a faculty position at 
the National War College we look for the following in their file.

    Minimum Requirements:

    <bullet>  Grade 06

    <bullet>  Command at the 05 level

    <bullet>  Senior Service College graduate

    <bullet>  Master's degree

    <bullet>  Completed JPME II

    <bullet>  Staff experience at the 3-Star level or higher

    Enhanced Qualifications

    <bullet>  Joint Qualified

    <bullet>  Joint/Combined staff experience

    <bullet>  Operational experience OIF/OEF

    <bullet>  Previous teaching experience at undergraduate or graduate 
level

    <bullet>  Ph.D.

    Our policy is that all full-time civilian faculty we recruit and 
hire under Title 10 authority must have Ph.D.s. Given that, it is 
essential that their degrees be in a discipline relevant to national 
security strategy since those individuals form the backbone of our 
faculty's academic expertise.
    Admiral Hall. Nearly all ICAF students receive a master's degree. 
Often, one or two International Fellows receive a ``diploma'' rather 
than a master's degree. International Fellows sometimes elect not to 
seek a master's degree for personal reasons (including because they 
already possess a PhD) or are not eligible to receive a master's degree 
because they do not possess a bachelor's degree or equivalent 
educational experience. NDU uses a private company also used by other 
area universities to determine whether educational experience 
constitutes the equivalence of a bachelor's degree. The rare U.S. 
student who has only received a diploma usually lacks a bachelor's 
degree (an extremely rare occurrence) or fails to complete some portion 
of the academic program due to illness or other circumstances.
    Diploma students (international or U.S.) participate in all regular 
educational experiences at ICAF, but are permitted to submit outlines 
in lieu of written papers for writing assignments.
    Top quality in uniformed faculty means a senior JPME school 
graduate, broad operational and joint experience (ideally, at the 
strategic level) that supports the subject areas of the curriculum, 
adult education teaching experience (whenever possible), and someone 
with a desire to enhance the quality of the curriculum and education of 
the students.
    ICAF prefers to have military faculty members (or executive branch 
department faculty) with an advanced degree (masters or PhD) in a 
subject area related to the substantive areas of the curriculum. In 
some cases, sufficient operational and joint experience (particularly 
at the strategic level) can sufficiently compensate for lack of a 
relevant advanced degree. On the other hand, faculty who lack both 
substantive experience and a relevant advanced degree (e.g., possess an 
engineering or math degree) typically experience difficulties in 
learning and effectively teaching course content, and establishing 
credibility with the students.
    Dr. Snyder. What does ``top quality'' mean for civilian faculty? 
Please be specific. a. Does not having tenure affect how professors 
treat ``academic freedom''?
    General Steel. Title 10, civilian faculty at the National War 
College are chosen with great care. Based on the needs of the College, 
the Commandant promulgates specific position announcements that 
initiate the faculty selection process. These announcements are put out 
nationwide through USA JOBS, the OPM website, and advertised in 
journals and other periodicals frequented by academics. The Commandant 
develops highly qualifying criteria for selection and these criteria 
are used in selection committee deliberations and in final selections. 
The Commandant gives guidance to the selection committee chairman, 
receives progress reports from him, and out-briefs him when the full 
committee is prepared to make its recommendations. In one recent 
selection, which had 175 applicants, these were the actual highly 
qualifying criteria used:

    <bullet>  Substantial academic or professional background in 
political science, history, strategic studies or related fields to 
allow teaching across a broad range of subjects in the core and 
elective curriculum.

    <bullet>  Demonstrated teaching experience, either full or part 
time, at the university and preferably graduate level.

    <bullet>  Demonstrate willingness and ability to accept major 
administrative responsibilities in an academic or other setting; 
willingness to participate in the governance and curriculum development 
of the National War College.

    <bullet>  Practical experience in policy, legal, intelligence or 
military areas related to the development and implementation of 
national security strategy and policy.

    <bullet>  Substantial knowledge of, demonstrated scholarly 
achievement in, and/or policy experience with one or more of the 
following subjects related to the broad focus of strategic studies: 
Africa, China, Russia, Southeast Asia, the Middle East, 
counterinsurgency, the changing character and conduct of war, and 
security assistance, stability, post-conflict, and peacekeeping 
operations.

    Based on their review of the materials submitted by the applicants, 
the committee develops a list of fully qualified applicants and from 
them, a short list of best qualified applicant-interviewees, holding 
closely to the highly qualifying criteria throughout their work. After 
a detailed committee interview that includes a ``job talk'' and a 
discussion on teaching strategy for a particular curricular topic, the 
committee makes its recommendations to the Commandant, who in turn, 
makes his recommendations to the President of National Defense 
University, who ultimately decides on every hire.
    This intense process has produced a first-rate teaching faculty 
with a very high professional standing. With two lawyers who hold juris 
doctorates on staff, the remaining 22 Title 10 faculty of the National 
War College is composed of professionals with doctoral degrees. 
Additionally, the Title 10 faculty boasts retired military and foreign 
service officers, a former deputy under secretary of defense, a former 
deputy assistant secretary of defense, and a former National 
Intelligence Officer for Europe. This complements nicely the great 
expertise of our rotating Department of Defense, State Department and 
other agency faculty.
    Not having tenure does not affect how the National War College 
treats academic freedom. The Officer Professional Military Education 
Policy of the Chairman, Joint Chiefs of Staff, directs the President, 
National Defense University, to establish a climate of academic freedom 
within the university that fosters and properly encourages thorough and 
lively academic debate and examination of national security issues. 
NDU's commitment to academic freedom is published in NWC faculty and 
student handbooks, as well as NDU Regulation 360-1. University leaders 
and College faculty continually review these polices, ensuring academic 
freedom is protected and thrives in and out of the seminar room.
    Admiral Hall. ICAF seeks ``top quality'' civilian faculty members 
with the following attributes:

    <bullet>  Commitment to the ICAF mission.

    <bullet>  Ability to teach effectively as a subject matter expert 
in an adult education setting.

    <bullet>  Broad, relevant operational and joint or interagency 
substantive experience, preferably at the strategic level.

    <bullet>  A substantial understanding of strategy and strategic 
national security matters.

    <bullet>  A substantial understanding of joint logistics or 
knowledge related to the resource component of national security.

    <bullet>  An ability to work in a joint, interagency, multi-
disciplinary setting and contribute to the synthesis of the various 
components into an integrated curriculum and educational experience. 
Understands how his/her course is integrated into the overall ICAF 
curriculum and can teach effectively in support of an integrated 
curriculum.

    <bullet>  Actively supports policies promoting organizational 
effectiveness in executing the ICAF educational mission (e.g., high 
quality grading of student papers and student classroom contributions; 
meets deadlines for returning student papers, submitting grades, and 
completing student performance reports; respects students and is active 
and available as intellectual guide and counselor, etc.).

    <bullet>  Actively conducts research on strategy, strategic 
national security affairs, and the resource component of national 
security in support of the ICAF mission, continuous curriculum 
development, and faculty development.

    <bullet>  Practices intellectual honesty and exercises critical 
self-discipline and judgment in using, extending, and transmitting 
knowledge in support of the ICAF mission.

    Not in my opinion. The American Association of University 
Professors 1940 Statement of Principles on Academic Freedom and Tenure 
(with 1970 Interpretive Comments) clearly states that faculty members 
``are entitled to full freedom in research and in the publication of 
results,'' but it also states that faculty members have ``special 
obligations.'' One of those special obligations is that they ``should 
exercise appropriate restraint.'' ICAF faculty members understand that 
they are U.S. government officials and are expected to behave 
responsibly with regard to their stated or written opinions. ICAF 
faculty have full freedom to make public statements and publish 
articles which may be critical of U.S. policy, but they also recognize 
that as NDU faculty members they must do so in a responsible way, one 
that does not undermine U.S. policy. Any U.S. policy may be analyzed in 
terms of its strengths and weaknesses, and constructive criticism may 
be usefully applied to any policy debate.
    I believe that having tenure would have no impact on the practice 
of academic freedom at ICAF. The obligation for responsible research, 
statements, and publications as government officials applies whether 
faculty have tenure or not.
    Finally, a policy of tenure would interfere with the ability of the 
Commandant to effectively execute the mission of the college. In order 
to maintain the quality and currency of the curriculum in support of 
evolving national security and resource challenges, the Commandant must 
be able to bring in new faculty with recent policy or operational/
strategic experience, or more in-depth areas of expertise when needed 
to maintain the high quality of the curriculum and the faculty.
    Dr. Snyder. Since you don't have tenure, what is the process for 
renewal and non-renewal of the civilian faculty? How transparent is the 
system? Do professors know six months before they are up for renewal 
whether they will be renewed, for how long, and why? In a tenure system 
people think the faculty members have all the power, in a no-tenure 
system it appears that the school has unlimited power. How do you avoid 
the extremes and appearances of arbitrariness? How many of your 
civilian faculty don't have PhDs or JDs? Be specific about what degrees 
they do have and why they were hired.
    General Steel. The National War College follows the policies and 
procedures for renewal and non-renewal as outlined in NDU Regulation 
690-4, Personnel-Civilian Employment Under 10 USC Sec. 1595, dated 4 
August 2005.
    The NDU regulation covering renewal and non-renewal are available 
for any faculty member to review. Written and verbal communication with 
the faculty member being considered for either renewal or non-renewal 
adheres to appropriate privacy act policies.
    The National War College follows the requirements for renewal which 
are very clear in the NDU regulation. Below is an excerpt from Appendix 
C, paragraph 7 of NDU Regulation 690-4.
    ``At least twelve months prior to the expiration of a Title 10 
employee's current term of employment, the Academic Dean/Dean/Director 
must consider the question of renewal using such internal procedures as 
are deemed fair and reasonable. At least ten months prior to the 
expiration of term, the Commandant/Director will forward the renewal 
packet through proper channels at NDU. Employees should receive final 
official notification at least eight months before their current 
employment term ends.
    If the Academic Dean/Dean/Director/Vice President determines that 
he/she will not recommend renewal, he/she should forward the 
recommendation through the commandant/Director to the NDU-P for the 
final decision at least 6 months in advance of the expiration of the 
current term when possible. Once a final decision is made by the NDU-P, 
the Title 10 employee should be notified in writing. No faculty member 
is entitled to renewal, and non-renewal at the expiration of an 
employment term is not an involuntary termination of employment.
    If the Commandant/Director decides that he/she should renew the 
employee's term of employment and the Title 10 employee agrees, the 
Commandant/Director will request approval for the renewal and provide 
the NDU staff and NDU-P with the following information:

    <bullet>  Basis for the proposed renewal.

    <bullet>  The employee's performance appraisals for the current 
term of employment.

    <bullet>  Length of the proposed renewal term.

    <bullet>  The employee's current pay and benefit costs.

    <bullet>  Proposed academic title and pay level with justification 
for renewal at a higher or lower title or pay level, based on the 
component peer review \1\ input to the Commandant/Director.
---------------------------------------------------------------------------
    \1\ Peer Review Process--Each college/component will establish a 
peer review process for faculty renewal requests. Each college/
component will be afforded wide latitude in developing a relevant and 
rigorous process and will forward annually to HRD each July its 
methodology. NDU general guidance is that the process should include a 
panel of peers. The panel will consist of an odd number (minimum of 3) 
of qualified faculty members to evaluate the renewal request and 
validate the academic title recommendation. The packet going forward 
through channels to the NDU-P will include the panel recommendation 
along with the Commandant's/College Director's independent 
recommendation and a Provost/AA recommendation. If the Provost/AA 
recommendation is different than the Commandant/Director's, the 
Commandant/Director will be notified prior to forwarding to NDU-P for 
signature. The general guidance is that the peer review panels should 
review the candidate's career record and strictly apply academic title 
rigor including but not limited to academic degree credentials, 
teaching experience, professional experience, and scholarship.

    If the NDU-P approves renewal, HRD will notify the organization of 
the approval and process the renewal 30 days prior to the effective 
date.''
    Extremes and appearances of arbitrariness are avoided by adhering 
to the procedures as outlined in NDU Regulation 690-4. NDU Regulation 
690-4 includes a section concerning employee grievances. The DOD 
Administrative Grievance System (AGS) DoD 1400.25-M applies to Title 10 
employees at the National Defense University.
    All of the Title 10 faculty members currently serving on the 
faculty of the National War College have either a Ph.D. or a JD.
    Admiral Hall. ICAF's policies regarding Title 10 faculty operates 
under the following applicable regulation: 10 USC 1595; Secretary of 
Defense Memorandum, 23 April 1990, ``Delegation of Title 10 
Authority'', AR 690-4, NDU Title 10, and NDU REGULATION 690-4, revised 
4 August 2005. Under this regulation, newly hired faculty members have 
a one-year probationary contract. Subsequently, faculty members are 
normally renewed for one to three years, with three years being the 
most common term of renewal. ICAF department chairs make 
recommendations to me through the Dean of Faculty and Academic Programs 
with regard to contract renewals one year prior to the expiration of 
the current contract. If the ICAF leadership decides not to renew a 
faculty member because of performance issues or need to hire faculty 
with different areas of expertise or more recent policy experience, the 
college's policy states the that faculty member is notified one year 
prior to the expiration of the contract; NDU policy requires 6 months 
``if practicable,'' but no less than 60 days. NDU Title 10 policy 
states that ``No faculty member is entitled to renewal, and non-renewal 
at the expiration of an employment term is not an involuntary 
termination of employment.'' It is the policy of the current ICAF 
leadership to discuss with faculty members why their contract is not 
being renewed. The criteria mentioned in the previous question related 
to the characteristics of a ``top quality'' faculty member also are 
used in evaluating faculty for contract renewal decisions. Additional 
criteria would include expertise and currency with evolving national 
security issues, effectiveness as an instructor, contributions to 
college programs, adherence to ICAF and NDU administrative procedures 
and requirements, and ability to work effectively with other faculty 
and staff.
    NDU's current 690-4 Title 10 policy and ICAF policies for 
implementation are contained in the ICAF Faculty Handbook (last updated 
in 2008) which is distributed to all ICAF faculty. Discussions with 
faculty members about reasons for renewal or non-renewal of contracts 
are considered personnel issues and are treated confidentially.
    As stated above, ICAF notifies faculty members as to whether or not 
they will be renewed 12 months prior to the expiration of their 
contract. Faculty members who will be renewed are made aware of the 
renewal period being recommended to the Commandant. Faculty who are not 
being renewed are notified 12 months prior to the expiration of their 
contract to provide adequate time for seeking alternate employment if 
that is desired.
    As the Commandant, I am responsible to the CJCS for the adherence 
to the OPMEP and the proper execution of the college's mission in 
support of the nation's security. Faculty members accept employment at 
ICAF understanding that the composition of the faculty must be aligned 
with the needs of the nation and college's mission. Nevertheless, 
faculty at the college exercise considerable power in the college with 
regard to interpreting its mission and determining how it is executed. 
I rely upon my faculty (many of whom have been at the college for many 
years) to advise me and the Dean of Faculty and Academic Programs about 
curriculum, and the fairness of NDU and ICAF personnel policies and 
regulations. Curriculum development, reviews, and revisions all take 
place through the faculty within the academic departments and are 
annually briefed to me for my review and approval.
    ICAF also has had in place for many years a ``Faculty Committee.'' 
This Faculty Committee is elected by the entire faculty (excluding any 
with positions involving annual Title 10 performance evaluations such 
as department chairs, deputy chairs, and Deans) annually. Candidates 
are nominated by the entire faculty (excluding those mentioned above) 
and elected by secret ballot. Faculty Committee members serve for two 
to three years. The Faculty Committee functions as a sounding board for 
the Commandant and Deans with regard to policy matters and any issue 
that may affect faculty members--including personnel policies and 
regulations. The committee often is called upon to draft policy 
recommendations on issues that affect the faculty and to review policy 
changes being proposed by NDU. Likewise, the committee also provides a 
conduit for any faculty member to raise issues or concerns with the 
ICAF leadership without revealing their identity if that is their wish.
    I believe that regular dialogue with the faculty through a variety 
of mechanisms helps to ensure both faculty and I thoroughly discuss 
policy and curriculum issues of importance to the college and its 
mission. I meet several times each week with my Deans and Chief of 
Staff, Associate Deans, International Affairs Advisor, and Director of 
Institutional Research as my primary advisory staff. I have held a 
series of lunches with small groups of 5-6 faculty members to ensure 
that I know each faculty member personally and to provide a more 
intimate setting in which they can discuss with me any issues of 
concern to them.
    ICAF also holds regular faculty meetings throughout the academic 
year in which faculty are encouraged to raise issues of concern to them 
to the Faculty Committee. ICAF also has an Academic Policy and 
Curriculum Committee composed of all department chairs, program 
directors, and the chair of the Faculty Committee which review and 
advise me on potential major changes to policies or the curriculum.
    ICAF also conducts an annual off-site or on-site meeting to promote 
in-depth discussions among the faculty about curriculum issues. A 
recent faculty off-site constituted working groups covering the 
following topics:

    <bullet>  Facilitating quality student evaluations and writing 
feedback.

    <bullet>  ICAF Continuing Education: Effective Teaching.

    <bullet>  Industry Studies Program relationship with Micro-
economics and Economics of Industry.

    <bullet>  Preparing Students for Policy Planning and Policy Making.

    <bullet>  Strategies for implementing improvements and change at 
ICAF.

    <bullet>  The role of Regional Security Studies in the ICAF 
curriculum.

    <bullet>  The role of exercises in the ICAF curriculum.

    Four of ICAF's 45 Title 10 faculty members do not possess Ph.Ds. 
Information on their backgrounds, degrees and position at ICAF is 
listed below.
    1. The first faculty member is a long time part-time instructor in 
the Military Strategy and Logistics Department. He is a retired USA 
Colonel and former U.S. Senate staffer hired in 1995 for his experience 
in military strategy, Latin America, and DOD-Congressional relations. 
He holds an MS in Public Administration from Shippensburg University.
    2. The second faculty member is a former USAF pilot whose civilian 
career included serving as the lead aircraft procurement appropriation 
analyst for the Secretary of the Navy Comptroller and manager of the 
FAA's capital budget division, among other acquisition and budget 
positions. Hired at ICAF as a professor in the Acquisition Department, 
he has served as the Course Director for the Acquisition Core Course, 
faculty leader of the Aircraft Industry Study, and is currently the 
Director of ICAF's Industry Studies Program. He was hired because of 
his acquisition expertise and knowledge of the aircraft industry 
sector. He holds a Master of Public Administration degree from The 
George Washington University and a Master of Science degree in National 
Resource Management from the Industrial College of the Armed Forces. He 
is currently completing his dissertation toward a PhD in Public 
Administration and Public Policy.
    3. The third faculty member is a retired USN Supply Corps Captain. 
She was hired to teach military strategy and logistics, and acquisition 
because of her military experience and educational credentials. She is 
a distinguished graduate of the Wharton School of Business, University 
of Pennsylvania, earning a Master of Business Administration degree as 
well as being a graduate of the Industrial College of the Armed Forces 
and the Senior Executive Program at the Kellogg School of Business, 
Northwestern University. She is currently completing her dissertation 
toward a PhD in Public Administration and Public Policy.
    4. The fourth faculty member is a retired Canadian Forces Colonel 
and a naturalized U.S. citizen. He is the former Comptroller of the 
Army for Canadian Forces and has extensive experience in strategic 
financial planning. He was hired as a professor in the Economics 
Department, as an Industry Studies Program faculty member, and to add 
additional non-U.S. perspectives to strategic national security 
affairs. He is the former Canadian Forces Chair at ICAF, and holds an 
M.A. in Public Administration from The George Washington University, an 
ICAF diploma (pre-accredited M.A. period), and currently is completing 
his dissertation for a Ph.D. in Public Administration and Public 
Policy.
    Dr. Snyder. Some of you have indicated that you wish to hire 
``younger'' PhDs. Do you think they may need a bit of seasoning or 
practical experience to be able to hold their own with the caliber and 
seniority of students you have? Does it mean you have to push out 
``older professors'' who may be performing well in order to bring on 
younger ones?
    General Steel. Youth is not criteria of evaluation when hiring a 
new Title 10 faculty member. In our last Title 10 hiring effort, I gave 
the following guidance to the search committee chair.

    ``The candidates should be judged against the following criteria:

    <bullet>  Substantial academic or professional background in 
political science, history, strategic studies, economics, sociology, 
anthropology or related fields to allow teaching across a broad range 
of subjects in the core and elective curriculum.

    <bullet>  Extensive full-time professional teaching experience at 
the university level and preferably graduate level, particularly in a 
seminar environment.

    <bullet>  Demonstrates willingness and ability to accept major 
administrative responsibilities in an academic or other environment to 
include directing core and elective course; willingness to participate 
in the governance and curriculum development of the National War 
College.

    <bullet>  Practical experience in policy, legal, intelligence, or 
military areas related to the development and implementation of 
national security strategy and policy.

    <bullet>  Substantial knowledge of, demonstrated scholarly 
achievement in, and or policy experience with on or more of the 
following specific subjects related to the broad focus of strategic 
studies; Africa, China, Russia, Southeast Asia, the Middle East, 
counterinsurgency, the changing character and conduct of war, and 
security assistance, stability, post conflict and peacekeeping 
operations.''

    The National War College does not pursue ``younger'' professors and 
hence does not deliberately look to push out ``older professors.''
    Admiral Hall. The answer to this question depends upon what is 
meant by ``younger'' faculty or PhDs. ICAF believes that hiring faculty 
in their twenties or early thirties is problematic. I strongly believe 
that the faculty at ICAF needs ``seasoning or practical experience'' to 
hold their own with the students. ICAF subscribes to this judgment for 
two reasons. First, the mission of ICAF is to educate senior military 
officers and government officials about strategy, strategic national 
security affairs, and the resource component of national security. 
ICAF's experience is that in order to teach about these topics, faculty 
must have had applied experience in these areas. A student population 
of professionals who average approximately twenty years of professional 
experience expects to be educated by a faculty who also has 
considerable experience with the national security matters they are 
teaching. Faculty who cannot speak from experience about joint, 
interagency, and national security issues lack credibility in the 
classroom.
    Second, ICAF's experience (and related academic research on 
stratified leadership) indicates that years of experience, knowledge, 
and personal maturity are required before one can conceptualize at the 
strategic level. Both this research and ICAF's experience argue for 
hiring mature individuals with sufficient experience and maturity.
    ``Pushing out'' older professors may be necessary in at least two 
circumstances. First, the normal progression of aging affects the 
capabilities of individuals at different rates and in different ways. 
Aging may affect an individual's ability to maintain a full activity 
load, fully understand changing events and dynamics, or new concepts 
and ways of thinking. An objective assessment of diminishing capacity 
should be considered legitimate grounds for non-renewal of a contract.
    Second, faculty must work hard to maintain currency in national 
security affairs, policy issues, interagency dynamics, and bureaucratic 
processes. ICAF currently has numerous faculty whose experience as 
executive branch officials or military officers date back to the Cold 
War. Many have sustained active outreach and consultative programs to 
keep themselves up to date (and develop new areas of expertise) in the 
post-9/11 national security environment. However, it is incumbent upon 
ICAF to regularly refresh its continuing Title 10 faculty with 
individuals who possess more recent operational, joint, interagency, 
and policy experience in order to ensure currency in the curriculum and 
credibility with the students.
    Dr. Snyder. National and ICAF have 1/3, 1/3, 1/3 faculty and 
student mixes while the Service schools have a 60% host and 40% other 
mix. Are the faculty and student mixes dictated for the various 
institutions still appropriate? If so, was it appropriate for Congress 
to allow the Service senior schools to award JPME II credit (NDAA FY 
2005) despite their lower ratios, non-neutral ground, and lack of a 
requirement to send any graduates to joint assignments? ICAF and 
National must send ``50% plus one'' graduates to joint assignments. Is 
this still appropriate? Should Service schools have some kind of 
requirement?
    General Steel. 1) A critical component of joint education is 
acculturation--ensuring officers from the various Services understand 
the professional cultures and warfighting perspectives of their sister 
Services, have trust and confidence in the professional expertise and 
integrity of officers from the other Services, and are able to work 
effectively in a fully joint organization where each Service is 
represented with essentially equal weight. Acculturation cannot be 
taught well in a classroom; it must be experienced. Students must live 
and work in a fully joint environment where all the Services have 
approximately equal representation, and their debates over the best 
ways to orchestrate all the capabilities of the various Services must 
take place on neutral ground where no Service has an institutional 
advantage (such as at a Service college). Thus the 1/3, 1/3, 1/3 
Service mix for military students and faculty is absolutely appropriate 
for the joint schools, which exist solely to provide a cadre of 
officers with special expertise in joint operations, and therefore they 
should aim to provide the highest quality joint education possible.
    2) Service Colleges, on the other hand, exist first and foremost to 
provide a cadre of officers with special expertise in Service 
operations, and thus the military student and faculty mixes at those 
schools should favor representation from the host Service. Since joint 
expertise and perspective constitutes a critical secondary goal for 
Service schools, however, non-host Service students and faculty should 
be included in the mix to the maximum extent possible that their 
numbers can be supported by the non-host Services and their numbers 
will not degrade the focus on host Service expertise that must remain 
the principal purpose of each Service College. From that perspective, 
the 60/40 mix seems reasonable.
    No, not if the aim is to provide the highest quality joint 
education possible before allowing an officer to earn designation as a 
joint specialist. As discussed above, acculturation is critical to 
high-quality joint education, and substantive acculturation can only be 
accomplished on neutral ground with equal representation of all the 
Services in both the military student body and the military faculty.
    Since the sole purpose of joint education is to prepare officers 
for work in joint organizations, it only makes sense to send the bulk 
of their graduates to joint assignments once they have graduated from a 
joint educational school. If Service schools are going to continue to 
be allowed to award JPME II credit to their graduates (i.e., if they 
are going to be seen as preparing officers satisfactorily for work in 
joint organizations), then it would seem only reasonable that some 
significant proportion of their graduates also be designated for joint 
assignments. A possible danger of only ICAF and National sending the 
bulk of their graduates to joint organizations is officers viewing 
attendance at ICAF and National as detrimental to their careers due to 
more restrictive assignment opportunities after graduation.
    Admiral Hall. I believe that the faculty and student mix for ICAF 
is not just appropriate, but is, in fact, optimal. ICAF carefully 
builds each of its twenty student seminar groups with a balanced mix of 
military services and civilians (a typical seminar consists of 3 USA, 3 
USAF, 3 USN/USMC (sometimes USCG), one International Fellow, three DOD 
civilians, and three non-DOD civilians--sometimes including one of 10 
Industry Fellows in the class). The 1/3 service student allocation to 
ICAF permits this balanced mix for all seminars and maximizes every 
student's exposure to joint, interagency, international, and often 
private sector industry perspectives. Likewise, the 1/3 service faculty 
mix allows for teaching teams to maximize the pairing of faculty from 
different services and civilian agencies for each student seminar--
yielding an even greater exposure to joint and interagency experience 
and education.
    Whether it was appropriate for the Service senior schools to award 
JPME II credit is dependent upon the criteria that the CJCS and the 
Congress believe is sufficient to constitute a Joint Qualified Officer.
    Because of the emphasis on joint and interagency education at ICAF 
(and NWC), it is appropriate for a large percentage of their graduates 
to be sent to joint assignments. ICAF believes that the 50%+1 rule 
further promotes the objectives of Goldwater-Nichols and ensures 
greater jointness throughout DOD. Service school requirements should be 
based upon CJCS, Service, and Congressional determination of needs, 
bearing in mind that such a requirement would further promote jointness 
throughout DOD.
    Dr. Snyder. What constitutes rigor in your educational program? 
Does rigor require letter grades? Does rigor require written exams? 
Does rigor require the writing of research or analytical papers, and if 
so, of what length? Does rigor require increased contact time and less 
``white space'' or vice versa?
    General Steel. The National War College recognizes that academic 
rigor is a process, not an end state. Every aspect of the educational 
experience contributes to the level of academic rigor present in our 
program and only ongoing program assessment ensures that rigor is 
sustained.
    In our assessment process, we have identified three primary 
indicators of academic rigor.
    1) A challenging, dynamic curriculum.
    The College has established a curriculum review and renewal process 
to ensure continued relevance and currency in support of our college 
mission. Program and course objectives, which directly support the 
mission, are written at the higher levels of cognitive engagement to 
support a curriculum that challenges NWC students to apply, analyze and 
synthesize their learning. Feedback from multiple sources--students, 
faculty, graduates, and senior leaders--is a critical component of our 
continuous improvement process. The internal curriculum coordinating 
committee reviews all feedback and provides a venue for the discussion 
of curriculum changes. Finally, periodic self studies for the Program 
for the Accreditation of Joint Education and Middle States Commission 
are welcomed as a means of self-reflection and peer feedback.
    2) Students and faculty actively engaged in the learning process.
    The seminar forms the foundation of student learning at the 
National War College. A commitment to maintaining small seminar size, 
13 students for core instruction, ensures that active learning 
prevails. This small size and multiple resectionings allow each student 
to be constantly challenged by a diversity of ideas and perspectives. 
For approximately 70% of the time, NWC students interact with their 
peers and faculty in critical thinking and creative problem solving 
activities such as analysis of case studies and exercises. While the 
remaining time is primarily devoted to lectures and panels, these are 
not purely passive activities; students engage with and frequently 
challenge the complex ideas presented in follow-on question and answer 
sessions and seminar discussions. Because our experienced and diverse 
faculty are key participants in this dynamic learning environment, 
maintaining faculty excellence is a priority. To enhance an already 
robust program of new faculty orientation, faculty seminar leader 
qualification criteria were adopted in AY 2009. Seminar leader 
excellence is further bolstered by numerous faculty workshops and 
opportunities for faculty improvement based on peer and leadership 
observations and feedback.
    3) High standards and expectations for all participants.
    The National War College students are evaluated against high 
standards that are clearly defined and consistently applied by teaching 
faculty. These standards are widely promulgated in the student handbook 
and NWC Standard Operating Procedures and faculty ratings are monitored 
to ensure consistent application. In addition to ongoing feedback in 
the seminar environment, students receive a minimum of 13 formal 
evaluations during the academic year which provide them an accurate 
picture of their achievement level and identify areas for improvement. 
A student who fails to meet the standards is involved in an 
individually tailored remedial process.
    Like many professional schools, the National War College maintains 
a high level of rigor without the use of A -F letter grades. Instead, 
we assign final course grades of ``Pass'' or ``Fail' to certify that 
students have met--or failed to meet--our high college standards. Our 
continued use of pass/fail grades is based on the decision, validated 
over time, that this system maximizes learning for our mid-career 
students. Clearly, the lack of competition for letter grades has not 
resulted in a decline in the motivation of our students. On the 
contrary, the requirement to engage with their highly respected peers 
and faculty in small, active seminars continues to motivate NWC 
students to achieve at the highest levels. Removing the unnecessary 
grading pressure that can keep learners from taking productive risks 
frees them, in fact challenges them, to explore new areas rather than 
playing to their strengths in order to earn a grade.
    While students receive ``Pass'' or ``Fail'' as final course grades, 
it is critical that faculty consistently measure students against the 
performance standards and provide them with a clear picture of their 
performance. NWC has successfully used ``Above,'' ``Met'' or ``Below'' 
ratings to let students know how their mastery of subject matter, 
preparation, leadership and interaction, writing and oral presentations 
measure up to the National War College standards. Equally important, 
however, are the candid, constructive faculty comments that support 
these ratings. Taken together, the ratings and the narrative give 
students comprehensive, meaningful feedback that they can use to gauge 
their progress through the curriculum and to challenge themselves to 
sustain or improve performance.
    Although we do not assign letter grades, we do have a process in 
place to encourage and recognize superior performance. Faculty identify 
the top students in each core and elective seminar and, in core 
seminars, the writer of the best paper. These students earn points in 
the NWC Distinguished Graduate program, which is designed to identify 
the top 10% of the class, those students who have demonstrated that 
they are NWC's outstanding students of strategy based on observed 
performance throughout the year. Excellence in writing is also 
recognized in the end-of-year writing awards program.
    While many institutions of higher education use written exams to 
hold students accountable for their learning and ensure a high level of 
rigor, there are other equally valid methods to challenge students and 
assess learning at the graduate level. Rather than written exams, NWC 
faculty use a variety of techniques to engage the students and provide 
direct assessments of their learning. With small seminars, faculty are 
able to assess the student's mastery of course material on a daily 
basis and give immediate feedback. Within the seminar environment, 
exercises, oral presentations, case study analysis and written 
assignments that are directly related to the course objectives provide 
multiple opportunities for faculty to observe and document student 
learning. Candid feedback from both faculty and peers motivates 
students to excel in these dynamic sessions.
    In addition to seminar-related assessments, NWC students 
participate in oral evaluations in both fall and spring semesters. 
These evaluations engage two faculty members and one student in a 45-
minute colloquy in which they are asked to integrate and apply what 
they have learned in the core program to the analysis of specific 
national security issues. These sessions enable faculty to evaluate an 
individual student's progress in more depth than would generally be 
possible in a written exam. NWC students have also reported that the 
oral evaluations provide an excellent opportunity for honest self-
assessment. Students who fail to meet the oral evaluation standards are 
immediately engaged in a remedial process that is tailored specifically 
to their needs.
    NWC students are required to demonstrate the ability to analyze 
complex problems, develop solutions and support those solutions with 
well-formed arguments. While writing analytical papers is not 
necessarily a requirement for rigor, it is one of the methods by which 
we assess our students' ability to do this and, as a consequence, is a 
factor in maintaining academic rigor at NWC. The rigor is derived, 
however, not from the paper length, but from the level of cognitive 
engagement required by the assignment. The core writing assignments, of 
approximately 8-10 pages in length each, are developed by the seven 
course directors to directly support the assigned learning objectives. 
Students receive detailed feedback that addresses the quality of 
critical thinking and analysis evident in their writing as well as the 
clarity and logic of their arguments. On average, an NWC student writes 
approximately 80 pages in the core and elective courses during the 
academic year.
    The National War College also offers options for those students who 
wish to engage in more in-depth research. Students who are accepted 
into the Research Fellow Program (usually 3 to 5 per class) receive 
faculty mentoring and time to pursue year-long research. Others can 
request the opportunity to combine papers for two core courses or a 
core course and elective to facilitate a longer paper; in AY 2009, 
approximately 15% of the class took advantage of this option. Finally, 
students can register for an advanced writing elective and, with the 
sponsorship of a faculty member, earn two graduate credits for a 
research paper in lieu of an elective course.
    At the graduate level, minimizing scheduled contact time is 
essential so that students can read, write and reflect on the ideas 
presented in lectures and seminar. The National War College has 
established an average of 13 contact hours per week as the standard 
and, based on experience, this is the maximum number that should be 
scheduled for our academic program. It is a challenging schedule but 
strikes the correct balance between engaging students with peers and 
faculty and providing them adequate time outside of class to think 
critically about their learning. This is also in line with other 
graduate programs, which frequently require only 9 to 12 contact hours 
per week for fulltime study. While recognizing the importance of 
limiting contact hours, the college has faced an ongoing challenge with 
the scheduling of NDU special lectures which, while of value, take up 
the ``white space'' that we know that our students need to maximize 
their learning.
    Admiral Hall. ICAF believes that rigor does require the writing of 
research or analytical papers in order to be able to assess the quality 
of student thinking, whether they understand the conceptual material of 
the ICAF curriculum, whether they are able to devise and implement 
strategies, and whether they understand and can evaluate the strategic 
level of national security affairs. ICAF strongly believes that if a 
student cannot write his or her thoughts coherently on paper, then the 
student does not have a coherent understanding of the concepts being 
assessed. The same kind of assessment may be achieved through written 
essay questions, but ICAF prefers 5 to 7 page papers of analysis, 
conceptualization, and argument in order to evaluate whether students 
can produce complex, multi-issue papers that are coherent, well-
organized, and well-argued. ICAF believes that 5 to 7 page papers test 
research, analysis, conceptualization, and argumentation skills on a 
variety of topics during the academic year and avoid limiting students 
to researching, analyzing, and arguing recommendations for only a few 
topics in a couple of more extensive and lengthy research papers.
    ICAF believes that written exams of multiple choice or short answer 
questions would only assess whether students remembered key concepts 
and facts, and not whether they could organize them into a strategy, a 
coherent multi-dimensional analysis, or a complex and well argued 
policy paper.
    ICAF currently uses letter grades, but is undertaking a 
reassessment of the effect of a letter grading system on the 
educational objectives of the college. The current letter grading 
system at ICAF clearly lays out detailed criteria for assessing 
different levels of student performance and assigning grades, but such 
criteria also could be applied to a non-letter grade system. During the 
1990s, ICAF used a grading system similar to the National War College 
using a ``met expectations,'' ``exceeded expectations,'' and ``failed 
to meet expectations'' grading system. ICAF's measures to ensure rigor 
in its educational program have been little changed from that system to 
its current use of letter grades. The ICAF program then and now uses 
multiple assessment devices to evaluate how well students are 
understanding course content and progressing into a truly strategic 
level of conceptual understanding and evaluation. As such, we do not 
believe that letter grades, in and of themselves, ensure rigor. 
Discussions with the Middle States Association of Colleges and Schools 
during accreditation visits indicate that the college must use clearly 
defined and systematically applied criteria for whatever grading system 
it uses, and that letter grades are not a requirement. According to 
Middle States, a Pass/Fail system is considered acceptable if the 
criteria is clearly defined and systematically applied.
    ICAF believes that rigor requires an appropriate balance of contact 
time and white space. Because ICAF has the unique mission of evaluating 
national security strategy (as do all the war colleges) and critically 
assessing its underlying resource component, it is keenly aware of the 
need to balance adequate contact time with white space to read, 
reflect, conceptualize, and strategize. ICAF has just completed a two-
year restructuring of its academic course flow. The Class of 2010 will 
have seminar sessions or a lecture each morning of the week, electives 
on Tuesday and/or Wednesday afternoons, and white space on most Monday, 
Thursday, and Friday afternoons. Productive use of white space requires 
some self-discipline by students, but I believe ICAF now provides a 
good balance and adequate time for reading, reflecting, 
conceptualizing, and strategizing.
    Dr. Snyder. Can you describe how you survey students, graduates, 
and graduates' supervisors to assess the quality of your program?
    General Steel. NWC has a robust process in place for collecting 
feedback from students during the academic year. At the close of each 
core course, one student from each seminar meets with the Core Course 
Director to provide a first look at student perceptions of the course. 
All students are then asked to complete detailed on-line surveys. 
Through a combination of multiple response and narrative items, 
students evaluate the accomplishment of course objectives, the 
usefulness of specific topics, readings, and lectures, and the 
effectiveness of seminar instruction. They are also encouraged to 
provide comments on any aspect of the course that has added to or 
distracted from their learning. Each faculty seminar leader receives an 
electronic report of feedback from his/her seminar, while the Course 
Director is given immediate access to feedback from all seminars. The 
Director of IR and Assessment analyzes the surveys for trends and 
specific strengths and weaknesses and publishes a summary report. This 
report, along with all of the narrative comments, is provided to 
leadership for use in curriculum review and revision and is made 
available to faculty and students via the ``Assessment'' site on the 
NWC Intranet. A similar process is followed at the close of both fall 
and spring elective courses. At the end of the year, students complete 
a final survey in which they focus on the program as a whole and its 
contribution to their achievement of the broader program outcomes. In 
AY 2009, our survey response rate was 90% or greater for each of our 
core courses and 95% for the end-of-year survey, giving us a very 
reliable picture of student opinion.
    The National War College conducts biennial surveys of graduates and 
their supervisors. Every two years, two classes are surveyed, one in 
their first post-graduation assignment and one in their second 
assignment. In October 2009, for example, we will survey the Class of 
2005 and the Class of 2008. At the same time that we send surveys to 
our graduates, we ask them to provide a survey to their first-line 
supervisor. In addition, every three years, we request feedback from 
our senior stakeholders on the relevance of our outcomes and on areas 
that they think require additional emphasis in the education of 
strategists. The next senior leader survey, which takes the form of a 
letter from our Commandant, is scheduled for spring AY 2010.
    The results of these surveys have provided us with feedback to use 
both for curriculum validation and renewal. The graduate survey items 
focus primarily on student perceptions of their achievement of the NWC 
curriculum outcomes, the contributions of the program to their ability 
to work in joint, interagency and international environments; any 
perceived gaps in their learning, and recommendations for program 
improvements. As we are looking for ways in which we can continue to 
connect with our graduates, we also ask them what we can provide to 
help them stay engaged with strategic issues post-graduation. Survey 
results are shared widely with leadership, the curriculum committee and 
the faculty at large. In addition, a summary is provided to survey 
respondents in appreciation for their contribution to our program.
    Securing graduate and supervisor feedback has become more of a 
challenge in recent years and response rates have declined. Graduates 
have informed us that, because of the demands for accountability, they 
receive surveys from every educational institution that they have 
attended, both military and civilian. As a result ``survey fatigue'' 
has been an issue. Deployments of more recent graduates have also been 
a factor in this decline. Despite these challenges, however, we 
recognize that feedback from graduates is an essential component of our 
curriculum evaluation process. Consequently, while we will continue 
with our formal surveys, we are investigating other avenues by which we 
can engage graduates and supervisors. In AY 2010, we plan to pilot 
focus groups that will enable us to investigate specific aspects of our 
program. We have also developed a database on all NWC graduates who are 
in active flag officer positions as well as current ambassadors and 
plan to reach out to them as another means of securing feedback on the 
long-term value of our program. Finally, we have been fortunate to have 
a very active and supportive alumni association that forwards us 
anecdotal feedback that they receive from graduates.
    Admiral Hall. Feedback is essential to making informed decisions on 
change and growth as an educational institution. At the Industrial 
College of the Armed Forces, we continually solicit feedback from our 
students, graduates and graduates' supervisors.
    During the academic year, we ask our students to fill out web-based 
surveys at the end of each course they complete. We also ask them to 
complete a survey at the end of the year covering their overall 
academic experience. Topics of the survey include how well the faculty 
accomplish course objectives, the usefulness of readings, how 
instruction can be improved to enhance learning, and how well the 
student believes the overall course of study meets his/her long-term 
professional needs as a senior leader.
    We also conduct a web-based survey with our graduates both one year 
and three years after they graduate. The graduates are asked a myriad 
of questions, to include if they think ICAF covers the right subjects, 
which subjects should be added to the curriculum, and what knowledge, 
skills and abilities they think military officers and senior government 
officials will need the most in the next 10-15 years.
    In conjunction with our graduate surveys, we also solicit input 
from graduates' supervisors. We ask supervisors if they think our 
graduates are prepared for senior level responsibilities, for joint and 
interagency and international assignments.
    Dr. Snyder. Should the OSD Chancellors office be reestablished? Why 
or Why not?
    General Steel. No it should not, at least not for the PME system. 
The Service and joint PME schools already receive significant direct 
policy guidance from either their parent Service headquarters or from 
the NDU headquarters. Centralized coordination of the entire PME 
system, as well as of each individual PME school, is provided by the 
CJCS via CJCSI 1800.01C, Officer Professional Military Education Policy 
(OPMEP), and via the J-7 Joint Education and Doctrine Division. This 
centralized coordination includes a rigorous Joint Staff-managed 
accreditation evaluation of each PME school every six years. Adding 
another layer of bureaucracy would be redundant and burdensome, 
especially when you consider that quality education, as a largely 
creative enterprise, flourishes best when given as much autonomy as 
possible within broad, general guidelines. Piling up layers or degrees 
of bureaucracy crimps the innovation and artistry that are at the heart 
of the highest quality educational programs.
    Admiral Hall. The OSD Chancellors office is not necessary for the 
senior school JPME system. CJCS, the Director of the Joint Staff, and 
J-7 provide more than adequate oversight and quality control of the 
senior school JPME system through the OPMEP, the PAJE, the MECC, and 
the MECC Working Group. An OSD Chancellors office may have value for 
coordination and quality control over other DOD civilian education and 
professional development activities to ensure that appropriate 
standards of academic quality and cost-effectiveness are met, but it 
would provide only an additional bureaucratic layer and no unique 
contribution for senior school JPME.
    Dr. Snyder. Ethics--what should be the role of ethical education at 
the senior schools beyond ``just war'' theory?
    General Steel. Strategy that ignores the ethical dimension is 
inherently weaker, as history continues to teach. Our early experience 
in Operation Iraqi Freedom is the latest example. In developing 
strategic thinkers, the National War College has a dual 
responsibility--both to help future strategists develop their own 
frameworks for dealing with the ethical dilemmas they invariably will 
confront and, in their transition from tactical to strategic roles, to 
give them the tools to shape ethical behavior across organizations. If 
``war amongst the people'' represents the future of warfare, as an 
influential modern theorist posits, then ethical considerations loom 
even larger. Toward that end, a number of didactic methods are 
employed. A recurring theme throughout the year in the six required 
core courses at the heart of the NWC curriculum is the essential role 
of leadership, especially in Courses One--``Introduction to Strategy,'' 
Two--``War and Statecraft,'' Three--``Diplomacy and Statecraft,'' 
Four--``The Domestic Context and National Security Decision-Making,'' 
and Six--``Applications in National Security Strategy.'' Through case 
studies, lectures, readings, and seminar discussions, students are 
exposed to dozens of key strategic leaders throughout history and the 
decisions that defined their legacies--both positive and negative. 
Ethics is often a factor. Exercises in the core course seminars provide 
the students with practical challenges they are required to confront--
many with ethical dilemmas. In Course Six, last year's students 
conducted an exercise on ``Instability, Uncertainty, and Nukes,'' where 
an incident of nuclear terrorism within the United States was a 
defining event. To help familiarize students with the historic and 
modern context of war and ethics, three separate topics are 
incorporated into Course Two: Just War Theory, The Rise of `Lawfare' in 
Modern Conflicts, and the Quranic Concept of War. Similarly, two topics 
which have ethics as a key sub-theme are contained in Course Four: 
Dissent Within Interagency Negotiations, and Civil Military 
Interactions. The Commandant's Lecture Series, a required six part 
series that incorporates readings along with six lectures by eminent 
practitioners, has as its theme ``Strategic Leadership and Ethics.'' 
Finally, NWC has embraced the Executive Assessment and Development 
Program as an important learning tool. EADP uses feedback from previous 
peers and subordinates to help students--supervised individually by 
faculty member--to improve their leadership skills. Ethics is one of 
the areas specifically addressed in the feedback.
    Admiral Hall. Ethics are the core of our profession. Unfortunately, 
some senior leaders make poor decisions in regard to personal, 
professional and organizational ethics. We have seen the devastating 
strategic effect this behavior has had on mission effectiveness and our 
national security. When I arrived as the Commandant, I enhanced the 
existing ethics program at ICAF and established ethics as an area of 
special emphasis to be woven throughout the curriculum, not as a 
separate and distinct subject of study. The faculty has successfully 
integrated ethics into their course lessons and lectures and prepared 
our graduates to include an assessment of ``What is the ethical 
dimension we are dealing with?'' as a factor in addressing personal, 
professional, and organizational issues. During the academic year, ICAF 
schedules one day in each term to discuss the subject of ethics. In the 
fall, we have a panel of speakers and special seminar sessions to 
discuss ethics in national security affairs. In the spring, we focus 
the panel and seminar sessions on ethics involved in government-
industry relationships.
    Dr. Snyder. Should each school have a Board of Visitors or 
Consultants, separate from your University's, so it could focus just on 
your mission?
    General Steel. From the beginning of the College in 1946, NWC had a 
``board of consultants'' who were originally picked by Admiral Hill, 
our first Commandant, to assist him in the preparation of the 
curriculum and the selection of faculty. The Board, over the years, 
included distinguished four stars and ambassadors, chiefs of service, 
university presidents, distinguished scholars, and foreign policy 
leaders, from Omar Bradley to Bernard Brodie, to the President of the 
University of California system to Father Ted Hesburg from Notre Dame. 
The Board was an active participant in the College's program. They had 
periodic sessions at the College, would sit in classes, review the 
course work, consult with the Commandant and generally give feedback to 
the school on its overall operation. They also attended to the 
College's needs. The Board's work is mentioned in each of the annual 
reports of the College until the establishment of the National Defense 
University. At that time the NWC Board was terminated. I do think we 
need our own board of consultants or oversight board. NDU's Board of 
Visitors (BOV) is focused upon the bigger NDU strategic issues and 
pretty much disconnected from the components' specific requirements and 
needs. The NDU Board of Visitors has plenty to do just regarding NDU 
issues, subsequently, with the large growth of NDU, the effectiveness 
of the NDU BOV has been diluted somewhat when it comes to the specific 
components. NWC needs a board of consultants who know our mission, our 
challenges and who have been to NWC and can support the school in the 
same manner it did when it was first established. This is not to 
suggest that the NDU BOV is not needed. I would see value in the 
collaborative efforts of an NDU BOV and an NWC board of consultants.
    Admiral Hall. Although ICAF does not have its own Board of 
Visitors, we do have a significant number of distinguished visitors 
that are authorities in the field of national defense, academia, 
business, national security affairs, and the defense industry. Through 
these visits and our robust outreach program, the College receives a 
lot of advice and recommendations on the mission and curricula, similar 
to the inputs a Board of Visitors provides.
    Dr. Snyder. What is being done to allow students sufficient 
discretionary time for study and reflection, given that the PAJE study 
noted that it was being squeezed out by an increase in extra-curricular 
requirements such as attendance at university-sponsored lectures?
    Admiral Hall. Since the PAJE visit NDU has adopted a system of one 
university sponsored lecture (now called the Distinguished Lecture 
Program) per week. Likewise, ICAF also sponsors only one college-wide 
lecture per week, called the Commandant's Lecture Series. ICAF believes 
that this maximum of two lectures per week by outside speakers is 
appropriate for exposing students to a wide range of senior government 
and private sector speakers who can share their perspectives on policy, 
national security issues, strategy, and resource issues with our 
student population of future strategic leaders. Students need to hear 
from current leaders, but should not spend too much time in passive 
learning situations.
    ICAF believes that rigor requires an appropriate balance of contact 
time and white space. Because ICAF has the unique mission of evaluating 
national security strategy (as do all the war colleges) and critically 
assessing its underlying resource component, it is keenly aware of the 
need to balance adequate contact time with white space to read, 
reflect, conceptualize, and strategize. ICAF has just completed a two-
year restructuring of its academic course flow and the class of 2010 
will have seminar sessions or lecture each morning of the week, 
electives on Tuesday and/or Wednesday afternoons, and white space on 
most Monday, Thursday, and Friday afternoons. Productive use of white 
space requires some self-discipline by students, but I believe ICAF now 
provides a good balance and adequate time for reading, reflecting, 
conceptualizing, and strategizing.
    Dr. Snyder. Have the writing requirements been reviewed in response 
to the PAJE observation that faculty and students both considered them 
excessive?
    Admiral Hall. ICAF continually reviews its assessment program and 
balances the work load on students against the need for assessment and 
rigor. In order to ensure the ICAF program is rigorous in its ability 
to properly advance student learning with regard to strategy, strategic 
national security affairs, and the resource component of national 
security, each component of the ICAF program must involve some kind of 
assessment mechanism. Currently, ICAF predominantly uses 2 to 3 page or 
5 to 7 page papers for most of its writing requirements. ICAF uses 
paper assignments to assess the development of student skills in 
analysis, conceptualization, and argument and to determine whether 
students can produce complex, multi-issue papers that are coherent, 
well-organized, and well-argued. Moreover, ICAF believes that its paper 
writing program also prepares students to produce high quality, complex 
papers in a short period of time--something that frequently is common 
at senior levels in national security affairs. Rapid turn-around of 
issue analysis or policy recommendation papers for principals is the 
norm at the NSC, DOD, State Department, and within the intelligence 
community. ICAF has only ten months to prepare students for senior 
policy positions and its writing program both assesses student thinking 
and skills, and prepares them for operating effectively at senior 
levels.
    Nevertheless, as mentioned in the previous question about whether 
rigor requires increased contact time and less ``white space'' or vice 
versa, ICAF has just completed a two-year restructuring of its academic 
course flow. The better alignment of the calendar has produced 
increased convergence of due dates for course papers. The college is 
establishing a faculty study committee to review our assessment 
mechanisms (especially the number and length of papers and their due 
dates), explore alternative means for quality assessment, and make 
recommendations to ensure that ICAF uses high quality assessment 
instruments while not overloading the students with writing 
requirements and diminishing student white space study time.
    Dr. Snyder. The renewal of civilian faculty contracts were 
characterized by a lack of ``timeliness.'' How has this been corrected?
    General Steel. This comment was tied directly to the formal process 
of submission through the NDU Human Resources Directorate (HRD), the 
NDU Chain of Command, and the Defense Finance and Accounting Service. 
There was a continuous stream of significant turnover so the learning 
curve for those in the processing chain delayed the submissions.
    There has been some improvement, however, HRD is still experiencing 
a significant turnover of personnel, and it is extremely short handed 
in key positions such as the Director of HRD which has been vacant for 
over a year, and the lack of a trained Title 10 expert, the last who 
departed some months ago. Vice Admiral Rondeau, the new NDU President, 
has initiated the hiring process for a new HRD Director effective July 
22, 2009.
    Dr. Snyder. The terms ``training'' and ``education'' seem to be 
used interchangeably quite a bit. Can you tell me how you define the 
difference and what part of your curriculum is training and which part 
is education?
    Admiral Wisecup. There is clearly a difference between training and 
education and they should not be used interchangeably. The American 
Heritage Dictionary defines training as ``the process or routine of 
making someone proficient with specialized instruction and practice.'' 
Education is defined as ``the act or process of developing innate 
capacities especially by schooling or instruction.'' A more PME-related 
distinction, written by Dr. David Trettler of National War College, 
appears in Enclosure A of the Officer Professional Military Education 
Policy (CJCSI 1800.01C). It describes education as: ``in its broadest 
conception, education conveys general bodies of knowledge and develops 
habits of mind applicable to the broad spectrum of endeavors. At its 
highest levels and purest forms, education fosters breadth of view, 
diverse perspectives and critical analysis, abstract reasoning, comfort 
with ambiguity and uncertainty, innovative thinking, particularly with 
respect to complex, non-linear problems. This contrasts with training 
which focuses on the instruction of personnel to enhance the capacity 
to perform specific functions and tasks.''
    At the Naval War College our senior course curriculum is education. 
What very little training that takes place within the course of 
instruction facilitates student activity and products in our several 
capstone exercises. For example, the capstone wargame exercise for the 
Joint Military Operations course requires the students to operate as 
joint force staff members in boards and cells in a networked 
environment. A half day of training is required to familiarize them 
with the supporting computer network, the electronic systems, web 
pages, etc.
    Dr. Snyder. The 1989 Skelton Panel Report said all the Commandants 
and Presidents should teach so that they would understand what it takes 
to be a faculty member. Can you describe a typical faculty member's 
day? Do you yourself teach or mentor individual students? a. Unlike 
civilian university professors who emphasize research, your faculty 
members generally do not have teaching assistants, research assistants, 
or set office hours. When do they have time for service, research, and 
writing? How much research and writing do you expect them to do outside 
the sabbatical windows? How is this assessed on their appraisals, 
military and civilian?
    Admiral Wisecup. Since the 1989 Skelton Report, the Naval War 
College has reorganized its leadership model, converting the Dean of 
Academics to a civilian position and adding a Provost, who effectively 
is the College's Chief Operating Officer and the Dean of Faculty. All 
of the four Provosts have had teaching experience as faculty members 
and academic administrators. Each of the Deans of Academics has had 
extensive experience as a faculty member in professional military 
education and civilian universities or colleges. These organizational 
changes were designed to strengthen the faculty perspective within the 
College's senior leadership.
    The Deans of Academics have maintained an active role in the 
classroom, most often by teaching elective courses. The Provosts have 
also participated in the Electives Program and occasionally the core 
academic program, usually augmenting a full-time faculty member. The 
current President also occasionally participates in the Electives 
program as a guest speaker, as did his predecessor. The President, 
Provost, and Dean of Academics regularly visit classrooms to observe 
and actively participate in seminar discussions. Likewise, they 
routinely meet with faculty members to exchange perspectives and remain 
attuned to the faculty's challenges. The College's leadership team 
remains deeply committed to the quality of education at the Naval War 
College and fully understands the College's center of gravity is its 
faculty. In the aggregate, these actions, we believe, have accomplished 
the intent of this recommendation of the 1989 Skelton Panel.
    The Naval War College developed an academic rhythm, distinct among 
the PME schools and colleges, suited to its paradigm of a single 
faculty teaching both the intermediate and senior level courses. First, 
we adopted a quarter-like system and teach three extended quarters, 
which we call trimesters, annually. Second, we developed three core 
academic departments, each with sufficient faculty to design, prepare 
and teach the curricula for its particular department. Faculty in each 
department then teaches the core academic program for two of the three 
trimesters. For that teaching trimester, a faculty member typically 
spends approximately four morning hours daily in the classroom with 
students. The afternoon is spent in tutorials, mentoring students, 
preparing for class, doing limited research, curriculum review, or 
maintaining currency in their specialty. During the third trimester and 
the six-week summer period, faculty members have more opportunity to 
conduct research and write, develop curricula, and pursue faculty 
development.
    As stated in our Faculty Handbook, ``The Naval War College expects 
all civilian faculty members whose duties are not primarily 
administrative to engage in professional research and exhibit a 
sustained commitment to scholarship. It expects most of them to publish 
at least some of the results of their research. Military members are 
not expected to publish, but are encouraged to do so in their areas of 
expertise.'' For civilian professors teaching in the three core 
academic departments, there are common elements in every faculty 
members' performance appraisal: teaching performance, curriculum 
development, research and publication, and service to the College's 
larger mission. Individual faculty members meet with their departmental 
Chairs and establish personal plans annually to develop more specific 
criteria for those common areas and any distinct areas relevant to that 
professor's performance. Additionally, the Faculty Handbook established 
criteria for consideration for promotion to the ranks of Associate 
Professor and Professor which include research and publication 
expectations. Thus, their annual appraisals, their potential for 
promotion, and ultimately their reappointment rest, in part, on their 
productive scholarship. Military faculty members are expected to 
research and contribute to curricula development and are judged in 
their appraisals accordingly. A list of faculty publications in the 
last year illustrates that the College faculty is highly productive in 
research and publication.
    Dr. Snyder. Does having a master's degree program at these schools 
detract from the PME mission, not from the standpoint of it being easy 
to accredit existing programs, but that it may tip the focus toward the 
academic instead of professional education?
    Admiral Wisecup. The Naval War College sought to grant the masters 
degree in order to get its students to focus on their PME studies. 
Twenty years ago, over 70% of our student body simultaneously pursued a 
master's degree in a local college or university, using transferred 
credit hours from the NWC course of instruction to form the foundation 
for its graduate requirements. These night courses clearly competed for 
the students' academic attention. To rectify this problem, the College 
asked the New England Association of Schools and Colleges to assess our 
educational program to see if it qualified for accreditation for a 
master's degree.
    The Naval War College changed nothing in its educational routine to 
qualify itself for this degree. The regional civilian educators 
determined the academic program was sufficiently comprehensive and 
contained sufficient rigor to meet accreditation standards. The 
regional authority clearly recognized this College as a professional 
school with an academic program tailored to the military or defense 
professional. Curriculum content, student assessment, faculty 
qualifications, and our business and academic support processes all met 
their standards.
    Since the College has begun to award master's degrees, less than 1% 
of our U.S. graduates have pursued simultaneous degrees with local 
colleges or universities. We now have our students' full academic 
attention on their PME studies.
    There have been several key benefits to the institution and its 
faculty which accompanied regional accreditation. For the faculty 
members, teaching in an accredited, graduate degree college has 
strengthened their credentials. For the College, it has provided 
stature and facilitated inter-institutional dialogue and activities as 
well as enabling us to attract top-notch faculty members. For the 
College and the Navy, it has provided an external review to ensure our 
academic programs and institutional practices meet common standards 
within the educational community.
    Granting of a master's degree has strengthened our PME mission. An 
external authority ensures we continue to meet educational standards 
which ensures our students receive a bonafide graduate education and 
their parent Service (Army, Navy, Marine, Air Force, Coast Guard, etc.) 
gets back an officer grounded in both academic and professional 
military education capable of strategically minded critical thinking 
and excelling in positions of strategic leadership. Those officers also 
possess a credential recognized by their civilian counterparts in the 
interagency.
    Dr. Snyder. Do all of your students receive master's degrees--why 
or why not? What does top quality in uniformed faculty mean to you? 
Please be specific, is it more important to have an advanced degree in 
specific areas like international relations, political science, a 
regional study, or military or political history than it is to have a 
PhD in any subject even if that was in math or engineering?
    Admiral Wisecup. Only our U.S. students are eligible for the 
master's degree. Nearly all of them earn it; a few senior-level 
students over the years have not met the grading standards and have 
instead received a NWC diploma instead of a degree. Students must earn 
a final grade of B- or above in each core course (or an approved 
advanced research program in lieu of one of the core courses), and who 
pass three elective courses, to be awarded the Naval War College Master 
of Arts degree in National Security and Strategic Studies and the 
appropriate JPME certification. Resident students from the CNW and the 
CNC&S who complete the three core courses (or an approved advanced 
research program in lieu of one of the core courses), with an overall 
average grade of B- or better and not more than one course grade in the 
``C'' category, and who pass three elective courses are eligible for 
the NWC diploma and the appropriate JPME certification.
    International officers from the Naval Command College and Naval 
Staff College are excluded from the master's degree program. The 
Department of Education and the Congress authorized granting of the 
degree only to U.S. students. The College has a partnership with a 
local university which resulted in a program available to these 
international officers to get a master's degree by doing some 
additional research and class work.
    For uniformed faculty, we expect expertise in their area of 
specialty (i.e. submarines, infantry, surface ships, aviation. 
logistics, etc.). We seek officers who have commanded as commanders or 
lieutenant colonels or held equivalent positions in the restricted line 
or staff communities and prefer officers who have also commanded as a 
captain or a colonel. We seek combat experience or operational 
experience in the recent conflicts in Iraq and Afghanistan. We seek 
experience at the strategic or operational levels. We expect them to be 
intermediate-level school graduates with JPME Phase I and expect most 
of them to also be senior-level graduates. We seek officers with joint 
experience, preferably Joint Qualified Officers. For civilian 
education, we expect them to possess a master's degree at a minimum. 
Although a majority of our faculty have advanced degrees in 
international relations, history, political science, or military or 
political history, the discipline is not as important as their teaching 
ability. Our faculty has advanced degrees in a variety of disciplines 
and this diversity adds to the richness of our education.
    Dr. Snyder. What does ``top quality'' mean for civilian faculty? 
Please be specific. a. Does not having tenure affect how professors 
treat ``academic freedom''?
    Admiral Wisecup. As stated in our Faculty Handbook, ``The Naval War 
College expects all civilian faculty members whose primary duties are 
not primarily administrative to engage in professional research and 
exhibit a sustained commitment to scholarship. It expects most of them 
to publish at least some of the results of their research. Military 
members are not expected to publish, but are encouraged to do so in 
their areas of expertise.'' For civilian professors teaching in the 
three core academic departments, there are common elements in every 
faculty members' performance appraisal; teaching performance, 
curriculum development, research and publication, and service to the 
College's larger mission. Individual faculty members meet with their 
departmental Chairs and establish personal plans annually to develop 
more specific criteria for those common areas and any distinct areas 
relevant to the professor's performance. Additionally, the Faculty 
Handbook established criteria for consideration for promotion to the 
ranks of Associate Professor and Professor which includes research and 
publication expectations. Thus, their annual appraisals, their 
potential for promotion, and ultimately their reappointment rest, in 
part on their productive scholarship. Military faculty members are 
expected to research and contribute to curricula development and are 
judged in their appraisals accordingly.
    Civilian faculty members in the rank of associate professor can 
have a successful career at the Naval War College. When the College 
revised its published criteria for assignment of civilian professorial 
ranks and the criteria for promotion and published it in the Faculty 
Handbook, we publicly identified our key indicators of top quality. 
They are the specific criteria for promotion to the rank of professor. 
The criteria are ``excellence in teaching or research, not simply a 
satisfactory level of performance; significant contributions to either 
the NWC's educational mission or NWC's research, analysis, and gaming 
function; active engagement and visibility in the faculty members 
academic or professional community; significant productivity in 
scholarly publication or professional research; a consistent commitment 
in the faculty member's teaching and/or research, analysis, and gaming 
to fostering critical thinking from a joint perspective and cultivating 
the ability of students/officers to function effectively in a joint, 
interagency, and multinational environment; a demonstrated commitment 
to teamwork with other faculty members across the departments and codes 
of the Naval War College, and the ability to develop or advance new 
ideas that enhance the effectiveness and efficiency of both the faculty 
members department and the college as a whole.''
    The practice of academic freedom by faculty members at the Naval 
War College is robust. While the Congress, the Chairman of the Joint 
Chiefs of Staff, combatant commanders, and CNO are rightfully involved 
in professional military education policy and engaged in determining 
professional educational standards, the College's executive leadership 
has been successful in preserving the autonomy of the College and its 
faculty in deciding what to teach and how to teach it. Faculty members 
are allowed great scope for experimenting with different teaching 
methods and for expressing different points of view in the classroom. 
Aside from projects assigned to researchers in the Center for Naval 
Warfare Studies, faculty members have been free to choose the subjects 
of their research and writing. Hardly a week passes without Naval War 
College professors publicly expressing opinions and offering expertise 
on current political and military issues in a wide variety of mass 
media--television, radio, newspapers, magazines, and journalistic 
websites. The College prides itself on respect for academic freedom; at 
the same time, the idea that the exercise of academic freedom should be 
informed in practice by a sense of responsibility is widely accepted 
among faculty members dealing with issues of great national and 
international importance.
    Dr. Snyder. Since you don't have tenure, what is the process for 
renewal and non-renewal of the civilian faculty? How transparent is the 
system? Do professors know six months before they are up for renewal 
whether they will be renewed, for how long, and why? In a tenure system 
people think the faculty members have all the power, in a no-tenure 
system it appears that the school has unlimited power. How do you avoid 
the extremes and appearances of arbitrariness? How many of your 
civilian faculty don't have PhDs or JDs? Be specific about what degrees 
they do have and why they were hired.
    Admiral Wisecup. The process of retaining faculty is an open, 
orderly and fair one. Though the College does not employ a system of 
tenure and has no intention of doing so, it accords its faculty 
reasonable contractual security consistent with the College's mission. 
The College continues to sustain its quality standard for faculty. As a 
practice, the College renews contracts as early as 364 days in advance 
prior to their expiration. All faculty members are notified at least 
six months prior to the expiration of their contract. As highlighted in 
the Faculty Handbook, in all but extraordinary circumstances, 
notification of non-reappointment will be given by 1 December prior to 
the expiration of the contractual term.
    Faculty members with more than six years of continuous employment 
at the Naval War College have the right to request a peer review of 
their non-reappointment. (Six years is the typical length of time it 
takes to make tenure at a civilian university.) A Non-Reappointment 
Review Committee will be appointed to consider their appeal. This 
process is delineated in the Faculty Handbook. There has only been one 
request for peer review of a non-reappointment since the original 
Skelton Report was published in 1989. Non-reappointment of faculty who 
have served more than six years is unusual.
    The College's unique paradigm that one faculty teaches both the 
intermediate and senior level PME course influences our hiring 
practices for the civilian faculty. Terminal academic degrees are 
significant. However, professional expertise and experience can be 
substituted for a terminal academic degree.
    As a matter of practice, the Strategy & Policy Department demands 
that all civilian faculty members hold terminal academic degrees. The 
twenty-two civilian faculty members in the department all hold terminal 
academic degrees and are acknowledged experts in history, political 
science, or international relations. All come from prestigious 
universities or institutes.
    The civilian faculty members in the National Security Decision 
Making (NSDM) Department all have a specialty which relates to NSDM 
curricula and are proven experts in their respective field of endeavor. 
Currently, all NSDM civilian faculty members hold, at a minimum, a 
masters degree, while over seventy-four percent (23 of 31 faculty 
members) hold terminal degrees. Of the eight faculty members without 
terminal academic degrees, six are military retirees with professional 
experience relevant to the NSDM courses and one is a civilian professor 
who has completed her doctoral classes and is completing the required 
dissertation. The final civilian faculty member is not a Title 10 
professor, but rather a representative from the State Department, a 
Foreign Service officer with extensive diplomatic experience overseas.
    In the Joint Military Operations (JMO) Department, civilian faculty 
members all have a specialty which relates to JMO curricula and 
complements the expertise of the military faculty. Twenty-one of the 
twenty-four civilian professors are retired military officers. All have 
significant and diverse military or military related backgrounds which 
incorporate a broad range of tactical, operational, and joint duty 
experience into the overall skills base of JMO. All civilian faculty 
members have a minimum of a M.A./M.S. and fifty-four percent (13 of 24) 
hold a J.D./PhD or are PhD candidates. Sixty-six percent (16 of 24) 
hold multiple advanced degrees. Seventy-nine percent (19 of 24) were 
JPME Phase I or II qualified while on active duty and twenty-five 
percent (6 of 24) were JSO equivalents while on active duty. There is 
significant previous joint duty experience among the civilian faculty.
    Dr. Snyder. Some of you have indicated that you wish to hire 
``younger'' PhDs--Do you think they may need a bit of seasoning or 
practical experience to be able to hold their own with the caliber and 
seniority of students you have? Does it mean you have to push out 
``older professors'' who may be performing well in order to bring on 
younger ones?
    Admiral Wisecup. The Naval War College has had good success in 
hiring ``younger Ph.D.s.'' About six years ago, the College identified 
the ``graying'' of the faculty as a concern. Accordingly, policies were 
put in place to clearly establish uniform criteria for academic ranks 
including hiring and promotion of civilian faculty. The College's core 
academic faculty was still growing to meet its enlarging student 
population, providing an opportunity to hire new faculty members from 
across the academic ranks including Assistant Professors, a virtually 
unused, academic rank previously. The College networked with key 
national security or international security Ph.D. programs to identify 
noteworthy young scholars. The departmental faculty approached the 
hiring of younger scholars with great care, fully realizing the caliber 
and seniority of our students. Each of our younger faculty members 
possesses key expertise in areas where the faculty determined we needed 
strengthening and each was required to demonstrate teaching prowess in 
the seminar setting as an integral element of the hiring process.
    The results have been most positive, especially in the departments 
that teach with a faculty team. These younger PhDs were paired with an 
experienced military faculty member during their first teaching year. 
Clearly, the senior military faculty member eased the concern about 
youth, experience and credibility with both our intermediate and senior 
students. Civilian faculty mentors also helped to transition these 
young scholars into the College's educational model. Faculty workshops 
ensured they were fully prepared for seminar discussions. In the 
department without team teaching, additional measures were taken to 
ensure a smooth transition to the classroom.
    We did not push out ``older professors'' in order to bring on the 
younger ones. First, these stalwarts are the foundation of our 
educational success. Additionally, they provide continuity to the 
institution. Second, we were in a growing phase for the faculty and 
hired a mix of younger scholars and more seasoned scholars. By doing 
so, we have improved the institution and addressed in part our concern 
about the ``graying'' of the faculty.
    Dr. Snyder. National and ICAF have 1/3, 1/3, 1/3 faculty and 
student mixes while the Service schools have a 60% host and 40% other 
mix. Are the faculty and student mixes dictated for the various 
institutions still appropriate? If so, was it appropriate for Congress 
to allow the Service senior schools to award JPME II credit (NDAA FY 
2005) despite their lower ratios, non-neutral ground, and lack of a 
requirement to send any graduates to joint assignments? ICAF and 
National must send ``50% plus one'' graduates to joint assignments. Is 
this still appropriate? Should Service schools have some kind of 
requirement?
    Admiral Wisecup. A lot has happened to change the environment since 
the 1989 Skelton Report. Congress has even redefined the term ``joint 
matters.'' Those changes in the international security environment 
affected the way the Services operate for the last two decades. As a 
result Service cultures have matured. ``Jointness'' is not a foreign 
word to today's midcareer military professional as it was for most 
officers in 1989. Clearly, joint acculturation is one of the key 
educational outcomes for senior Service Colleges, but today that means 
not simply multi-service, but something far closer to the revised 
definition of joint matters. For today's students, the mix of 
international partners and interagency representatives is as important 
as the joint acculturation process. If there were to be any revision in 
the mix requirement, it should clearly be expanded to include multi-
agency and multi-national representation as well. Using an expanded 
formula, the student mix for last academic year for the College of 
Naval Warfare was 39% U.S. Navy and 9% U.S. Marine Corps with 18% 
international partners, 14% U.S. Army, 10% Federal Civilians, and 9% 
U.S. Air Force.
    We work hard to ensure that our students all get a first-class 
graduate education in national security, albeit with a maritime 
perspective. We regard the concept of ``non-neutral ground'' as an 
outdated construct, especially as we increase the numbers of 
interagency and international students.
    The faculty and student mixes at the Service senior schools are 
appropriate for multi-service acculturation; as indicated by the data 
from our graduates over the last three years. Data from alumni surveys 
reinforce this conclusion. The current mix is sufficient and allows the 
Naval War College to continue to perform its Service PME mission and 
ensure that its graduates are well steeped in the contemporary 
challenges relevant to the maritime domain. Our graduates are ready to 
serve on the staffs of a Joint Force Maritime Component Commander or 
Maritime Operations Center. The expertise and functioning of such 
commands are critical to our continued success in the joint warfight.
    Dr. Snyder. What constitutes rigor in your educational program? 
Does rigor require letter grades? Does rigor require written exams? 
Does rigor require the writing of research or analytical papers, and if 
so, of what length? Does rigor require increased contact time and less 
``white space'' or vice versa?
    Admiral Wisecup. RADM Kurth, in his testimony to the Skelton 
Committee, said ``what education ultimately contributes to a successful 
military commander and strategist is a habit of mind and judgment . . 
.'' The educational process at the Naval War College is designed to 
hone the critical thinking skills of its students at every level. 
Developing habits of mind requires a challenging academic program, one 
that forces students to reevaluate their personal decision making 
models, often refocus their perspective, and assess their own 
analytical approach. They must repeatedly be forced to think and 
required to attempt to resolve complex problems.
    The Naval War College's education program begins by expanding the 
student's experience and knowledge through a demanding reading and 
study program. Students must then analyze and judge the reading 
material and present their assessment and conclusions. By relying 
predominantly on the case study method and graduate-level seminars, the 
College is able to repeatedly challenge the students' habits of mind. 
The seminar interaction forces the students to present and defend their 
analyses and conclusions. Over the course of ten months, there is ample 
opportunity to develop expanded habits of mind and refine one's 
judgment.
    The College recognizes our students are competitive, self-
motivated, mature professionals who possess the discipline and desire 
to apply themselves to these studies. In fact, the work we see from the 
students in the elective program which is graded on a pass or fail 
basis is equivalent to that in the core program where they receive 
letter grades. But we steadfastly believe grading, writing research 
(14-18 pages each) and analytical papers (10-14 pages each), and 
written exams are integral elements of our academic program. These 
exercises complement the daily seminar interaction and force students 
to integrate the learning into their approach to thinking and decision 
making. Grading is another form of teaching which the College's faculty 
takes very seriously, providing significant feedback on each student's 
work. For most of the year, we also grade the students' contribution to 
the graduate-level seminar.
    Over the decades, the faculty has concluded the students must have 
sufficient time to read, study and reflect as well as conduct research. 
Except for the scheduled periods of capstone exercises, the College has 
found a typical week of 15-18 hours contact time with the remainder 
reserved for student study, preparation, and writing is best.
    Dr. Snyder. Can you describe how you survey students, graduates, 
and graduates' supervisors to assess the quality of your program?
    Admiral Wisecup. Short-term assessment of the curricula by the 
students has been a long-standing practice of the College. It has 
evolved into a continuous, systematic, and comprehensive evaluation 
program that provides students, graduates, and senior military leaders 
the means to stimulate significant curriculum revisions. We survey 
students throughout the academic year at different points. These are 
the elements of our survey system:
    Explicit assessments of the curriculum are routinely provided by 
all students through questionnaires. These include individual-session 
or curriculum-block questionnaires completed by students at the 
conclusion of each seminar to evaluate class utility and materials. 
Such critiques provide immediate feedback to the faculty responsible 
for each session's development as well as a continuous indication of 
the success of the course. A comprehensive end-of-course questionnaire 
is employed by all academic departments, the Electives Program, the 
Advanced Research Program, special programs (such as the Stockdale 
Group, Mahan Scholars and the Halsey Groups), and College of Distance 
Education to solicit feedback from students.
    These electronic questionnaires ask students to evaluate a broad 
range of issues related to the curriculum and its execution. The 
students provide a numerical assessment as well as a qualitative one 
through their amplifying comments. Questions address the 
appropriateness of course objectives, the degree of attainment of these 
objectives, the difficulty of the course, the quality of instructor 
performance, and the perceived potential value of the course. The 
anonymous responses are compiled into both statistical and narrative 
summaries, which are reviewed by the faculty and analyzed and 
interpreted by the departments. Periodically, support elements 
throughout the College, such as the Library, administer a survey to 
students and faculty regarding their services. The results are 
presented to the Academic Policy Board, the Provost and President of 
the College.
    Student assessment of the curriculum and operation of the College 
is also provided through the student academic committees. These 
committees bring student representatives from each seminar into contact 
with the Deans of Academics, Students, and Naval Warfare Studies, with 
academic department chairs, course directors, the Associate Dean of 
Academics for Electives and Directed Research, service advisors, the 
Director of the Eccles Library, and an Information Resources Department 
representative. Meeting at least twice each trimester, these committees 
ensure that students and administrative problems are addressed 
immediately or referred to appropriate planning bodies.
    Students have informal opportunities to express opinions on the 
College and its programs to peers, instructors, department chairs, the 
Provost, and even the President. Student leaders periodically meet with 
Dean of Students and Provost, often to exchange views on the academic 
or co-curricular programs. The President and other senior leaders 
occasionally travel with officers in the international programs and use 
the opportunity to obtain qualitative feedback about the College.
    For past several years, the College has administered a survey to 
its resident U.S. students as they graduate. The success of this survey 
led to similar survey instruments being developed and administered for 
graduating senior international officers and graduating Fleet Seminar 
students. During the last academic year, the College began regularly 
conducting focus groups with selected members of the graduating 
classes. The focus groups provide valuable insights not received in the 
electronic surveys. All of these surveys solicit information from these 
graduating students regarding the overall effect of their educational 
experience, including their judgments about the quality and utility of 
the instruction and the degree that certain educational outcomes were 
achieved. Survey analysis and results are provided to the members of 
the APC in order to inform educational policy making and contribute 
toward design of future academic programs and curricula.
    Periodic alumni surveys also provide useful data in judging the 
quality and utility of the education to the careers of professional 
graduates. Recently, the College surveyed alumni from the classes of 
2005, 2006, and 2007 from both CNW and CNC&S. There were approximately 
1700 alumni surveys distributed and 458 responses received for a 27% 
response rate. Specifically, alumni were asked to estimate the 
appropriateness of the educational objectives, the degree to which 
these objectives were attained, and the contribution each core course 
made in preparing them for future positions in the national security 
arena. They were also asked to suggest possible revisions to the 
academic and co-curricular programs to make them even more useful to 
future students. Results once analyzed will be provided to the APC and 
other concerned elements of the College. The President sent 
congratulatory letters and surveys to graduates that have recently been 
selected for promotion to flag/general officers during the past year. 
This is valuable feedback focused on the suitability and completeness 
of the desired educational outcomes provided by flag/general officers 
from all Services.
    Departmental faculty members routinely visit with key strategic and 
operational-level commanders and their staffs as an element of 
curricula currency and development. Those discussions invariably touch 
on the desired educational outcomes and objectives and the performance 
of our graduates. The continuing professional and personal 
relationships between faculty and alumni proved to be invaluable in 
validating the quality, relevance, and currency of the curriculum. 
Informally, these graduates provide unsolicited input on a continuing 
basis directly to the faculty concerning the value of curriculum 
material to their subsequent assignments and suggesting improvements in 
curriculum substance and pedagogy. Even more definitively, the return 
of graduates to teaching positions at the College greatly enhances the 
currency of the academic program. E-mail, while informal and anecdotal, 
has increased the volume of this feedback and its substantive value. 
Those in more senior positions even provided insights and requirements 
that affected new course design.
    Dr. Snyder. Should the OSD Chancellors office be reestablished? Why 
or Why not?
    Admiral Wisecup. The College's principal communication with the 
former OSD Chancellor's office was related to the MECC and the CJCS 
accreditation process (Process for Accreditation of Joint Education). 
The College has found the Joint Staff J-7 and the supporting MECC 
organization productive and sufficient. The special chain of command 
established by CJCS for policy and issues regarding professional 
military education including joint education has continued to serve the 
College, the Navy and the nation well. We are not convinced that 
reinventing a layer at OSD divorced from the PME community would serve 
us as well. Education is not one of the core competencies of the 
Department of Defense and without a direct supporting vehicle like the 
MECC, another layer of staff may create more issues than they resolve. 
However, the Joint Staff J-7 whose duties are much more intimately 
involved would be a better source for the comparison of the former 
office to the way OSD is organized to do business today.
    One of the current challenges for the Naval War College is dealing 
with the multiple sources of our federal service, civilian students. 
Articulating requirements, coordinating applications, often dealing 
individually with potential civilian students from many different 
sources is a time consuming, but necessary investment to ensure we have 
representation from the interagency arena and Department of Defense 
activities and agencies. Since interagency representation is a common 
challenge for the PME colleges, support from the OSD level might be 
helpful in making progress on student and faculty mixes.
    Dr. Snyder. Ethics--what should be the role of ethical education at 
the senior schools beyond ``just war'' theory?
    Admiral Wisecup. Just war theory is important at the SSC level 
because an understanding of the history and principles of just war 
augment and deepen the students' understanding of just war which is 
often limited to the Law of Armed Conflict (LOAC). LOAC alone is 
inadequate for the higher levels of command (for one reason) because 
law necessarily lags behind emerging technologies and threats. 
Therefore, the deeper understanding of the long history of just war 
gives the students categories for thinking in principled terms about 
such legal gray areas.
    In addition, ethical issues at the more senior levels of leadership 
are in some respects quite different than those familiar to officers 
from their lower ranking experiences. This is because the range of 
obligations multiply almost exponentially. One is no longer only 
concerned with one's personal integrity and the welfare of 
subordinates. At more senior ranks, one must also consider the welfare 
of one's Service, the success of the overall operational or strategic 
plan, the health of the relationship between the military and both the 
government it serves and the broader society it represents. As those 
obligations multiply and often conflict, the senior service colleges 
provide an invaluable ``safe'' environment in which senior leaders can 
explore and discuss how they might handle these morally complex and 
ambiguous environments. Typically, officers have a limited moral 
vocabulary (``maintain your integrity,'' ``tell the truth'') which is 
sometimes insufficiently nuanced to really help them think about these 
environments. By discussion of historical examples and case studies of 
moral decision making in such environments, officers are prepared (to 
the limited degree that any classroom can prepare one) to face and 
think clearly about the future environments in which they will find 
themselves.
    For decades, the College had an Ethics Conference as an integral 
element of the academic program. We have a professor designated as the 
Stockdale Chair of Ethics and Leadership to advise and improve our 
educational approach to ethics. In fact the College has just hired one 
of the country's most renowned scholars on military professional ethics 
as the new Stockdale Chair. For the last two years, we refined our 
approach and begin the academic year with an Ethics Conference which 
introduces that year's ethical theme and then follows with several 
other educational events throughout the year. This year there will also 
be an intersessional conference devoted to an ethics issue. 
Additionally, one of our Elective Program's areas of study is 
leadership and ethics.
    Dr. Snyder. Should each school have a Board of Visitors or 
Consultants, separate from your University's, so it could focus just on 
your mission?
    Admiral Wisecup. The Naval War College has traditionally had a 
Board of Advisors (BOA) who advised the President on issues related to 
the College's mission. Occasionally, the Board would also communicate 
with the Chief of Naval Operations concerning issues it deemed critical 
to the College and the Navy. That Board served only this College.
    Recently (27 May 2009), the Secretary of the Navy was directed by 
the OSD Committee Management Office to disestablish the NWC BOA, 
recommending it be consolidated with the Naval Postgraduate School 
Board of Advisors. The Naval War College is working through the AAUSN 
to achieve a satisfactory solution.
    Dr. Snyder. What has been done to improve the professional 
development opportunities for the faculty given that the PAJE noted 
that it compromised the college's ability to retain outstanding faculty 
members? Explain the Admiral's comment that he can afford tenure to 
some civilian faculty.
    Admiral Wisecup. The Naval War College initially identified this 
issue in our Self-Study for the College of Naval Warfare PAJE for JPME 
II Certification. The fielding of differentiated senior and 
intermediate courses during Academic Year 2006-07 required the faculty 
to be heavily engaged in curriculum development over the previous two 
years. As a result, there was less opportunity for professional 
development because of the increased demand on the faculty to build 
separate and distinct curricula. The significant curriculum development 
task and the initial certification of the revised College of Naval 
Warfare course with embedded JPME Phase II ended with the 2007 PAJE. 
After that, the College leadership made a conscious decision to devote 
significant resources to faculty development. The increase in faculty 
development over the next two years was so much so that it received 
favorable comments on the draft report from the most recent PAJE in May 
2009. The comment read ``Since the last PAJE visit, the CNW has 
dedicated significantly more financial resources to faculty 
development.'' The College has established a routine process for 
faculty to plan and seek NWC funding for professional development 
opportunities. The faculty can plan and schedule such opportunities on 
an annual basis.
    Faculty development at NWC promotes innovation, collaboration, 
collegiality, and the art of teaching. Overall, the Faculty Development 
Program is designed to enhance both the personal and professional 
education and development of seasoned faculty as well as bring new 
faculty members up to a common standard of instructor capabilities. The 
three pronged faculty development approach of orientation, faculty 
workshops, and individual development programs, coupled with the senior 
faculty mentoring and evaluation of teaching abilities, provides the 
students with an unparalleled level of experienced moderators who are 
aware of the latest changes in the contemporary international security 
and operations environment.
    The College, with the assistance of the Naval War College 
Foundation, has made a substantial effort to provide financial 
resources, through its annual budgeting process, for professional 
development, research, and scholarly publication. With over $600,000 
earmarked specifically for faculty development, a substantial number of 
faculty members have benefited from grants for travel to participate in 
professional conferences or conduct research. Additionally, some 
faculty members involved in the College's international outreach have 
funded travel which also provides opportunity for research and 
collaboration abroad.
    Although there is no tenure system at the Naval War College and 
none is under consideration, a very few senior professors have 
appointments without terms (indefinite appointments) which establishes 
eligibility to serve until retirement assuming that the faculty member 
continues to perform at or above the expected level as outlined in the 
Faculty Handbook. These indefinite appointments are awarded to 
professors/research professors who have long records of accomplishment 
that stand out even among the high achievements of others at that rank; 
that show promise of further high levels of performance, achievement, 
and service to the College; and whose expertise is expected to be 
needed for an extended period. While this is certainly not tenure, it 
is akin to it and is the program to which Rear Admiral Wisecup 
referred.
    Dr. Snyder. The terms ``training'' and ``education'' seem to be 
used interchangeably quite a bit. Can you tell me how you define the 
difference and what part of your curriculum is training and which part 
is education?
    General Williams. There are extensive (and oftentimes competing) 
bodies of knowledge on each subject. In simplest terms, training 
focuses on ``what to think,'' ``what should be done,'' and ``how it 
should be done.'' The focus is on the relatively short-term 
accumulation of practical application of information, usually within a 
fixed context of task, conditions, and standards, to enhance the 
capacity to perform specific functions and tasks. Problems are more or 
less straight forward, the circumstances of the issue are relatively 
well known and understood by the individual, and use of established 
procedures normally results in the one best solution to an issue.
    Education, on the other hand, focuses on ``how to think.'' 
Education provides a broad body of general knowledge and develops 
habits of mind applicable to a range of activities. Education fosters 
breadth of view, appreciation of diverse perspectives, critical 
analysis and abstract reasoning. In our context, at the strategic 
level, ``how to think'' usually concerns large, complex and 
unstructured problems for which there may be no fixed context of task, 
condition, and standards. Indeed, conditions are likely to be highly 
ambiguous and decision makers usually have less, not more, information 
on which to make decisions. Decisions at the strategic level rarely 
result in the one ``best'' solution. Rather, in this arena, decision 
makers may be faced with choosing the least bad alternative, and 
problems are more often managed, and sometimes not completely solved. 
These conditions require students to build upon old knowledge and 
experience to develop new knowledge that may be applied in new ways in 
a volatile, uncertain, complex, and ambiguous environment.
    Training and education are not mutually exclusive. Nearly all 
training and education opportunities offer some elements of both 
approaches. While the Army War College experience includes some 
training (e.g., specific processes used within DoD, or the set steps of 
the Crisis Action Process), students focus less on formats and 
processes, and more on the critical thinking and synthesis of theory, 
concept, and experience. Thus, while our students must master and 
retain specific information, our curriculum focuses on the synthesis of 
the multiple and multi-disciplinary skills necessary to ensure that 
processes and systems produce feasible, acceptable, and suitable policy 
options. This requires students to access their knowledge (as well as 
20+ years of professional experience), analyze large, complex 
situations, heuristically create new knowledge, and apply that new 
knowledge to creative policy options to national level decision makers.
    Dr. Snyder. The 1989 Skelton Panel Report said all the Commandants 
and Presidents should teach so that they would understand what it takes 
to be a faculty member. Can you describe a typical faculty member's 
day? Do you yourself teach or mentor individual students? a. Unlike 
civilian university professors who emphasize research, your faculty 
members generally do not have teaching assistants, research assistants, 
or set office hours. When do they have time for service, research, and 
writing? How much research and writing do you expect them to do outside 
the sabbatical windows? How is this assessed on their appraisals, 
military and civilian?
    General Williams. When teaching a core course, mornings are spent 
teaching in the seminar. After class, instructors counsel and advise 
students and review the day's lesson and prepare for upcoming lessons 
individually and with their colleagues. Faculty have limited time for 
research and writing.
    When not teaching core classes, instructors conduct research to 
support writing projects and curriculum development; prepare 
instructional materials; and participate in various work groups at the 
USAWC. They are frequently away from Carlisle Barracks supporting the 
operational and institutional force in the US and overseas and engaging 
in their communities of practice at conferences and workshops.
    Faculty are engaged full-time during the New York City and 
Washington, D.C. trips, the Strategic Decision Making Exercise, and the 
National Security Seminar.
    I attend classes regularly, both to observe students and faculty, 
as well as to provide the benefit of my experience and perspective. I 
occasionally lecture or facilitate instruction in a variety of our 
courses. My most recent lecture (April) was to three seminars on the 
ethical failure of Abu Ghraib and the limits of generalship.
    Our curriculum structure allows faculty time to research and write. 
When not in session, faculty can conduct research for curriculum 
development or publication. In addition to sabbaticals, we offer both 
temporal and fiscal faculty research grants. We fund attendance at 
conferences and symposia that allow faculty to highlight their research 
efforts.
    While our curriculum structure frees up blocks of time, this 
allocation of time is different from the experience of many of our 
civilian faculty who are used to having days within each week that they 
can use for research and writing. This requires some adaptability on 
their part.
    Our appraisal criteria examine how an individual faculty member 
contributes to the overall mission of the USAWC: education, research 
and publication, support to the operational and institutional force, 
and strategic communications, as well as service to the institution. 
The value placed on each element depends upon an individual faculty 
member's primary duties.
    In addition to formal appraisals, we also have an annual Faculty 
Writing Awards Program that offers monetary prizes and a formal 
recognition ceremony for award winners. Publications play a role in the 
selection of honorary academic chair holders.
    Dr. Snyder. Does having a master's degree program at these schools 
detract from the PME mission, not from the standpoint of it being easy 
to accredit existing programs, but that it may tip the focus toward the 
academic instead of professional education?
    General Williams. No. The US Army War College is a professional 
development institution that only secondarily awards a masters degree 
due to the quality of our faculty, curriculum, and students. We must 
not become a graduate school that only happens to award a secondary 
professional qualification.
    Our civilian regional accrediting body, the Middle States 
Commission of Higher Education (MSCHE), has not asked us to do anything 
that runs counter to our professional program. MSCHE personnel have 
emphasized that they accredit all kinds of professional schools and 
understand that we have professional standards that we must meet.
    Over the last decade, we have increased the difficulty of our 
programs, added more (and more complex) material, and increased 
standards. But, these changes have been made not because of any 
external academic pressure, but because it is the right thing to do for 
the professional development of our graduates who face an increasingly 
complex and difficult international security environment. To perform 
well as advisers to senior leaders or ultimately as senior leaders, 
requires our students to be exposed to a much broader set of more 
complex ideas than may have been true 10-15 years ago. While some of 
these concepts are academic in nature (e.g., critical and creative 
thinking, organizational culture and behavior, negotiations, 
international relations, or philosophies of war), these concepts are 
examined, analyzed, and assessed within a professional context. More 
importantly, our graduates will have to apply this professional 
development in the real world if, as senior leaders (or their 
advisers), they are to be successful in meeting the complex demands of 
the 21st century security environment. As a result of these changes, 
some of our students will discover that the Army War College does not 
resemble their ``senior raters'' experience of 10-12 years ago, and may 
find it convenient to blame the master's degree and ``academics.'' But, 
in reality, while professional topics, demands, and standards have 
increased, no new major, purely academic requirements have been added.
    The greater risk of tilting the institutional focus may lie in the 
type of faculty hired. If an institution hires only civilian faculty 
with terminal academic degrees, but little or no professional 
experience at the expense of hiring faculty with relevant professional 
experience (and, appropriate advanced degrees), then academic faculty 
may default to their academic perspective and eventually tip the 
balance in an academic vice professional direction. It is incumbent 
upon the College, Service and Joint leadership, therefore, to ensure 
that our PME/JPME institutions remain focused on the professional 
development of our students. This is not an argument against 
appropriate academic rigor or qualifications, but rather for an 
appropriate mix of the best of both the professional and academic 
worlds.
    Dr. Snyder. Do all of your students receive master's degrees--why 
or why not? What does top quality in uniformed faculty mean to you? 
Please be specific, is it more important to have an advanced degree in 
specific areas like international relations, political science, a 
regional study, or military or political history than it is to have a 
PhD in any subject even if that was in math or engineering?
    General Williams. All US students who meet the prerequisite of a 
BA/BS degree are automatically enrolled in the Master of Strategic 
Studies Degree (MSS) program. In effect, this means nearly 100 percent, 
as only the occasional civilian student may not possess a BA/BS. 
Academic failures are very rare in our Resident Education Program, more 
frequent in our Distance Education Program. Student withdrawals (both 
voluntary and involuntary) occur.
    International Fellows are not enrolled until they demonstrate 
appropriate English proficiency (usually via the Test of English as a 
Foreign Language) and the equivalent of a US BA/BS degree (vetted 
through an outside accrediting body). Roughly 60 percent of 40-43 
International Fellows attending each year have earned the degree.
    We look at all faculty recruiting from a holistic perspective. An 
ideal uniformed candidate would be a colonel (or equivalent) with past 
battalion and brigade command, service on a higher level staff, 
possession of a terminal degree in an academic discipline within our 
curriculum, senior level college credit, Joint Professional Military 
Education Phase II credit, and past teaching experience. As very few 
such candidates exist, we try to get the greatest possible number of 
these qualifications from each candidate.
    Professional credentials carry the greatest weight for our 
uniformed faculty. Almost all military faculty are highly successful 
colonels (or equivalent) with O5-level command experience and are 
senior level college graduates. As the Officer Professional Military 
Education Policy (OPMEP) stipulates that only 75 percent of military 
faculty must be either Joint Qualified Officers or Senior Level College 
graduates, we usually have 3-5 officers who possess neither 
qualification, though they usually have a specific professional skill 
(e.g., space operations, information operations, Foreign Area 
Officers). Also, given the nature of our curriculum, we seek a wide 
variety of specific military skills e.g.: planners with Service 
Component Command or Combatant Command staff experience, OSD/Joint 
Staff/Service Staff experience, force development and management, and 
intelligence, to name a few.
    In terms of academic credentials, it is more important for 
uniformed faculty to have an advanced degree in a subject relevant to 
the curriculum they teach, than an advanced degree, even a Ph.D., in a 
discipline unrelated to our curriculum.
    Dr. Snyder. What does ``top quality'' mean for civilian faculty? 
Please be specific. a. Does not having tenure affect how professors 
treat ``academic freedom''?
    General Williams. Ideally, all civilian faculty would possess a mix 
of both academic and professional credentials. While many of our 
faculty possess dual skills, not all do. Therefore, civilian faculty 
must be highly proficient in the skills for which they were hired. In 
some cases, they require a terminal degree in the academic discipline 
relevant to our curriculum. In other cases, they will require extensive 
professional credentials in a major subject area that we teach (e.g., 
joint doctrine, force management, budgeting, DOD processes, theater 
strategy and campaigning, or regional studies).
    As a professional development institution, we are a student-
centered, teaching-centric organization; therefore, civilian faculty 
must be good teachers. They must be particularly adept at facilitating 
adult learning of seasoned professionals with 16-25 years of service, 
using the seminar methodology. While we would prefer that faculty 
arrive with this skill, it is a talent that can be developed over time.
    All faculty are expected to conduct research and use that research 
to enhance the curriculum. Faculty hired for an academic competency 
should have an established publication record, or if relatively junior, 
demonstrated the capacity for future publications. All faculty are 
encouraged to publish in academic or professional journals. Where 
appropriate, civilian faculty members contribute to doctrine and 
concept development, the body of knowledge of the military profession.
    We expect civilian faculty with appropriate credentials to help 
support the operational and institutional force. This support includes 
temporary duty in combat theaters, as well as support to Combatant 
Commanders, the Joint Staff, Army Staff, or a wide variety of projects 
to assist the Army's senior leadership.
    In our most recent USAWC Faculty Climate Survey (22 Jun 09), 93 
percent (strongly agree/somewhat agree collapsed) of our faculty 
surveyed (N 117 of 184, or 64 percent; statistically adequate) that 
they were free to discuss any ideas or material in seminar. Ninety-one 
percent indicated the environment encourages free discussion and 
inquiry. Eighty percent indicated that original thinking and academic 
freedom are valued at the USAWC. Qualitative comments in the survey 
reflect the numerical data. Based on this data, it appears that, by and 
large, the absence of tenure is not a major influence on the health of 
academic freedom at the USAWC. Nonetheless, academic freedom is 
oftentimes a fragile relationship requiring continuous attention by the 
USAWC leadership.
    Dr. Snyder. Since you don't have tenure, what is the process for 
renewal and non-renewal of the civilian faculty? How transparent is the 
system? Do professors know six months before they are up for renewal 
whether they will be renewed, for how long, and why? In a tenure system 
people think the faculty members have all the power, in a no-tenure 
system it appears that the school has unlimited power. How do you avoid 
the extremes and appearances of arbitrariness? How many of your 
civilian faculty don't have PhDs or JDs? Be specific about what degrees 
they do have and why they were hired.
    General Williams. We provide detailed guidelines for all aspects of 
employment of civilian faculty under Title 10 USC 4021 in our Carlisle 
Barracks Memorandum 690-2, Employment Under Title 10 Code Section 4021. 
We give a copy of this document to all civilian faculty upon hiring, 
and it is available on our web site.
    Appointments under Title 10 USC 4021 are time-limited. Not earlier 
than 12 months and not later than 6 months prior to the expiration of 
an appointment, the Department Chair or Director, based upon 
discussions with the faculty member, recommends either appointment 
termination or reappointment, along with recommended terms. The Title 
10 Board provides its recommendations to me for approval. If the Board 
recommends terms of reappointment less than that requested, we provide 
written notification to the faculty member, who has an opportunity to 
submit a written request for reconsideration through the Title 10 Board 
to me. Upon my final approval, the faculty member and their supervisor 
review the terms of the reappointment.
    Sometimes the needs of USAWC change, leading to decisions not to 
reappoint faculty members. This may be driven by a reduction in Federal 
funds; a change in mission, curriculum, or workload; re-organization of 
one or more departments, institutes or centers; or other compelling 
reasons. In such circumstances, we will make a reasonable effort to 
provide a minimum of 6 months notice to the affected faculty member(s). 
The procedures used to implement the process are consistent with 
applicable laws and regulations governing reduction in force. If 
practicable and possible, at least a 6-month notice of termination will 
be given to the individual(s) affected, but in no event will the notice 
be less than 60 days. While we have changed he specifications of 
several positions over the last decade, to date, I have not had to 
implement any reductions to our Title 10 faculty.
    Faculty may also be terminated for cause. To date, I have not 
terminated any faculty members for misconduct or inefficiency.
    Faculty members involved in a Title 10 action have access to all 
the documentation sent to the Title 10 Board, and to the 
recommendations that the Board makes to me. Any faculty member who 
wishes to question his or her non-reappointment or termination may do 
so by raising the issue through his or her chain of command to the 
Title 10 Board. All decisions on appeals are documented in writing and 
provided to the faculty member within one week of the decision.
    Faculty usually, but not always, have at least six-month notice of 
reappointment. But, the length of time depends primarily upon when, 
within the 12-month window prior to the end of their appointment, that 
the faculty member initiates the process. If submitted at the 12-month 
mark, the process is routinely completed quickly and the faculty member 
knows well before the six-month point. However, if a faculty member 
waits until the 6-month point to submit their request for 
reappointment, they obviously will have less notification time.
    The primary mechanisms for avoidance of extremes and appearances of 
arbitrariness are our adherence to established, easily accessible rules 
that govern our procedures for reappointment and termination, and the 
availability of a process for appeals and grievances. Further, our 
faculty members have access to free advice and assistance from our 
Civilian Personnel Advisory Center, our Equal Employment Opportunity 
Office, and our Legal Assistance Office. Finally, our record on 
reappointments speaks for itself. The vast majority of requests for 
reappointment are approved, and many civilian faculty members serve 
here until retirement. We have never had a successful challenge to a 
non-reappointment decision.
    Because we are a professional development institution, professional 
credentials are imperative for key members of the faculty. In some 
cases, there are no equivalent civilian academic credentials or 
experience for some of our subject areas (e.g., certain military 
specific disciplines, such as: joint and Army doctrine, campaign 
planning, force management, DOD, Joint, and Army processes). Or, we may 
find that a practitioner has the high level skills that a traditional 
academic scholar may not possess.
    Some brief examples may be illustrative. Although the Director, 
Concepts and Doctrine, later completed his Ph.D. in Military History 
(Temple University), he originally was hired because, literally, no one 
in the world knows more about the organization of command and control 
of Army headquarters at the Army Service Component Command level and 
above. He also taught history at the U.S. Military Academy and served 
on the faculty of the Armed (now Joint) Forces Staff College (JPME II) 
for two years.
    Our Professor, Resource Management, has a MS degree in Operations 
Research and Systems Analysis. More importantly, he spent three years 
on the Army Staff as the Chief, Resource Analysis and Integration. Few 
in the Army understand the planning, programming, and budget systems 
better. He routinely advises the Army Staff on resource matters.
    The Professor, Strategic Art, Advanced Strategic Art Program, 
brings 30 years of experience as a retired colonel Functional Area 59, 
Strategist. A former USAWC Director of Theater Strategy and Elihu Root 
chair holder, he is a Joint Specialty Officer and School for Advanced 
Military Studies (SAMS) graduate with extensive on-the-ground 
experience in every area of responsibility. He was a key planner for 
Operation JUST CAUSE in Panama, and served as an interagency advisor to 
and designer of the CENTCOM Joint Interagency Coordination Group in 
support of OEF and OIF. From 2005 through 2008 he was a Joint Staff J7 
contracted interagency specialist and posted to EUCOM with exposure to 
the establishment of AFRICOM. He has became a recognized subject matter 
expert on interagency operations and 'whole of government' approaches, 
served on interagency transformation forums, and contributed to the 
``Beyond Goldwater-Nichols Phase II Report'' and the Project on 
National Security Reform's ``Forging a New Shield.''
    Practitioners can bring unique skills that an academic career 
cannot provide. Our Professor, Security Studies, served in the Pentagon 
for over 20 years, including as Deputy Assistant Secretary of Defense 
(Special Operations Policy and Support), OASD, SO/LIC and Principle 
Director, Strategy Plans, and Resources, OASD (Homeland Defense). He 
brings unique insights into the workings of the Department of Defense, 
Department of Homeland Security and other national security agencies. 
His publication record adds further to his qualifications.
    Similar professional qualifications apply to our representatives 
from the Intelligence Community (CIA, DIA, and NSA). We are able to 
supplement this expertise with our DeSerio Chair of Strategic 
Intelligence (privately funded via an endowment), currently filled by a 
former very senior member of the Intelligence Community. We also 
benefit greatly from support by the Department of State and USAID, 
which routinely provide three-four faculty members with tremendous 
practical experience with the diplomatic instrument of power. Our Omar 
Bradley Chair of Strategic Leadership (an annual, rotating visiting 
professorship funded via our Army War College Foundation) oftentimes is 
held by an experienced practitioner. For example, ADM (Ret.) Dennis 
Blair, currently Director, National Intelligence, was Bradley Chair 
holder in Academic Year 2007-2008.
    Dr. Snyder. Some of you have indicated that you wish to hire 
``younger'' PhDs. Do you think they may need a bit of seasoning or 
practical experience to be able to hold their own with the caliber and 
seniority of students you have? Does it mean you have to push out 
``older professors'' who may be performing well in order to bring on 
younger ones?
    General Williams. Generally, we would agree that, given our student 
body of 16-25 year professionals, civilian faculty need a certain 
degree of seasoning to be effective. However, to a large degree, this 
depends upon the individual faculty member and the discipline they 
teach. We have several relatively younger (mid-30s) visiting professors 
and full-time faculty who have done well in the seminar. If they have 
the requisite academic and publishing credentials and are effective 
teachers, our students respond well.
    No, we believe that we can accomplish this over time through 
routine attrition and hiring of replacement faculty. It is worth 
noting, however, such opportunities are limited. Within our four 
teaching departments, we have only 27 full-time civilian teaching 
positions. Of those, we would classify only 20 of those as being 
academically related disciplines.
    Dr. Snyder. National and ICAF have 1/3, 1/3, 1/3 faculty and 
student mixes while the Service schools have a 60% host and 40% other 
mix. Are the faculty and student mixes dictated for the various 
institutions still appropriate? If so, was it appropriate for Congress 
to allow the Service senior schools to award JPME II credit (NDAA FY 
2005) despite their lower ratios, non-neutral ground, and lack of a 
requirement to send any graduates to joint assignments? ICAF and 
National must send ``50% plus one'' graduates to joint assignments. Is 
this still appropriate? Should Service schools have some kind of 
requirement?
    General Williams. At the time of NDAA FY2005, we agreed that the 
60/40 mix for Senior Service Colleges was appropriate; but that it put 
us close to the tipping point of being able to remain--within a Joint 
context--the Army's center of landpower excellence. Our experience 
since 2006 has reinforced that conclusion. We do not believe that the 
host percentage should be reduced below 60 percent.
    We believe that, at the time, it was absolutely appropriate to 
grant Senior Service Colleges JPME II credit, and is even more 
appropriate today. Regardless of school, curricula are focused at the 
strategic level, where all actions are conducted in a Joint, 
Interagency, Intergovernmental, and Multinational context.
    Service Colleges should be assessed on how well they meet standards 
for Joint education set forth in law and the CJCS, Officer Professional 
Military Education Policy (OPMEP). This distills down to a combination 
of Joint curriculum and interaction with students from different 
Services, countries, backgrounds, and perspectives. The Joint Staff--
via the rigorous and comprehensive Process for Accreditation of Joint 
Education (PAJE)--ensures that the Senior Service Colleges provide an 
appropriate Joint curriculum. In the second instance, we know of no 
objective evidence to assist in determining how many officers from 
different Services, nations and organizations are required for 
acculturation to occur. We remain convinced that NDAA FY05 provisions 
and the OPMEP standards provide sufficient acculturation.
    The issue of ``neutral ground'' may not be relevant. At the Army 
War College, it's not simply about exposing Army officers to officers 
from other Services. It's also about exposing officers from other 
Services and backgrounds to the U.S. Army. Similarly, the lack of a 
requirement to send graduates to Joint assignments does not appear to 
be a relevant criterion.
    With the granting of JPME II authority to Senior Service Colleges, 
it may be appropriate to apply some assignment criteria (perhaps 50 
percent plus one) to the overall output from all JPME II producing 
schools, vice the existing requirement levied only on ICAF and National 
War College. A comprehensive requirement would give Services more 
flexibility in assigning students.
    Dr. Snyder. What constitutes rigor in your educational program? 
Does rigor require letter grades? Does rigor require written exams? 
Does rigor require the writing of research or analytical papers, and if 
so, of what length? Does rigor require increased contact time and less 
``white space'' or vice versa?
    General Williams. A response to this question requires some 
context. Senior Level Colleges are not Ph.D. producing programs. They 
are professional development programs leading to a master's degree 
within the confines of the profession. Programs should be viewed and 
students should be assessed accordingly.
    For Army students, at least, depending upon career field only 4-8 
percent of a year group will attend any form of Senior Level College 
experience. And, these individual are selected from a group that 
already has passed through a considerable winnowing process of multiple 
promotion and selection boards. In short, these are highly qualified 
and successful professionals.
    Historically, the bulk of our students (77-81 percent between AY06-
AY09) arrive with at least one advanced degree. Of those, 3-7 percent 
(depending upon the year) possessed a PhD/JD/MD. In one of our most 
recent curriculum surveys (AY2009), over 90 percent of students 
indicated (across eight different categories) that their USAWC 
experience was equal to or more demanding than their previous graduate 
experiences.
    We should also recall that our students are very experienced 
professionals, the great bulk of whom are intrinsically and highly 
motivated to do well. Nor should we ignore the important effect of peer 
pressure upon seminar dialogue. Few, if any, of our students wish to 
appear unprepared or foolish in front of their contemporaries.
    In this light, our evaluation system for each course relies upon 
faculty assessment of the student's contribution (not participation, as 
they can be two very different results), an oral presentation (time 
allowing in the course), and evaluation of a written product (the 
length of which varies from course to course).
    The rigor applied to each of these mechanisms depends to a 
significant degree upon the quality of the faculty member doing the 
evaluation, the standards that the faculty member applies, the 
consistency with which the faculty member applies those standards, and 
the manner in which feedback is provided to the student.
    Without some form of grading system, the ability to determine 
student performance against learning objectives is not possible. Nor 
without some form of assessment system can students receive appropriate 
feedback on how well they have performed against those standards. But, 
just as graduate schools use a wide variety of grading systems; Senior 
Level Colleges should be free to use a system that best fits their 
institutional needs.
    Written exams may or may not be appropriate; depending upon the 
institution's chosen evaluation mechanisms. But, as numerous high-
quality Ph.D. programs demonstrate, written examinations are not always 
required for individual courses.
    Written requirements are absolutely necessary. Our graduates will 
increasingly use written communication as their primary means of 
disseminating information and obtaining decisions. Good writing is a 
reflection of good thinking, and good thinking skills are what we 
require of our graduates. The nature of these writing mechanisms should 
stem from the nature of work required by the profession. Most of our 
graduates will hold positions where the two-page point paper will be an 
art form. On some occasions, those point papers will be buttressed by 
5-10 page supporting documents. Our evaluation mechanisms and writing 
requirements should reflect those forms of professional communication. 
That said, because writing is as much a thinking exercise as a research 
exercise, we still require students to complete a 5,000 word (roughly 
20 pages) Strategy Research Project.
    The answer to the issues of more or less contact time vs. ``white 
space'' depends upon the particular assessment mechanisms and 
methodology used by a school. If class contribution is the primary 
evaluation mechanism, then more contact time offers greater opportunity 
to observe student contributions. Conversely, if research papers are 
the primary mechanism, then students should have more time for research 
and writing, with commensurate reduction in contact time. If written 
tests are given, with the test material largely taken from classroom 
lectures, then more time in class may be appropriate. Our mix of class 
contribution, participation in group practical exercise, short papers 
(5-8 pages), and point papers (1-3 pages) benefits from a different mix 
of in-class instruction and time out of class for reflection.
    We also want students to reflect on the curriculum in light of 
their experience and what that may mean for their futures. Reflection 
requires students to master the material, compare that substance with 
their professional experience, synthesize new knowledge from that 
comparison, and then to be prepared to use that new knowledge in 
innovative ways to address issues that they will face in the future. 
Reflection requires time, which argues for more ``white space.''
    However, the need for more reflective time directly competes with 
the already high and increasing demands from multiple DOD, Joint, and 
Service leaders who place great faith in the ability of Senior Level 
Colleges (and other JPME/PME institutions) to address or remediate many 
of the problems currently facing the force. Demands to add more 
subjects and material to our programs run the risk of diluting the 
curricula to the point where schools may be unable to provide 
sufficient depth of inquiry and time necessary for reflection. The 
irony, therefore, is that to add rigor may require reducing the 
curriculum, not adding to it.
    Dr. Snyder. Can you describe how you survey students, graduates, 
and graduates' supervisors to assess the quality of your program?
    General Williams. The USAWC utilizes a variety of tools to assess 
institutional effectiveness. The Office of Institutional Assessment 
prepares and analyzes surveys of students, faculty and staff, alumni, 
and flag officers. Our Institutional Assessment Plan and the Curriculum 
Assessment Plan establish a process through which students, faculty, 
and staff are surveyed; data are collected, analyzed, shared, and used 
in planning and decision-making.
    Students: Incoming resident students complete a pre-assessment 
prior to arrival at the USAWC to determine existing levels of knowledge 
in areas that students will study. Respondents to the pre-assessment 
are administered a post-assessment survey to determine if statistically 
significant differences exist between their pre-and post-assessment.
    Students are requested to complete surveys on each of the core 
courses, the Strategic Decision Making Exercise, electives, and a 
comprehensive end of the year assessment of the resident and distance 
education programs. While each Course Director (resident program) or 
Course Author (distance program) provides input to the surveys, we 
consistently address institutional level issues across all courses, to 
include questions regarding the curriculum, course learning objectives, 
faculty instruction, experiential learning opportunities, and overall 
level of satisfaction with the course or activity. The USAWC leadership 
uses the information for planning and assessment of the effectiveness 
of the curriculum.
    Students also complete exit surveys of the Resident, Distance, and 
International Fellows programs that include questions on satisfaction 
with program components, degree to which Institutional Leaning 
Objectives were met, and overall quality of the USAWC experience. The 
results are analyzed and summarized in a report to the Dean, Department 
Chairs, Directors, and other individuals for purposes of continuous 
quality improvement.
    Graduates: For the USAWC curriculum to be effective, it must 
address the requirements of the field. The USAWC leadership and faculty 
must know that what is taught is what is needed for USAWC graduates to 
function effectively. To ensure that the curriculum reflects 
requirements of the field, the USAWC conducts periodic surveys of its 
graduates once every two years as part of its curriculum evaluation and 
strategic planning cycle.
    Graduates' Supervisors: General Officers of the Army, Army Reserve, 
and the Army National Guard are surveyed formally once every two years 
to obtain their views on the USAWC curriculum which are incorporated 
into curriculum revision. Respondents give their views toward the 
primary focus of a Senior Service College, skills senior officers will 
most need in the next 10 to 15 years, and adequacy of the USAWC 
curriculum.
    Dr. Snyder. Should the OSD Chancellors office be reestablished? Why 
or Why not?
    General Williams. We do not see the necessity of such an 
initiative. On a professional level, the CJCS via the Joint Staff 
oversees and accredits our JPME producing programs. The Army via 
Training and Doctrine Command oversees the Army PME portion of our 
curricula. Academically, the Middle States Commission on Higher 
Education (our regional accrediting body) oversees the accreditation of 
the Master of Strategic Studies Degree. Adding a fourth layer of 
oversight seems neither useful to the PME/JPME institutions nor an 
efficient and effective expenditure of resources.
    Dr. Snyder. Ethics--what should be the role of ethical education at 
the senior schools beyond ``just war'' theory?
    General Williams. The teaching of ethics at senior service schools 
should go far beyond that of ``Just War'' theory. If we want our 
students to advise and act to do what is right for the Nation, it is 
important and necessary for them to consider and study moral 
understanding, to understand the nature of personal responsibility, and 
to be able to think about and discuss ethical issues without confusion. 
This is difficult to do without some education on the ideas that have 
been developed and discussed by many of the greatest minds over the 
centuries. To that end, the U.S. Army War College (USAWC) treats the 
study of ethics in a holistic way, with an integrative approach to the 
core and elective curriculum. I'm confident that a similar approach 
exists in the other Senior Service Colleges and at the National Defense 
University, but I'll limit my response to the Army War College 
experience.
    Ethics has for years been identified as one of our ``enduring 
themes'' to guide our curriculum development and education experience. 
As such, the USAWC formally presents the study of ethics across the 
core curriculum. Chronologically, the students review the role and 
importance of Ethical Reasoning as a dedicated lesson within our 
Strategic Thinking course. They study Just War Theory (justification 
for war and just conduct in war) during our Theory of War and Strategy 
course. Then, students study Ethics of the Military Profession and 
Ethics for Strategic Leaders during two lessons in our Strategic 
Leadership course. A new reading this year will focus on the ethical 
use of power and authority as strategic leaders contemplate their roles 
in acquisition, resource stewardship, and advancing the health of their 
institution. During this course, we also host a funded guest lecturer 
to present to the students and faculty on the ethical perspectives of a 
national security issue of current interest. Finally, students study 
civil-military relations during our National Security, Policy, and 
Strategy course.
    Ethics retains a prominent role in our elective program, with a 
highly subscribed course entitled, ``Ethics and Warfare.'' 
Additionally, in academic year 2009, Ethics was the theme of our 
Commandant's Lecture Series, during which we hosted a number of 
internationally recognized speakers on a range of related topics 
including issues like: the limits of dissent and the role of 
proportionality in 21st Century.
    I am convinced that a broad exposure to--and application of--the 
study of ethics throughout the year of senior service schools is 
crucial to the preparation of our students for continued service and 
leadership at more senior levels, both in their Services and in 
governmental agencies. We continue to look for such integrative 
experiences at the US Army War College at Carlisle Barracks.
    Dr. Snyder. Should each school have a Board of Visitors or 
Consultants, separate from your University's, so it could focus just on 
your mission?
    General Williams. As the USAWC is not part of a university system, 
our Board of Visitors focuses solely on the USAWC mission.
    Dr. Snyder. The terms ``training'' and ``education'' seem to be 
used interchangeably quite a bit. Can you tell me how you define the 
difference and what part of your curriculum is training and which part 
is education?
    General Forsyth. We do not use these terms interchangeably at the 
Air War College. Air Force doctrine differentiates between education 
and training as follows: ``Although both education and training are 
essential to operational capability, they are fundamentally different. 
Education prepares individuals for dynamic operational environments, 
while training is essential in developing skill sets for complex 
systems . . . . the distinction between their essential natures remains 
critical to the success of each.'' *
---------------------------------------------------------------------------
    * AFDD 1-1 ``Leadership and Force Development'' 18 Feb 2006
---------------------------------------------------------------------------
    This doctrine document distinguishes education from training 
through the following comparisons: *

    1.  Training

    a.  Functions best within defined parameters and expected 
environments

    b.  Develops skills that are usually limited to the specialty 
related to that skill set

    c.  Does not involve developing logic talents to create new thought

    d.  Diminishes in value with uncertainty; the further the situation 
progresses from the talents of the individual, the less effective the 
individual becomes in implementing a successful solution

    2.  Education

    a.  Prepares people to cope with ill-defined parameters and reduce 
uncertainties

    b.  Prepares the individual to think critically and creatively 
leading to solutions of unfamiliar problems

    c.  Increases in value in the face of uncertainty and continually 
evolving situations

    d.  Open-ended, looking strategically at relationships, synergies, 
and second/third order effects

    Air Force doctrine also highlights the dominance of education at 
the strategic level stating ``education and training at the strategic 
level assists in developing the skills to form accurate frames of 
reference, make sound decisions, uncover underlying connections to deal 
with more general issues, and engage in creative, innovative thinking 
that recognizes new solutions and new options. At this level, education 
assumes a predominant role in an Airman's development. Education 
emphasizes understanding of broad concepts and offers insights into 
complex issues not commonly available in operational environments. It 
focuses on the institutional Air Force and joint, interagency, 
business, and international views.'' *
---------------------------------------------------------------------------
    * AFDD 1-1 ``Leadership and Force Development'' 18 Feb 2006
---------------------------------------------------------------------------
    The Air War College educational philosophy aligns with these 
doctrinal tenets, focused on education at the strategic level in the 
joint, international and interagency environment. Air War College 
focuses exclusively on education, leaving training to be conducted at 
the appropriate commander or functional course.
    Dr. Snyder. The 1989 Skelton Panel Report said all the Commandants 
and Presidents should teach so that they would understand what it takes 
to be a faculty member. Can you describe a typical faculty member's 
day? Do you yourself teach or mentor individual students? a. Unlike 
civilian university professors who emphasize research, your faculty 
members generally do not have teaching assistants, research assistants, 
or set office hours. When do they have time for service, research, and 
writing? How much research and writing do you expect them to do outside 
the sabbatical windows? How is this assessed on their appraisals, 
military and civilian?
    General Forsyth. Understanding what it takes to be a faculty member 
is an essential element of successful war college leadership. I do not, 
however, feel it is fundamentally different from the challenge of 
leading any complex organization; success does not require that the 
leader maintain all of the same tactical-level duties and 
certifications as line members of the organization. I maintain 
awareness of what it takes to be a faculty member by observing seminars 
and lectures, through course and curriculum reviews and through daily 
interaction with the faculty and students. All of my subordinate 
leaders such as deputies, deans, department chairs and course directors 
maintain their faculty qualifications and actively teach in the 
classroom. I act as a mentor for both faculty and students. From 
setting my expectations at the start of the academic year to periodic 
meetings with faculty and student leaders to sessions with the entire 
student body, my leadership style is personal, direct and hands-on. I 
have given numerous lectures in the leadership series and in the 
warfighting course in addition to addressing several elective classes.
    A typical faculty member's day varies according to the academic 
calendar. While the faculty member's core course is ``on the boards'' 
(typically three to five months of the year), the majority of the day 
is spent advising student research, teaching and preparing to teach. 
The average week consists of two or three three-hour classroom 
sessions, usually two faculty workshops to prepare for those sessions, 
with the remaining time spent in preparation for class. When ``off the 
boards'' faculty members will still advise students and most likely 
will be developing curriculum for the next academic period. They may 
teach an elective course one or two days a week, pursue individual 
research interests, and attend conferences or other faculty development 
events to ensure they stay current and relevant.
    a. Unlike civilian university professors who emphasize research, 
your faculty members generally do not have teaching assistants, 
research assistants, or set office hours. When do they have time for 
service, research, and writing? How much research and writing do you 
expect them to do outside the sabbatical windows? How is this assessed 
on their appraisals, military and civilian?
    Although the Air War College does not have teaching or research 
assistants, we do have supporting structures, for example, that assist 
faculty members by obtaining copyrights for articles and assembling and 
producing course readers. The faculty and students collaborate on 
research projects which can result in edited volumes. Civilian faculty 
members participate in sabbaticals for research, including a standing 
agreement to provide one faculty member annually to the Air Force 
Research Institute to share research time between directed topics and 
topics of personal interest. When not on sabbatical, a faculty member's 
workplan typically specifies completion of one journal article and one 
op-ed piece as minimum annual requirements. Military faculty members 
are expected to produce at least one journal article during their tour 
at the Air War College. Supervisors assess research and writing for 
both civilian and military faculty on annual appraisals based on 
individual workplans which outline expectations in the three areas of 
teaching, research and publication, and service to the institution. The 
Air University Commander has outlined these expectations for faculty at 
all Air University schools. Teaching is priority one for all faculty, 
followed in priority by research then service for civilian faculty and 
service then research for military faculty.<dagger> Within that broad 
guidance, supervisors build annual workplans for each faculty member, 
articulating specific, individually-tailored expectations and goals in 
the areas of teaching, research and publication, and service.
---------------------------------------------------------------------------
    <dagger> Source AUI 36-105
---------------------------------------------------------------------------
    The research results speak for themselves. Over the last three 
academic years, Air War College faculty members have produced 13 books, 
26 book chapters, and 69 journal articles. Faculty members have five 
books in the queue for publication in the coming academic year.
    Dr. Snyder. Does having a master's degree program at these schools 
detract from the PME mission, not from the standpoint of it being easy 
to accredit existing programs, but that it may tip the focus toward the 
academic instead of professional education?
    General Forsyth. The Air War College focuses first and foremost on 
delivering the best possible professional military education. Because 
we maintain the rigor of a graduate school with a PME curriculum 
created and taught by a highly-qualified graduate faculty, we have been 
able to achieve accreditation for our master's degree from the Southern 
Association of Colleges and Schools. This is a virtuous circle as 
accreditation helps us attract faculty members who are second to none, 
which in turn improves our PME curriculum and teaching.
    The decision to maintain accreditation provides a master's degree 
for our graduates and translates into civilian terms the importance we 
place on rigorous education. We did not seek the master's degree for 
its own sake but rather as an acknowledgement of the quality of the PME 
educational experience and the importance of that experience to the 
Service. I believe that an academic focus and a professional education 
focus are complementary rather than conflicting.
    Dr. Snyder. Do all of your students receive master's degrees--why 
or why not? What does top quality in uniformed faculty mean to you? 
Please be specific, is it more important to have an advanced degree in 
specific areas like international relations, political science, a 
regional study, or military or political history than it is to have a 
PhD in any subject even if that was in math or engineering?
    General Forsyth. All US students, military and civilian, selected 
to attend Air War College in residence who possess a bachelor's degree 
or equivalent from a US college are enrolled in the master's degree 
program and will receive a Masters of Strategic Studies upon successful 
completion of Air War College. International Fellows who possess a US 
bachelor's degree or its equivalent (or meet admission requirements 
through the portfolio admission process) and meet English proficiency 
requirements by achieving a qualifying score on the Test of English as 
a Foreign Language (TOEFL) may apply for admittance into the master's 
degree program. International Fellows who do not qualify, or choose not 
to apply, to the master's degree program receive an Air War College 
Diploma but not a master's degree upon graduation.* On average, 
approximately one-half of the 45 International Fellows are admitted to 
the master's program. Thus approximately 90% of the students in an 
average Air War College class receive master's degrees while the 
remaining 10% are international fellows who either choose not to apply 
or do not meet the master's admissions standards. Air War College 
perceives the master's degree as giving credit to the students where 
credit has been earned since the program meets the master's degree 
accreditation requirements of the Southern Association of Colleges and 
Schools.
---------------------------------------------------------------------------
    * Source: AUI 36-2323
---------------------------------------------------------------------------
    What does top quality in uniformed faculty mean to you? Please be 
specific, is it more important to have an advanced degree in specific 
areas like international relations, political science, a regional 
study, or military or political history than it is to have a PhD in any 
subject even if that was in math or engineering?
    Air War College defines top quality uniformed faculty as those who: 
possess a master's degree in a curriculum-relevant subject, are 
graduates of in-residence senior-level PME, are joint qualified 
officers (JQO), have commanded at two levels (squadron and group or 
wing for Air Force and equivalents for other Services), and have the 
background (air/land/sea/space/cyberspace operations, support, etc) 
necessary to fill a specific faculty vacancy. The Air War College only 
pursues top-quality uniformed faculty, but does so with the whole 
person concept in mind and with an eye toward fielding a diverse 
faculty with the breadth of military experience necessary to develop 
and teach the curriculum. For example, the Air War College definitely 
prefers to have faculty members with PhDs in fields relevant to the PME 
curriculum such as history or international relations. But so few 
officers with such advanced degrees also have two levels of command and 
are JQOs that we may, with full knowledge, hire someone without all of 
those credentials to get a uniformed PhD faculty member who meets our 
current requirements and needs. Conversely, a candidate with a PhD in 
an area such as math or engineering may not fare well in the selection 
process without two levels of command or JQO status since those 
terminal degrees are not as applicable to the curriculum. The ability 
to make such judgment calls is essential to recruiting and maintaining 
the highest quality military faculty possible with the diversity of 
experience needed to teach and refresh the curriculum while still being 
current and relevant.
    Dr. Snyder. What does ``top quality'' mean for civilian faculty? 
Please be specific. a. Does not having tenure affect how professors 
treat ``academic freedom''?
    General Forsyth. Air War College defines a top quality civilian 
faculty as those who have: experience in the subject matter sought in 
the vacancy, evidence of academic activity and service, a record of 
publication in peer-reviewed outlets in the subject matter sought or 
related fields, and evidence of outstanding teaching and superior 
credentials. The Air War College's recent track record on hiring top 
quality faculty is very good; we recently hired a PhD from the 
University of Chicago who was teaching there and a PhD from Harvard 
University who was teaching at the London School of Economics. The 
majority of our civilian faculty members have earned their terminal 
degrees in top-30 universities such as Harvard University, University 
of Chicago, University of North Carolina, Georgetown University, 
University of Illinois, etc.
    Tenure is an issue for some members of the faculty. There have been 
in the past some candidates vying for vacant faculty positions that 
have either voiced their concerns or withdrawn themselves from 
consideration after discovering we do not have a tenure track. The most 
often cited benefits of a tenure system would be to protect faculty 
members from the vagaries of faculty management policy changes and to 
provide additional reassurances on the promise of academic freedom.
    Air University has a clearly articulated policy on academic freedom 
which is an amended form of the American Association of University 
Professors (AAUP) definition of academic freedom. The Air University 
Policy states: *
---------------------------------------------------------------------------
    * Source AUI 36-2308

        Air University faculty, students, and staff are members of a 
        learned profession, and members of their respective educational 
        organizations. The free exchange of opinions and ideas is 
        essential to the educational process and, to the greatest 
        extent possible, faculty, students, and staff are encouraged to 
        speak and write freely. Even in this academic setting, however, 
        the importance of the University's military mission requires 
        limits on some types of expression. For example, in accordance 
        with the Uniform Code of Military Justice (UCMJ), commissioned 
        officers, officer trainees, and cadets may not use contemptuous 
        words toward the President, Vice President, Congress, the 
        Secretary of Defense, the Secretary of the Air Force, and 
        others. In addition, military members may not make 
        disrespectful remarks about a superior commissioned officer, 
        nor may an enlisted member make a disrespectful statement 
        toward a superior noncommissioned officer. In addition to these 
        specific restrictions on military members, faculty, students, 
        and staff should remember that the public might judge the armed 
        forces or Air University by their spoken or written statements. 
        In any public forum, Air University faculty, students and staff 
        members should make every effort to indicate clearly that the 
        opinions they express are personal to the member, and do not 
        represent the official views of their organization, Air 
        University, the United States Air Force, the US government, or 
---------------------------------------------------------------------------
        any other government or academic community.

    The concerns some faculty members have expressed about variability 
of faculty management policies requires a more detailed explanation. 
The authority for hiring and reappointing civilian faculty members 
rests with the Air University Commander, not the Air War College 
Commandant. Air University offered a tenure track for Air War College 
faculty until 1 May 2003.*** Without tenure, the length of an 
appointment period has been a concern for faculty members. Air Force 
policy states that initial appointments will not normally exceed three 
years.** Air University policy is that subsequent reappointments after 
that initial three-year term are for periods of one to five years While 
the faculty maintains confidence in the Air War College Commandant's 
ability to represent their interests adequately at the Air University 
level, some find disconcerting the fact that, in the absence of tenure, 
their Commandant is not the decision authority for reappointments.
---------------------------------------------------------------------------
    ** Source AFI 36-804
    *** Source AU Sup to AFI 36-804
---------------------------------------------------------------------------
    Dr. Snyder. Since you don't have tenure, what is the process for 
renewal and non-renewal of the civilian faculty? How transparent is the 
system? Do professors know six months before they are up for renewal 
whether they will be renewed, for how long, and why? In a tenure system 
people think the faculty members have all the power, in a no-tenure 
system it appears that the school has unlimited power. How do you avoid 
the extremes and appearances of arbitrariness? How many of your 
civilian faculty don't have PhDs or JDs? Be specific about what degrees 
they do have and why they were hired.
    General Forsyth. Currently, the Air University Commander is the 
authority for reappointing civilian faculty members, not the Air War 
College Commandant. Therefore, Air University outlines the 
reappointment process in the Air University supplement to Air Force 
Instruction (AFI) 36-804 ``Civilian Faculty Pay Plan for Air University 
and the USAF Academy.'' Implementation guidance for Air University 
Instructions is contained in Spaatz Center for Officer Education 
Operating Instruction 36-3, ``Faculty Management,'' and Air War College 
supplement to AFI36-804, ``Air War College Civilian Faculty Pay Plan 
Procedures.'' A brief summary of the process follows.
    The reappointment process normally begins 12 months prior to the 
expiration of a faculty member's current appointment. Air University 
policy requires that any non-renewal decision must be communicated to 
the faculty member in writing at least 12 months before the effective 
date for those on an appointment of two years or longer.* The faculty 
member's supervisor prepares a staff summary sheet which details the 
faculty member's current appointment data and the requested 
reappointment terms. The faculty member's vita or resume is attached as 
supporting documentation and forwarded to the Dean of Academics and the 
Air War College Commandant for review. The Air War College Commandant 
signs the staff summary sheet and sends the renewal package to the Air 
University Commander for approval. Once approved, the faculty member's 
supervisor explains the terms of reappointment approved by the Air 
University Commander to the faculty member. In most cases, these should 
be the same terms the Commandant recommended with the initial package. 
In those cases where the approved terms are different than the ones the 
Air War College Commandant recommended, the rationale for the change 
will be communicated back to the faculty member. There are two 
exceptions to the general procedures as outlined: one for renewal of 
faculty completing their initial appointment and one for faculty being 
nominated for the maximum five-year renewal.
---------------------------------------------------------------------------
    * Source AU Sup to AFI 36-804
---------------------------------------------------------------------------
    Air War College faculty members seeking renewal upon completion of 
their initial appointment assemble a more detailed package summarizing 
their teaching, research and publication, and service to the 
institution during their initial period of appointment. This package is 
submitted to the Air War College Review Group, a faculty advisory 
committee that makes recommendations to the Dean of Academics on 
initial reappointments and promotions. Members of the committee, two 
military and three civilian, are senior faculty members elected by 
their peers. The committee makes its recommendation on reappointment to 
the dean, who forwards it along with the more detailed reappointment 
package to the Air War College Commandant for review.
    The second exception to the normal process occurs when the Air War 
College Commandant requests a five-year reappointment. It is Air 
University policy that the longest reappointment period will be five 
years. The current Air University policy is to not accept a five-year 
reappointment request until 120 days prior to the expiration of the 
faculty member's current appointment rather than 12 months prior as is 
the case for reappointments of less than five years.
    In a tenure system people think the faculty members have all the 
power, in a no-tenure system it appears that the school has unlimited 
power. How do you avoid the extremes and appearances of arbitrariness?
    The levels of review and approval in the reappointment process, the 
use of standard reappointment periods and the peer review provided by 
the College Review Group for initial reappointments mitigate against 
extremes and arbitrariness. Without tenure, however, the length of an 
appointment period has been a concern for some faculty members. Air 
Force policy states that initial appointments will not normally exceed 
three years.** Air University policy is that subsequent reappointments 
after that initial three-year term are for periods of one to five 
years.* While the faculty maintains confidence in the Air War College 
Commandant's ability to represent their interests adequately at the Air 
University level, some find disconcerting the fact that, in the absence 
of tenure, their Commandant is not the decision authority for 
reappointments.
---------------------------------------------------------------------------
    ** Source AFI 36-804
---------------------------------------------------------------------------
    How many of your civilian faculty don't have PhDs or JDs? Be 
specific about what degrees they do have and why they were hired.
    Fully 20 of the 21 authorized Title 10 civilian faculty members 
have a terminal degree. The one civilian faculty member without a 
terminal degree is currently serving in the leadership department. He 
was hired based on his demonstrated teaching ability, as well as the 
understanding of military leadership that he demonstrated to the hiring 
committee, developed from his extensive record as a successful leader 
in both combat and in peacetime. He possesses a BA from Auburn 
University in American History, and a Masters of Military Art and 
Science from Central Missouri University.
    Dr. Snyder. Some of you have indicated that you wish to hire 
``younger'' PhDs. Do you think they may need a bit of seasoning or 
practical experience to be able to hold their own with the caliber and 
seniority of students you have? Does it mean you have to push out 
``older professors'' who may be performing well in order to bring on 
younger ones?
    General Forsyth. The Air War College has no intention of ``pushing 
out'' older professors to bring in younger ones. Furthermore, we would 
only consider hiring a candidate who can and will be relevant and has 
demonstrated through the hiring process that he or she would excel in 
our seminar teaching environment. Effective teaching is our number one 
goal.
    Dr. Snyder. National and ICAF have 1/3, 1/3, 1/3 faculty and 
student mixes while the Service schools have a 60% host and 40% other 
mix. Are the faculty and student mixes dictated for the various 
institutions still appropriate? If so, was it appropriate for Congress 
to allow the Service senior schools to award JPME II credit (NDAA FY 
2005) despite their lower ratios, non-neutral ground, and lack of a 
requirement to send any graduates to joint assignments? ICAF and 
National must send ``50% plus one'' graduates to joint assignments. Is 
this still appropriate? Should Service schools have some kind of 
requirement?
    General Forsyth. I believe the 60% host, 40% other faculty mix is 
appropriate for the Air War College. Because civilian faculty are not 
included in the faculty mix calculation, it is important to note that 
uniformed Air Force officers only comprise one-third of the total Air 
War College faculty, a much lower percentage than the 60% military 
target would indicate. The Process for Accreditation of Joint Education 
(PAJE) rigorously administered by the Joint Staff confirmed that Air 
War College is meeting the joint learning outcomes dictated by the 
officer professional military education policy. The 40% non-host 
faculty requirement gives us enough sister-service officers to meet the 
acculturation goals of Phase II joint professional military education 
while preserving enough room on the faculty to cover the breadth of Air 
Force experience needed to educate officers on the strategic role of 
the air component in joint, interagency and multinational operations.
    With respect to Joint assignments for the graduates, this is really 
an issue for the individual service personnel system and the needs of 
the individual services. The Headquarters Air Force A1 Personnel office 
has expressed to me that for NDU they continue to support the 50+1. All 
that said, it is important to note that the quality of Air War 
College's joint education is not influenced by whether the officer is 
going immediately to a joint assignment, or going to command after 
graduation with the potential for a joint assignment to follow.
    Dr. Snyder. What constitutes rigor in your educational program? 
Does rigor require letter grades? Does rigor require written exams? 
Does rigor require the writing of research or analytical papers, and if 
so, of what length? Does rigor require increased contact time and less 
``white space'' or vice versa?
    General Forsyth. Rigor encompasses grading, active learning 
(seminars, reading, research and writing) and accountability for 
student performance. The Air War College program combines all of these 
elements to create a rigorous academic program. Students receive letter 
grades in every core and elective course. Grading for all courses 
measure student performance in deliverables such as papers, essay exams 
and presentations as well as class participation against objective 
criteria. 80% of the Air War College program is devoted to active 
learning: individual reading, exercises and seminar discussions. All 
exams given at the Air War College are in-class essay exams or take-
home papers varying from 5 to 15 pages in length. Students complete a 
professional studies research paper of approximately 20 pages with the 
goal of publishing their work in a journal. The key measure of rigor is 
not contact time, but time spent in active learning. Rigor is not 
increased by adding additional hours to the program, but by maintaining 
seminar interaction and student accountability during the contact hours 
on the schedule. The ``white space'' on the schedule is anything but 
time off. It is essential time scheduled to give the students time to 
prepare for class, during which they are held accountable for their 
classroom participation.
    Dr. Snyder. Can you describe how you survey students, graduates, 
and graduates' supervisors to assess the quality of your program?
    General Forsyth. The Air War College executes an aggressive closed-
loop feedback process to assess quality and constantly improve our 
program. While any student can critique any event, each week during the 
academic year we ask one third (rotating thirds) of the AWC class to 
provide feedback for the lectures, seminars, readings, and guest 
speakers delivered that week. These surveys provide a method to detect 
and influence immediate trends. At end of each core and elective 
course, all students and the faculty who taught the course are asked to 
provide feedback on the effectiveness, structure, relevance, and 
workload of the course as well as whether the course achieved its 
stated educational objectives. Just prior to graduation, we survey the 
students on the overall program, soliciting their feedback on whether 
the program achieved our published educational outcomes, the proportion 
of curriculum devoted to various courses, instructional methodologies 
and support. The end of course and graduate survey return rates give us 
a 95% confidence that the survey results accurately reflect the opinion 
of the student population within 5%. Finally, surveys are sent to 
graduates and the graduates' supervisors approximately 18 months after 
graduation to determine how the educational program helped the 
graduates perform in their current positions. All of this survey data 
is used to inform decisions of the curriculum builders, and is briefed 
to the commandant as part of the course approval process.
    Dr. Snyder. Should the OSD Chancellors office be reestablished? Why 
or Why not?
    General Forsyth. I was not yet the Air War College Commandant when 
OSD had a Chancellors office and therefore am not personally aware of 
all of the functions that office served. That said, it is my opinion 
that the Air War College currently receives sufficient guidance and 
oversight from the Air University Board of Visitors, the Air University 
Staff, the Air Force staff via the Air Force Learning Council, the 
Joint staff via the Process for Accreditation of Joint Education and 
the Southern Association of Colleges and Schools through accreditation 
of the master's degree program.
    Dr. Snyder. Ethics--what should be the role of ethical education at 
the senior schools beyond ``just war'' theory?
    General Forsyth. The Air War College program features a strong 
emphasis on ethics and we recently expanded the role of ethics 
education in the curriculum. Additionally, we emphasize the distinction 
between legal behavior and ethical behavior. Specifically, our Joint 
Strategic Leadership course incorporates the following instructional 
periods: establishing organizational ethics and values, ethical 
military leadership and just war, ethical dilemmas for senior leaders, 
and senior leader failures. Additionally, we offer the following 
electives which also deal with the subject: Legally Leading the Fight; 
New Mercenaries--The Causes and Consequences of Military Privatization; 
Command and Conscience; Right, Wrong, and In-Between: Ethics and Senior 
Leaders; Just War Theory and Application: Classical Wisdom and 
Contemporary Conflict; Why Insurgencies Win (and Lose) and Comparative 
Civil-Military Relations.
    Dr. Snyder. Should each school have a Board of Visitors or 
Consultants, separate from your University's, so it could focus just on 
your mission?
    General Forsyth. Not in my opinion. When the decision was made to 
pursue accreditation for Air University rather than accrediting 
individual schools, the then-existing advisory boards for individual 
degree-granting schools were abolished and replaced by the single Air 
University Board instituted under the auspices of the Air University 
Chief Academic Officer. The Air War College receives sufficient 
guidance and oversight from the Air University Board of Visitors, the 
Air University Staff, the Air Staff via the Air Force Learning Council, 
and the Joint staff via the process for accreditation of joint 
education. I see no additional value for an Air War College board of 
visitors separate from the existing Air University board.
    Dr. Snyder. Has full funding been secured for the Field Studies 
component of the Regional and Cultural Studies Course.
    General Forsyth. The Regional and Cultural Studies Course has been 
underfunded since 2003 as the costs of travel continue to rise while 
the available budget has remained unchanged. Indicative of the value 
Air War College places on this course, we reduced the scope of the 
field study while diverting funds from other needs such as faculty 
development travel to pay for this program. Cost cutting measures taken 
included reducing the number of days for field study from 14 to 12, 
visiting fewer countries, reducing the number of trips, cutting faculty 
members on each trip from three to two, booking circuitous but less 
expensive travel and purchasing non-refundable airline tickets. For 
unrelated reasons, the Air War College student load was reduced 10% 
last academic year which reduced overall costs and allowed the budget 
to cover approximately 99% of the program.
    As we make our cost estimates for the coming academic year, we 
believe the costs of the Regional and Cultural Studies Course will 
exceed our current budget by $120K. Having exhausted all cost saving 
measures we can implement and still execute a viable educational 
course, any more cuts will result in cancellation of the program. In 
previous years, Air War College and Air University have been able to 
shift funds from other programs in the year of execution to make up the 
Regional and Cultural Studies budget deficit, though growing budget 
pressures may ultimately place this program at risk.
    Dr. Snyder. The terms ``training'' and ``education'' seem to be 
used interchangeably quite a bit. Can you tell me how you define the 
difference and what part of your curriculum is training and which part 
is education?
    Colonel Belcher. Thank you for this insightful question. It cuts 
directly to the core of the Marine Corps War College's organizational 
mission and educational philosophy. The Marine Corps develops 
exceptional leaders though a tailored combination of training, 
experience, and education gained throughout each Marine's career. 
Training is a formalized process wherein students develop skills and 
behaviors in order to address known issues and events. It begins with 
entry-level training and is sustained through the completion of 
advanced schools and courses. Conversely, education is an experiential 
process wherein students develop the ability to think critically and 
creatively in order to address unexpected issues or events. Education 
allows the student to see beyond training and personal experience to 
operate successfully in a complex and dynamic environment. Per the 
direction of the 29th Commandant of the Marine Corps, General Alfred 
Gray, ``the education will emphasize how to think and stress the 
development of a logical thought process.'' The Marine Corps adage that 
best summarizes the difference is: ``We train for certainty, but 
educate for uncertainty.''
    For this reason as military officers and government officials 
progress through their careers, the emphasis of their professional 
development correspondingly shifts from training to education. 
Consequently, as the Marine Corps' Top-Level School, the Marine Corps 
War College s focused almost exclusively on education. The College's 
objective is to educate them to think independently and innovatively 
about the strategic military issues facing our Nation, rather than to 
train them for their next position. Therefore, the curriculum is broad-
based and balanced, embracing not only military matters, but also 
history, philosophy, culture, economics, geography, and geopolitics, to 
provide the student with a wide intellectual aperture to view the 
world. The curriculum does include minimal training, primarily focused 
on the implementation of Department of Defense and Marine Corps 
policies such as equal opportunity, sexual assault prevention, suicide 
awareness, and safety. Even when presenting such training, the College 
seeks to expand the students understanding of the issue through 
critical analysis and open discussion. In this way, the College can 
better prepare students to not only adhere to such policies, but to 
establish and enforce such policies in their future roles as strategic 
leaders and planners.
    Dr. Snyder. The 1989 Skelton Panel Report said all the Commandants 
and Presidents should teach so that they would understand what it takes 
to be a faculty member. Can you describe a typical faculty member's 
day? Do you yourself teach or mentor individual students? a. Unlike 
civilian university professors who emphasize research, your faculty 
members generally do not have teaching assistants, research assistants, 
or set office hours. When do they have time for service, research, and 
writing? How much research and writing do you expect them to do outside 
the sabbatical windows? How is this assessed on their appraisals, 
military and civilian?
    Colonel Belcher. The Marine Corps War College is first and foremost 
a teaching organization. However, in order for the faculty to maximize 
their educational effectiveness, they must continually grow though 
scholarly research and professional development. Recognizing this fact, 
the College's leadership affords the faculty significant autonomy in 
scheduling their daily routines to meet their professional educational 
requirements as well as their personal scholarly needs. Consequently, 
each day may vary based on the particular faculty member's 
participation in curriculum development, curriculum presentation, 
reading, research, or professional development activities. Typically, a 
faculty member will arrive at the College in the morning to finalize 
preparations for the first seminar. After reviewing correspondence, 
conferring with colleagues, and reviewing the courseware, the faculty 
member commences instruction. The faculty member then teaches either 
one three-hour seminar or two two-hour seminars based on the subject, 
the chosen instructional methodology, or the desired student-to-
instructor ratio. The afternoon is generally reserved for the faculty 
member to conduct student counseling, mentoring, course preparation, 
professional reading, and research. Faculty members frequently 
capitalize on this time to participate in meetings, symposia, 
conferences, and panels which advance their expertise in education as 
well as their respective field of study.
    In academic year 2009, I taught the College's course entitled 
``Economics as an Instrument of National Power'' to include leading a 
field study trip to the New York City Financial District. Additionally, 
I mentor the students regarding personal, professional and academic 
issues throughout the year. To that end, I conduct initial, 
intermediate and final interviews with each student. Each week during a 
Director's synthesis session, I query the students individually and 
collectively regarding the effectiveness of the curriculum and its 
presentation. I also meet weekly with the Student Class Leader to 
respond to questions and resolve concerns. Finally, I personally mentor 
each of the Marine Corps students. I monitor their academic progress 
and provide personalized guidance to prepare them for follow-on 
assignments to senior-level staff and command billets.
    Although the College is primarily a teaching institution, faculty 
members are highly encouraged to conduct independent research and 
writing. The objectives of this effort are twofold and mutually 
supporting. First, such projects keep the faculty members up to date in 
their respective field of study, allowing them to better educate their 
students. Secondly, such projects enhance the College's academic 
reputation while expanding its outreach efforts. Due to the individual 
and organizational benefits derived from such endeavors, faculty 
members are granted time in their daily schedules to conduct reading 
and research. While not required to research and write, faculty members 
are rewarded for doing so. Such extracurricular efforts are noted on 
performance appraisals and factored into the selection of faculty 
members for personal recognition or rewards.
    Expanded research opportunities are available to the faculty 
through the Marine Corps University's Personal Development Offsite 
Program. After completing five years of continuous service, teaching 
faculty members may apply for a six- month professional enrichment 
period during which he/she is expected to enhance his/her professional 
abilities while producing an academic product.
    Finally, the College is currently assessing the viability of 
implementing an internship program wherein local civilian graduate 
students would be given the opportunity to serve as Research 
Assistants. This program would provide the interns with a greater 
understanding of US military and government organizations and 
operations while earning them academic credit at their parent 
institution. It would provide the faculty with assistance in expanding 
the breadth and depth of their research efforts.
    Dr. Snyder. Does having a master's degree program at these schools 
detract from the PME mission, not from the standpoint of it being easy 
to accredit existing programs, but that it may tip the focus toward the 
academic instead of professional education?
    Colonel Belcher. The master's degree program does not detract from 
the Marine Corps War College's professional military education mission. 
In fact, it enhances it. Following his testimony before the House Armed 
Services Committee on July 12, 1989, the 29th Commandant of the Marine 
Corps, General Alfred M. Gray, directed the development of ``a world-
class'' educational institution for the study of war and the profession 
of arms. In August 1990, an elite group of six Lieutenant Colonels 
convened to participate in ``The Art of War Studies Program,'' the 
precursor of the Marine Corps War College. Since then the College has 
grown in size and scope, yet remained true to its charter and intently 
focused on producing the Nation's next generation of strategists.
    In August 2001, the Southern Association of Colleges and Schools 
(SACS) accredited the College to grant a Master of Strategic Studies to 
students who successful complete the curriculum. By focusing on how to 
teach, vice what to teach, SACS scrutiny of the curriculum added 
increased rigor and discipline to the process of preparing, presenting, 
and assessing professional military education. Though routine 
interaction SACS personnel and periodic assessments, the College was 
able to better leverage civilian educational ``best practices'' then 
apply them to the instruction of military strategy and war-fighting. 
Due to lessons learned from SACS accreditation, the University 
implemented numerous progressive educational measures to include the 
establishment of a rigorous course development process as well as the 
institution of a Board of Visitors and a Directorate for Institutional 
Research and Effectiveness.
    Dr. Snyder. Do all of your students receive master's degrees--why 
or why not? What does top quality in uniformed faculty mean to you? 
Please be specific, is it more important to have an advanced degree in 
specific areas like international relations, political science, a 
regional study, or military or political history than it is to have a 
PhD in any subject even if that was in math or engineering?
    Colonel Belcher. All of the students who successfully complete the 
Marine Corps War College Master of Strategic Studies curriculum are 
granted a diploma. Students who fail to successfully complete the 
master's degree curriculum, yet complete the course are granted a 
certificate of completion. Due to the high quality of military officers 
and government officials selected to attend the Marine Corps War 
College, no student failed to earn a master's degree in since the 
College began awarding degrees in 2001.
    My definition of a ``top quality'' military faculty member is an 
officer who has demonstrated exceptional proficiency and exemplary 
professionalism in both operational and academic environments. Such an 
officer should be broadly educated, yet possess the occupational 
expertise and operational experience required to present timely and 
detailed instruction. The officer should be a graduate of a Senior 
Level Service College, possess at least a Master's degree, and be a 
designated Joint Qualified Officer. In fact, the Chairman of the Joint 
Chiefs of Staff requires that 75% of the faculty be Senior Level School 
graduates or Joint Qualified Officers. The Marine Corps War College is 
in full compliance with this criterion. Preferably the candidate should 
also have experience as an instructor at a military or civilian 
graduate-level institution. The officer should possess both 
occupational and operational credibility gained through recent 
experience in command and staff positions. Lastly, the officer should 
be competitive for positions of higher rank and responsibility. The 
College policy is to risk continuity for capability and select upwardly 
mobile officers who may transfer early due to their selection for 
promotion or command.
    Historically, the other Services have provided the College with a 
number of potential candidates for each Service Chair. When selecting a 
Chair, the College leadership carefully evaluates each candidate's 
level of education and area of study. All other factors being equal, I 
believe an officer with an advanced degree in the specific area (i.e. 
international politics, political science a regional study or military 
history) he/she will instruct is preferable to an officer with a 
terminal degree in a more general area of study (i.e. math or 
engineering). A focused educational background lessens the learning 
curve, enabling the incoming officer to more quickly master the course 
material and commence instruction. More closely tailored academic 
credentials increase an officer's instructional capabilities, as well 
as his/her credibility and confidence. In my opinion, military 
occupational and operational experience more easily compensate for the 
lack of prestige and rigor of a terminal degree than the other way 
around.
    The military faculty is a vital to the currency and credibility of 
educational program. Consequently, the College seeks only the best 
candidates--those officers with the expertise, experience, and 
education to instruct and inspire the Nation's future strategic 
leaders, planners, and policy-makers.
    Dr. Snyder. What does ``top quality'' mean for civilian faculty? 
Please be specific. a. Does not having tenure affect how professors 
treat ``academic freedom''?
    Colonel Belcher. My definition of a ``top quality'' civilian 
faculty member is a scholar and educator who possesses 1) expertise in 
his/her respective field of study, 2) operational experience in 
curriculum-related areas, 3) a general knowledge of adult educational 
methodology and most importantly 4) a passion for developing curriculum 
and teaching our unique type of student. Such an individual should 
posses a terminal degree, yet remain a life-long student of his/her 
craft, continuously pursuing greater understanding of the subject 
though reading, research, reflection, and participation in scholarly 
form. He/she should be proficient in written and oral communications, 
able to translate complex issues into understandable terms applicable 
to any audience--students or scholars. We have two types of civilian 
faculty at the Senior Schools, Agency Chairs and Title 10 full-time 
professors. A terminal degree is required for the Title 10 professors 
and desired for Agency Chairs.
    The lack of tenure does not affect the ``academic freedom'' enjoyed 
by the faculty of the Marine Corps War College. As an institution, the 
College believes that ``academic freedom'' is fostered by a positive 
organizational culture, not guaranteed employment. It springs from an 
academic environment in which faculty and students alike are encouraged 
to voice their opinions on any relevant subjects in open, scholarly 
debate without risk of rebuke or reprisal. Such opinions must be 
expressed in a well-researched, well-reasoned, and rationale manner, 
based on valid, empirical data and devoid of emotion. The College's 
strict non-attribution policy also safeguards academic freedom. It 
allows faculty, students and guest speakers who might otherwise be 
hesitant to express their opinions to voice their thoughts without fear 
of further dissemination. The College attempts to foster such an open 
atmosphere by routinely hosting panels of subject matter experts to 
debate controversial issues as civilian-military relations, media 
coverage of military operations, and the impacts of repealing the 
Department of Defense's ``Don't Ask; Don't Tell'' policy. Similarly, 
the College encourages faculty and students to write and publish 
scholarly works on topical issues. For example, one professor recently 
submitted a chapter entitled ``The Sky Won't Fall: Policy 
Recommendations for Allowing Homosexuals to Serve Openly in the U.S. 
Military'' to the forthcoming Department of Defense book entitled 
Social Policy Perspectives 2010. By providing a safe and supportive 
organizational climate, the College generates more academic freedom 
than tenure ever could.
    Dr. Snyder. Since you don't have tenure, what is the process for 
renewal and non-renewal of the civilian faculty? How transparent is the 
system? Do professors know six months before they are up for renewal 
whether they will be renewed, for how long, and why? In a tenure system 
people think the faculty members have all the power, in a no-tenure 
system it appears that the school has unlimited power. How do you avoid 
the extremes and appearances of arbitrariness? How many of your 
civilian faculty don't have PhDs or JDs? Be specific about what degrees 
they do have and why they were hired.
    Colonel Belcher. Civilian faculty members are hired under Title 10 
authority granted to the President of Marine Corps University by the 
Secretary of the Navy. Civilian faculty members are offered a one, two 
or three-year appointment based on the needs of the college and the 
individual's qualifications. New civilian faculty members undergo a 
one-year probationary period during which their performance is 
evaluated. During the period, they are supervised and counseled on a 
periodic basis regarding their performance by the Director and the Dean 
of Academics.
    The faculty evaluation and renewal system is extremely transparent 
to the individual. He/she will receive periodic counseling as well as 
an annual performance appraisal. At least seven months prior to the end 
of the faculty member's appointment, the Director of the college or 
school recommends to the President of the University whether the 
faculty member's appointment should be renewed and for what period of 
time. If the University does not intend to retain an individual, the 
individual will be formally and informally counseled regarding his/her 
substandard performance and be given the means to improve. If he/she 
fails to improve, his/her performance appraisal will document the fact 
and state the reason for termination.
    To avoid any appearance of arbitrariness, the College leadership 
manages the civilian faculty in an upfront and forthright manner, 
providing maximum transparency while maintaining open, two-way lines of 
communication. First, the College ensures that all rules governing 
policies and procedures are clearly delineated and equitably applied. 
Each faculty member is provided a College Faculty Handbook and Marine 
Corps University Title 10 Faculty Handbook which outlines the College's 
policies for the handling of reappointments, terminations, appeals, and 
grievances.
    Second, demonstrating its long-term commitment to its faculty 
despite the absence of tenure, the College invests time and funds into 
an aggressive faculty development program. The program seeks to advance 
the faculty members personal and professional abilities through 
participation in functional area and academic meetings, panels, 
conferences, symposium, field studies, courses, and classes. By 
investing in each faculty member's development, the College develops a 
stronger cadre of instructors while recognizing the symbiotic and 
mutually supportive relationship between the individual and the 
institution.
    All, but one, of the College's civilian faculty members possess a 
Doctorate or Jurist Doctorate degree. The sole exception is the 
Department of State Chair who is a very seasoned Foreign Service 
Officer and holds the rank of Minister-Counselor. A graduate of the 
National War College, he also instructed at the Foreign Service 
Institute in Arlington, VA. Between the six civilian faculty members 
they hold five Doctorates, one Jurist Doctorate, and eight Master 
degrees. Each was hired for their subject matter expertise, operational 
experience, and academic acumen.
    Dr. Snyder. Some of you have indicated that you wish to hire 
``younger'' PhDs. Do you think they may need a bit of seasoning or 
practical experience to be able to hold their own with the caliber and 
seniority of students you have? Does it mean you have to push out 
``older professors'' who may be performing well in order to bring on 
younger ones?
    Colonel Belcher. I define ``younger professors'' to mean those with 
more academic and less operational experience than their counterpart 
despite their age. Based on this definition, I believe that ``younger 
professors'' bring an academic vitality to the curriculum that is 
essential in keeping the curriculum current and vibrant. While they 
cannot replicate or replace the operational experience or expertise of 
``older professors'' they can balance it. They can offer an educational 
counterpoint which challenges students and faculty alike to view old 
issues through new eyes. Similarly, younger professors bring new 
teaching methodology and technology (i.e. electronic courseware, blogs, 
on-line journals), to the classroom which is more acceptable to younger 
generations of students.
    The ability of younger professors to ``hold their own'' against a 
more senior student population is based on their professional 
credentials and force of personality. To discount their capabilities 
due to age or limited operational experience does a disservice to the 
professor and students alike. Routinely, dynamic young scholars move 
from academia to government administration, becoming the policy-makers 
our students will work with in developing and implementing national 
strategy. Consequently, in order to better to prepare our students in 
an interagency environment, the Marine Corps War College seeks the most 
qualified, vice the most senior, professors to instruct its students. 
This same effect can be achieved by increasing the academic interaction 
between Senior Level Service Colleges and the civilian graduate-level 
national security programs (i.e. The Johns Hopkins University School of 
Advanced International Studies, The Georgetown University Security 
Studies Program, Yale University, and Princeton University) who utilize 
younger professors to instruct. Our students would also benefit by 
interaction with the students enrolled in these civilian programs since 
frequently they consist of future government leaders, administrators 
and policy-makers. With this objective in mind, the College launched an 
ambitious academic outreach program to engage the Directors of 
prestigious civilian national security programs in order to conduct 
curriculum consultations, share'' best practices,'' and identify 
mutually beneficial collaborative educational opportunities.
    Professorial positions are filled based on availability, College 
requirements, and the evaluated merits of the candidates. However, 
given normal attrition rates and the College's ongoing expansion 
program, integration of younger professors can be done incrementally 
without adversely affecting the careers of more established faculty 
members.
    Dr. Snyder. National and ICAF have 1/3, 1/3, 1/3 faculty and 
student mixes while the Service schools have a 60% host and 40% other 
mix. Are the faculty and student mixes dictated for the various 
institutions still appropriate? If so, was it appropriate for Congress 
to allow the Service senior schools to award JPME II credit (NDAA FY 
2005) despite their lower ratios, non-neutral ground, and lack of a 
requirement to send any graduates to joint assignments? ICAF and 
National must send ``50% plus one'' graduates to joint assignments. Is 
this still appropriate? Should Service schools have some kind of 
requirement?
    Colonel Belcher. The 60% host (Sea Services: Navy, Marine Corps and 
Coast Guard) to 40% non-host department (Air Force, Army, Interagency, 
and International) student and faculty ratios are appropriate for the 
Marine Corps War College.
    Normally the College operates well below the student and faculty 
mix ratios prescribed by the OPMEP. In academic year 2010, the College 
will have a student mix of 42% (11 of 26 military students) host and 
58% non-host department. Of the five military faculty members 60% are 
from the host (3 of 5 military officers) while 40% are from non-host 
departments. This ratio enables the College to add a Sea Service flavor 
an otherwise generic joint curriculum. The 60-40 ratio allows the other 
department students to learn Sea Service operational concepts and 
experience the Sea Service culture and concepts without overwhelming 
the joint curriculum. A lesser student ratio (i.e. 1/3, 1/3. 1/3) would 
dilute the educational experience of attending the Marine Corps War 
College. Consequently, it would deprive the Service Chiefs of the 
ability to tailor their officers' education by assigning them to a 
particular War College. If all the Senior Level Services Colleges' 
student mixes and curriculum were the same, the Nation would loose the 
intellectual diversity so critical to develop innovative solutions to 
complex national security issues.
    Despite the Service-specific aspects of the Senior Level Service 
Colleges, Congress was right to grant authority for them to award JPME 
II credit. Though instruction and interaction, the Marine Corps War 
College immerses its students in a joint educational experience. The 
College's curriculum is firmly founded on the enduring joint learning 
areas and emerging special areas of interest identified by the Chairman 
of the Joint Chiefs of Staff. These joint educational standards are 
disseminated though the OPMEP and rigorously assessed by the Process 
for the Accreditation Professional Education. Yet even without such 
guidance, the College's curriculum would be joint-focused since its 
emphasis is on the strategic-level of war which by its very nature is 
joint, interagency and multinational. The College is acutely aware of 
the changing nature of modern warfare and has worked diligently to 
adapt its curriculum accordingly.
    The era of Service-centric education has passed. No matter where a 
graduate may be assigned, he/she will deal with joint, interagency, 
and/or multinational issues. Therefore, it is incumbent upon the Senior 
Level Service Colleges to provide a robust joint education, adaptable 
to any follow-on assignment. Regrettably, due to intense competition 
for limited joint billets, it would not be feasible to direct the 
Senior Level Service Colleges to implement a ``50% plus one'' policy. 
Consequently, the assignment of joint billets should be left to the 
Services and be based on 1) the needs of the Service, 2) the student's 
past operational and academic performance and future potential, and 
lastly 3) the student's desires. The Services make an organizational 
investment each time they send students to the Senior Level Service 
Colleges; therefore the Services should be afforded the opportunity to 
determine where that education reaps the highest reward.
    Dr. Snyder. What constitutes rigor in your educational program? 
Does rigor require letter grades? Does rigor require written exams? 
Does rigor require the writing of research or analytical papers, and if 
so, of what length? Does rigor require increased contact time and less 
``white space'' or vice versa?
    Colonel Belcher. In this context ``rigor'' refers to those measures 
utilized by an academic institution to challenge students and inject 
discipline, objectivity, and consistency into the educational process. 
To that end, the Marine Corps War College utilizes periodic written and 
oral assessments to determine the student's ability to analyze, 
synthesize, and evaluate (per Bloom's taxonomy) the information 
provided in the course of the curriculum (to include classroom 
instruction, field studies, and individual reading and research).
    Graded assessments add rigor and competitiveness into the 
educational process. Students at this educational level are high 
achievers and strive for the highest grades. Nonetheless, while a good 
motivational tool, grades are not the ultimate measure of a student's 
academic achievements or progress. They are tools to gauge growth, not 
goals in and of themselves, and should be used accordingly. Since 
students enter the College with varying educational, occupational, and 
operational backgrounds, they do not start the process at the same 
place nor proceed at the same rate. Graded assessments are good 
measures of a student's position relative to his/her fellow students, 
but may not fully reflect his/her professional advancement. Also, we 
have found that
    In academic year 2009, the students were required to complete six 
two-page writing assignments as well as an extensive 20-page, self-
selected Independent Research Project. The students were administered 
six multi-question essay examinations. The students also presented 
three oral presentations to include a defense of their Independent 
Research Project. Additionally, each student was evaluated on his/her 
participation in the Joint Land Air and Sea Simulation, an inter-War 
College strategic war-game held annually aboard Maxwell Air Force Base, 
Montgomery, AL. Finally the students were evaluated on their 
contribution (vice participation) during the College's five core 
course. Each assignment was subsequently evaluated by one or several 
faculty members utilizing a standardize rubric and awarded a letter 
grade. The grades for the academic year were tabulated and the top two 
graduates (10% of the graduating class) honored for their superior 
academic achievements. Their exceptional efforts were recognized and 
rewarded during graduation and were noted on their academic fitness 
reports. To encourage academic freedom and bold, audacious thought, the 
College does not list the grades of its students on their academic 
fitness reports or performance appraisals. At the graduate-level, 
academic rigor means more ``white space'' not less. It means requiring 
the student to do extensive reading, research, and reflection in 
preparation for each seminar. After analysis, the students are required 
to formulate and discuss their findings in a clear, logical and well-
reasoned manner. By their very nature, the College's students are 
mature, highly-competitive and self-directed individuals who excel in 
an indirect academic environment which allows them to integrate life 
experiences in the exploration of new concepts and the solution of 
novel problems. Like most adult learners, they need to know ``why'' 
before they commence their studies. Consequently, it is incumbent upon 
the faculty to set the broad contextual framework for their studies and 
then mentor the students as they follow their own path of educational 
exploration. Adult learners are experiential learners. Consequently, 
the College also relies heavily on exercises, role-playing, and case 
study analysis. In such venues, students need ``white space'' to 
analyze the situation, develop course of action, and reflect on their 
role. Understanding the need for ``professional study and preparation 
time'' the College dedicates each afternoon and one day per week solely 
to individual reading, research and writing.
    Dr. Snyder. Can you describe how you survey students, graduates, 
and graduates' supervisors to assess the quality of your program?
    Colonel Belcher. Working with and through the University's Director 
of Institutional Research, Assessment, and Planning, the College has 
implemented an expansive survey program. The program surveys the 
College's students, graduates, and their supervisors to gain 
information and insight regarding the quality and effectiveness of the 
curriculum.
    The first source of feedback is derived from course surveys given 
to each student during the academic year. These surveys are given at 
the end of each major block of instruction and ask the student to 
comment on the overall quality of the course, the applicability of the 
course material, the proficiency of the instructor, and the 
effectiveness of the method of presentation. This information is 
analyzed to determine the course's effectiveness in achieving the 
stated learning outcomes. Much of the information gleaned from these 
surveys is reiterated during the intermediate and final interviews with 
the Director.
    A second source of feedback is derived from surveys sent annually 
for five years to graduates. The intent of these surveys is to assess 
whether the educational experience adequately prepared graduates for 
their follow-on assignments. A similar survey is sent to each 
graduate's immediate Supervisor or Reporting Senior. This survey gains 
``the customer's perspective'' on College's educational effectiveness.
    A third source of feedback comes from faculty and staff interviews 
with senior military officers and government officials. Throughout the 
academic year, faculty and staff members query senior personnel 
regarding the characteristics and capabilities expected of the 
College's graduates. Such interviews are normally conducted during on-
site seminars or field study trips to Combatant Command, Component 
Command, Service or Agency Headquarters.
    The results of each of these surveys is analyzed and fed into the 
College's annual curriculum review process. The results are then 
utilized to refine the College's curriculum and teaching methodology to 
improve educational efficiency and effectiveness.
    Dr. Snyder. Should the OSD Chancellors office be reestablished? Why 
or Why not?
    Colonel Belcher. No, I do not believe that there is sufficient 
benefit--to OSD, the Services, or the individual institutions--in 
reestablishing an OSD Chancellors office. As configured, the current 
system provides sufficient oversight and guidance to the development, 
presentation, and assessment of joint military education.
    The Chairman of the Joint Chiefs of Staff, acting on his own and 
through the Joint Staff (specifically the Joint Education Branch (J-7)) 
is able to accurately monitor the current status of joint professional 
military education, identify existing and emerging strategic issues, 
and modify the curriculum accordingly. With an ear to Congress, the 
Secretary of Defense, the Combatant Commanders and the Service Chiefs, 
the Chairman is in the best position to determine the needs of our 
future strategic leaders and planners. This guidance serves as the 
basis for CJCS Instruction 1800.01C, Officer Professional Military 
Education Program, which is the foundation for the Senior-Level Service 
College's joint, interagency and multinational curriculum.
    The Commandant of the Marine Corps provides the next level of 
academic scrutiny and educational guidance. Working through the 
Commanding General, Training and Education Command and President, 
Marine Corps University, he ensures that the War College provides a 
joint professional military education which reflects the culture and 
operational concepts of the Corps, yet remains firmly founded in joint 
doctrine. His guidance ensures that the joint curriculum is flavored 
with Marine Corps intangibles such as an understanding of national 
power projection and a lean, expeditionary and agile mindset. In doing 
so, he provides his fellow Service Chiefs with graduates who are 
uniquely capable to understand the Marine Corps and lead joint, 
interagency, and multinational organizations.
    Finally, the Southern Association of Schools and College provides 
the academic oversight and guidance required to ensure that the joint 
curriculum meets the standards of modern post-graduate education.
    These three levels of review are adequate for addressing each 
aspect of professional military education--Joint, Service and academic. 
A fourth level of oversight would not add sufficient benefit to warrant 
the additional burden (time, energy, resources, and personnel). The 
recommendation to reestablish an OSD Chancellor's office, implies that 
the current system is broken which, based on the rigorous curriculum 
and high quality of graduates, it clearly is not. Therefore, the 
reestablishment of such an office is not required or desired.
    Dr. Snyder. Ethics--what should be the role of ethical education at 
the senior schools beyond ``just war'' theory?
    Colonel Belcher. ``Just War'' theory is just a fraction of the 
ethical education needed and taught at the senior professional military 
education schools. The fundamental emphasis of the senior schools is an 
attempt to bring about a change in the incoming students' thinking from 
the tactical or operational level to the strategic level. The 
discussion of leadership and ethics, which are inextricably 
intertwined, must be a central feature in that growth. If our graduates 
are to advise senior leaders or act in the best interests of our Nation 
with a moral component to their decision-making matrix, they must be 
grounded in the theory and practice of ethics, beginning with ethics in 
the profession of arms. The Marine Corps War College treats the study 
of leadership and ethics in a holistic manner with not only a core 
course dedicated to those topics, but also with opportunities to 
explore ethical dilemmas in other courses of study.
    The Marine Corps War College recognizes each incoming student's 
status as a mature, experienced professional. The fact that the student 
is selected to senior service school strongly suggests that he or she 
already knows much about the subject of leadership and ethics, has 
excelled as a leader at the tactical and possibly operational levels 
and has the potential to rise to very senior leadership positions. The 
College's Leadership and Ethics course provides each student an 
opportunity to examine the competencies he/she already possess in the 
light of their future roles and responsibilities. Through reading, 
research, role-playing, case study analysis and interaction with 
strategic leaders, they study leadership in the complex and uncertain 
interagency, joint and international environments where there may be no 
right answers, only difficult decisions.
    The Leadership and Ethics course begins with a study of critical 
thinking, creative thinking, decision making, and a cultural overview 
and then explores ethics and the profession of arms, the ethical and 
philosophical foundations of western philosophy from antiquity to the 
post-middle ages, and the ethical use of military force. It then 
continues with strategic decision making, collaborative decision 
making, leading change and the legal and moral implications of the use 
of force in humanitarian interventions.
    Throughout the year other courses explore ethical considerations to 
include classes on such issues as civilian-military relations, ``what 
is an American,'' the American military tradition, torture, gays in the 
military, and war in traditional society. Exploration of ethics 
continues through the year as the students debate topical issues and 
interact with scholars and strategic leaders in small group settings. 
The exposure of students to ethical questions throughout the academic 
year is crucial to the preparation of our Nation's future senior 
leaders.
    Dr. Snyder. Should each school have a Board of Visitors or 
Consultants, separate from your University's, so it could focus just on 
your mission?
    Colonel Belcher. No, a Board of Visitors or Consultants should not 
be established for each subordinate school. A single University Board 
of Visitors is adequate and appropriate for assessing the overall 
institutional effectives of the University and guiding it in achieving 
its educational mission. A single Board is a more efficient and 
effective means to guide the University and its subordinate schools. A 
single Board represents a more judicious use the time and energies of 
the President, the subordinate school Directors, as well as the Board 
members themselves. It also simplifies and clarifies the channels of 
communication to and from the Board.
    Inherent in the concept of multiple Boards of Visitors or 
Consultants is the risk that such Boards may provide conflicting or 
competing guidance to the various schools, and thereby induce undue 
turmoil. Multiple Boards, providing conflicting advice, would undermine 
the integrity of the University concept. Marine Corps University truly 
operates as a University rather than a conglomeration of separate 
schoolhouses operating independently from one another. The President, 
as the Marine Corps' advocate for professional military education, must 
depend on a single Board with the same overarching professional 
military education focus, rather than multiple Boards with a restricted 
single schoolhouse focus.
    Further, the Marine Corps University, not the subordinate colleges 
and schools is regionally accredited by the Commission on Colleges of 
the Southern Association of Colleges and Schools to award master 
degrees. The Commission on Colleges requires a single Board of Visitors 
to oversee and advise the President of the University. Multiple Boards 
providing parochial advice could jeopardize the University's regional 
accreditation. Given his/her seniority and authority, the President of 
the University is in the best position to receive and review a single 
Board's input; then apply it where applicable within the University. If 
the President determines that more scrutiny is required for the 
University at large or one or several schools in particular, he can 
increase the frequency of Board meetings or tailor the agenda to 
address a focused area of concern.
    Thank you for this opportunity to respond to questions regarding 
your Marine Corps War College. I would like to thank the Subcommittee 
for its unwavering support of the College since its inception in 1991. 
Due to the Subcommittee's diligent efforts the College has successful 
produced generations of strategic leaders, planners and policy-makers, 
and is on track to become the world-class institution for the study of 
the profession of arms and war envisioned by General Alfred M. Gray in 
1989. Semper Fidelis!

                                  <all>

</pre></body></html>
